<html>
<title> - ENERGY DEVELOPMENT ON THE OUTER CONTINENTAL SHELF AND THE FUTURE OF OUR OCEANS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
 ENERGY DEVELOPMENT ON THE OUTER CONTINENTAL SHELF AND THE FUTURE OF 
                              OUR OCEANS

=======================================================================



                        JOINT OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                             joint with the

                    SUBCOMMITTEE ON INSULAR AFFAIRS,
                          OCEANS AND WILDLIFE

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                        Tuesday, March 24, 2009

                               __________

                           Serial No. 111-13

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
48-185                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                    JIM COSTA, California, Chairman
           DOUG LAMBORN, Colorado, Ranking Republican Member

Eni F.H. Faleomavaega, American      Don Young, Alaska
    Samoa                            Louie Gohmert, Texas
Rush D. Holt, New Jersey             John Fleming, Louisiana
Dan Boren, Oklahoma                  Jason Chaffetz, Utah
Gregorio Sablan, Northern Marianas   Cynthia M. Lummis, Wyoming
Martin T. Heinrich, New Mexico       Doc Hastings, Washington, ex 
Edward J. Markey, Massachusetts          officio
Maurice D. Hinchey, New York
John P. Sarbanes, Maryland
Niki Tsongas, Massachusetts
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                

          SUBCOMMITTEE ON INSULAR AFFAIRS, OCEANS AND WILDLIFE

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Jeff Flake, Arizona
    Samoa                            Doug Lamborn, Colorado
Neil Abercrombie, Hawaii             Robert J. Wittman, Virginia
Frank Pallone, Jr., New Jersey       John Fleming, Louisiana
Gregorio Sablan, Northern Marianas   Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Bill Cassidy, Louisiana
    Islands                          Doc Hastings, Washington, ex 
Diana DeGette, Colorado                  officio
Ron Kind, Wisconsin
Lois Capps, California
Carol Shea-Porter, New Hampshire
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, March 24, 2009..........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     3
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina................................     3
        Prepared statement of....................................     5
    Capps, Hon. Lois, a Representative in Congress from the State 
      of California, Prepared statement of.......................   108
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................     6
        Prepared statement of....................................     8
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     9
        Prepared statement of....................................    11

Statement of Witnesses:
    Bowles, Hon. Ian A., Secretary, Executive Office of Energy 
      and Environmental Affairs, Commonwealth of Massachusetts...    12
        Prepared statement of....................................    14
        Response to questions submitted for the record...........    20
    Clark, Christopher W., Ph.D., Senior Scientist, Neurobiology 
      & Behavior, Cornell University, and I.P. Johnson Director, 
      Bioacoustics Research Program, Cornell Laboratory of 
      Ornithology................................................    89
        Prepared statement of....................................    91
    Colburn, Captain Keith H., K.H. Colburn Inc..................    68
        Prepared statement of....................................    69
    Diamond, Robbie, President and CEO, Securing America's Future 
      Energy.....................................................    36
        Prepared statement of....................................    38
    Eagle, Joshua G., Assistant Professor of Law, University of 
      South Carolina School of Law...............................    24
        Prepared statement of....................................    26
    Gilman, Brad, Oral statement on behalf of Mayor Stanley Mack, 
      Aleutians East Borough.....................................    95
    Kitsos, Dr. Thomas, Consultant, The Joint Ocean Commission 
      Initiative.................................................    29
        Prepared statement of....................................    31
    Mack, Hon. Stanley, Mayor, Aleutians East Borough, Prepared 
      statement of...............................................    96
    Short, Dr. Jeffrey, Pacific Science Director, Oceana.........    77
        Prepared statement of....................................    79
    Springman, Dr. Kathrine R., Assistant Editor, Marine 
      Environmental Research.....................................    86
        Prepared statement of....................................    88


     JOINT OVERSIGHT HEARING ON ``ENERGY DEVELOPMENT ON THE OUTER 
           CONTINENTAL SHELF AND THE FUTURE OF OUR OCEANS.''

                              ----------                              


                        Tuesday, March 24, 2009

                     U.S. House of Representatives

      Subcommittee on Energy and Mineral Resources, joint with the

          Subcommittee on Insular Affairs, Oceans and Wildlife

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittees met, pursuant to call, at 10:05 a.m. in 
Room 1324, Longworth House Office Building, Hon. Madeleine 
Bordallo, Chairwoman of the Subcommittee on Insular Affairs, 
Oceans, and Wildlife, presiding.
    Present from the Subcommittee on Insular Affairs, Oceans, 
and Wildlife: Representatives Braun, Lamborn, Young, Gohmert, 
Chaffetz, and Cassidy.
    Present from Subcommittee on Energy and Mineral Resources: 
Representatives Costa, Inslee, Markey, Kildee, Abercrombie, 
Holt, Sablan, Capps, and Shea-Porter.

STATEMENT OF MADELEINE Z. BORDALLO, A DELEGATE IN CONGRESS FROM 
                     THE TERRITORY OF GUAM

    Ms. Bordallo. Good morning, everyone. The joint hearing by 
the Subcommittee on Insular Affairs, Oceans, and Wildlife, and 
the Subcommittee on Energy and Mineral Resources will come to 
order.
    Today we will hear testimony concerning energy development 
in the Outer Continental Shelf, and the future of our oceans.
    Because this is a joint hearing, the two Subcommittee 
Chairs and the two Ranking Minority Members will be making 
opening statements. Other Members are invited to submit their 
statements for the record.
    The Subcommittees meet this morning to hear testimony on 
two issues related to energy development in the Outer 
Continental Shelf, or the OCS. Specifically, witnesses will 
testify on the potential environmental and known impacts of 
energy development, and the need for careful planning and 
ecological assessments to guide our energy development, be it 
traditional or alternative energy in the OCS.
    This is the sixth in the series of hearings that the 
Committee on Natural Resources and the Subcommittee on Energy 
and Mineral Resources have held on this issue since the 
convening of the 111th Congress in January. Throughout these 
hearings we have heard from a broad range of witnesses, 
including government agencies, conservationists, coastal 
states, fishermen, oil companies, tourism bureaus, scientists, 
and the U.S. Chamber of Commerce.
    Some of our witnesses oppose further oil and gas 
development in the OCS, but support development of renewable 
energy. Some support more drilling, as one of a suite of energy 
options; and some are somewhat ambivalent on the topic of 
drilling altogether, but believe any energy development that 
occurs must be done in a very thoughtful manner, looking at and 
carefully balancing all uses of the OCS. Today's hearing will 
explore that last point in greater detail.
    As many of you recognized, today is the 20th anniversary of 
the Exxon Valdez, a terrible accident that had long-term and 
far-reaching impacts on our environment. And that must never, 
ever be repeated.
    There is no question that improvements have been made since 
then, not only in our tankers used to transport oil--but also 
in operations to avoid spills, and responses to spills when 
they do occur.
    There will always be risks; however, no matter how far we 
have come, there are some areas that are too sensitive to risk 
to oil and gas development, or maybe even for other forms of 
energy development. They are too sensitive, perhaps, because 
they provide critical habitat for valuable fish stocks or 
populations of endangered marine mammals. Or there may be areas 
that are too sensitive because they are close to coral reefs.
    It is our responsibility, therefore, to ensure that we 
protect these important habitats and marine resources as we 
look to explore options for increasing our energy independence 
through energy development of many kinds in the OCS.
    While I recognize that there are many who would like to see 
the moratorium on offshore drilling reinstated, the new 
Administration has made clear that some drilling will be a part 
of our broader national energy strategy as we move forward.
    Our challenge then is to ensure that new drilling, or any 
energy development in the OCS, is done responsibly, and 
provides the greatest energy and economic benefit with the 
fewest environmental impacts possible. This is why the 
comprehensive planning ideas being discussed by some of our 
witnesses here today make so much sense.
    In order to make responsible energy development decisions 
in the OCS, we need to know not only where the greatest energy 
resources are, but also where the most critical fisheries and 
marine mammal habitats are; where other important ecologically 
sensitive areas are located, and the current uses of the 
ocean's areas in question.
    When this information is considered in a comprehensive 
manner and impacts are assessed, instead of planning on a 
project-by-project basis, we can streamline energy development 
efforts, reduce conflicts, and ensure the long-term 
conservation of our living marine resources, and the health of 
our oceans. This is the energy strategy I believe that we 
should be aspiring to in the OCS.
    And now, as Chairman of the Subcommittee, I recognize Mr. 
Brown, our Ranking Republican Member of the Insular Affairs, 
Oceans and Wildlife Subcommittee, for any statement that he may 
have.
    [The prepared statement of Ms. Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
          Subcommittee on Insular Affairs, Oceans and Wildlife

    The Subcommittees meet this morning to hear testimony on two issues 
related to energy development in the Outer Continental Shelf, or the 
OCS. Specifically, witnesses will testify on the potential 
environmental and known impacts of energy development and the need for 
careful planning and ecological assessments to guide our energy 
development--be it traditional or alternative energy--in the OCS.
    This is the sixth in a series of hearings that the Committee on 
Natural Resources and the Subcommittee on Energy and Mineral Resources 
have held on this issue since the convening of the 111th Congress in 
January. Throughout these hearings, we have heard from a broad range of 
witnesses including government agencies, conservationists, coastal 
states, fishermen, oil companies, tourism bureaus, scientists, and the 
U.S. Chamber of Commerce. Some of our witnesses oppose further oil and 
gas development in the OCS, but support development of renewable 
energy. Some support more drilling as one of a suite of energy options, 
and some are somewhat ambivalent on the topic of drilling altogether, 
but believe any energy development that occurs must be done in a 
thoughtful manner, looking at and carefully balancing all uses of the 
OCS. Today's hearing will explore that last point in greater detail.
    As many of you recognize, today is the 20th Anniversary of the 
Exxon Valdez, a terrible accident that had long term and far reaching 
impacts on the environment and that must never be repeated. There is no 
question that improvements have been made since then, not only in our 
tankers used to transport oil, but also in operations to avoid spills 
and responses to spills when they do occur. There will always be risks, 
however, no matter how far we have come, and there are some areas that 
are too sensitive to risk to oil and gas development, or maybe even for 
other forms of energy development.
    Too sensitive, perhaps, because they provide critical habitat for 
valuable fish stocks or populations of endangered marine mammals. Or 
there may be areas that are too sensitive because they are close to 
coral reefs. It is our responsibility to ensure that we protect these 
important habitats and marine resources as we look to explore options 
for increasing our energy independence through energy development of 
many kinds in the OCS.
    While I recognize that there are many who would like to see the 
moratorium on offshore drilling reinstated, the new Administration has 
made clear that some drilling will be a part of our broader, national 
energy strategy as we move forward. Our challenge, then, is to ensure 
that new drilling or any energy development in the OCS is done 
responsibly, and provides the greatest energy and economic benefit with 
the fewest environmental impacts possible.
    This is why the comprehensive planning ideas being discussed by 
some of our witnesses here today make so much sense. In order to make 
responsible energy development decisions in the O-C-S, we need to know 
not only where the greatest energy resources are, but also where the 
most critical fisheries and marine mammal habitats are, where other 
important ecologically sensitive areas are located, and the current 
uses of the oceans areas in question.
    When this information is considered in a comprehensive manner and 
cumulative impacts are assessed, instead of planning on a project by 
project basis, we can streamline energy development efforts, reduce 
conflicts, and ensure the long term conservation of our living marine 
resources and the health of our oceans. This is the energy strategy I 
believe we should be aspiring to in the OCS.
                                 ______
                                 

STATEMENT OF HENRY E. BROWN, JR., A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF SOUTH CAROLINA

    Mr. Brown. Thank you, Madame Chair. I am sure it is not a 
coincidence that this oversight hearing was specifically 
scheduled on the 20th anniversary of the Exxon Valdez oil spill 
in Prince William Sound, Alaska.
    This spill involved the loss of 257,000 barrels of 
unrefined crude oil, and it occurred when that massive vessel 
ran aground on Bligh Reef.
    While there is no one that believes that oil and water mix, 
it is critical if we examine the facts not to rely on the 
emotions or misrepresentations that frequently appear in the 
media.
    It is a fact that prior to the enactment of the Oil 
Pollution Act of 1990, transportation accidents, involving 
primarily foreign tankers, like the Exxon Valdez, were directly 
responsible for nearly 45 percent of all oil spills in that 
ocean.
    While this figure has significantly declined, it is a fact 
that tanker accidents account for most of the world's largest 
oil spills. In fact, according to the Oil Spill Intelligence 
Report, of the 66 spills in which at least 10 million gallons 
of oil were lost, 48 of those spills were from tankers.
    The National Academy of Sciences has concluded that the 
major sources of oil in our ocean are, number one, natural 
seepage; municipal industrial runoff; marine transportation, 
recreational marine vessels; and offshore oil and gas 
development. In fact, this report notes that the Federal OCS 
program accounts for less than 2 percent of the total amount of 
oil spilled in U.S. waters.
    In the past 40 years, only 872 barrels of oil have been 
spilled off the coast of California. By contrast, about 70,000 
barrels of oil seep into California's coastal waters each year, 
which coincidentally represents the amount spilled in the Union 
Oil blowout in Santa Barbara in 1969.
    I would like to submit for the record the recent report 
from the American Chemical Society, entitled, `Weathering in 
the Fallout Plume of Heavy Oil from Petroleum Seeps Near the 
Coal Oil Point, California.` This report study seeps off the 
coast of California, which is estimated to release 20 to 25 
tons of oil daily. This sediment oil burden in this study area 
is equivalent to between eight to 80 Exxon Valdez oil spills.
    Sadly, all of this seeping oil could be reduced, if not 
eliminated, by developing these areas. Despite these facts, we 
continue to hear horror stories and predictions of catastrophic 
doom. If the Federal OCS program is allowed to explore the 
regions which were previously covered by a Congressional 
moratorium, the facts do not support the hysteria.
    What you do not hear much about is the fact that in the 
past 40 years, 1.1 billion barrels of oil and 1.6 trillion 
cubic feet of natural gas have been produced off the coast of 
California with little, if any, environmental damage. In short, 
the Federal Outer Continental Shelf Program has an excellent 
environmental record. It is our safest energy extraction 
program. The technology of exploration and development is far 
superior to what existed 40 years ago, and petroleum companies 
now have the ability to safely explore even the harshest ocean 
environments.
    It is tragically ironic that we continue to use tanker 
spills as an excuse not to allow OCS development, and that by 
not producing certain areas, we continue to allow our oceans 
and beaches to be fouled by oil naturally seeping to the 
surface.
    It is for this reason I will continue to strongly argue 
that it is in our nation's best interests to explore and 
develop the 86 billion barrels of oil and 400 trillion cubic 
feet of natural gas that is expected to exist on the Federal 
OCS. To deny the American people these energy resources is 
simply illogical, shortsighted, and wrong.
    Madame Chairwoman, I ask unanimous consent to submit for 
the record the letter written in support of OCS development by 
the Myrtle Beach Area Chamber of Commerce. Like California, we 
have pristine, beautiful beaches that are visited by millions 
of people each year. I believe it is a false choice to argue 
that you cannot have beautiful beaches and environmentally safe 
offshore energy development.
    Thank you, Madame Chairwoman. Before I yield back the 
balance of my time, I would like to introduce one of the 
presenters, Mr. Josh Eagle, from the great city of Columbia, 
South Carolina, and the great University of South Carolina Law 
School. Glad to have you here.
    Ms. Bordallo. For the report, no objection, so ordered.
    Mr. Brown. Thanks.
    [The prepared statement of Mr. Brown follows:]

  Statement of The Honorable Henry E. Brown, Jr., Ranking Republican 
      Member, Subcommittee on Insular Affairs, Oceans and Wildlife

    Thank you, Madam Chairwoman. I am sure it was not a coincidence 
that this oversight hearing was specifically scheduled on the 20th 
Anniversary of the Exxon Valdez oil spill in Prince William Sound, 
Alaska.
    This spill involved the loss of 257,000 barrels of unrefined crude 
oil and it occurred when that massive vessel ran aground on Bligh Reef.
    While there is no one who believes that oil and water mix, it is 
critical that we examine the facts and not rely on emotion or the 
misrepresentations that frequently appear in the media.
    It is a fact that prior to the enactment of the Oil Pollution Act 
of 1990, transportation accidents, involving primarily foreign tankers, 
like the Exxon Valdez, were directly responsible for nearly 45 percent 
of all oil spilled in our oceans.
    While this figure has significantly declined, it is a fact that 
tanker accidents account for most of the world's largest oil spills. In 
fact, according to the Oil Spill Intelligence Report: Of the 66 spills 
in which at least 10 million gallons of oil were lost, 48 of those 
spills were from tankers.
    The National Academy of Sciences has concluded that the major 
sources of oil in our oceans are: natural seepage, municipal and 
industrial runoff, marine transportation, recreational marine vessels 
and offshore oil and gas development. In fact, this report noted that 
the federal OCS Program accounted for less than 2 percent of the total 
amount of oil spilled in U.S. waters.
    In the past 40 years, only 872 barrels of oil have been spilled off 
the coast of California. By contrast, 70,000 barrels of oil seep into 
California coastal waters each year which coincidentally represents the 
amount spilled in the Union Oil blowout in Santa Barbara in 1969. I 
would like to submit for the Record a recent report from the American 
Chemical Society entitled: ``Weathering and the Fallout Plume of Heavy 
Oil from Petroleum Seeps Near Coal Oil Point, CA.'' This report studies 
seeps off the coast of California which are estimated to release 20 to 
25 tons of oil daily. This sediment oil burden in the study area is 
equivalent to between 8 to 80 Exxon Valdez oil spills. Sadly, all of 
this seeping oil could be reduce, if not, eliminated by developing 
these areas.
    Despite these facts, we continue to hear horror stories and 
predictions of catastrophic doom, if the federal OCS Program is allowed 
to explore the regions which were previous covered by a Congressional 
moratoria. The facts do not support this hysteria.
    What you do not hear much about is the fact that in the past 40 
years, 1.1 billion barrels of oil and 1.6 trillion cubic feet of 
natural gas have been produced off the coast of California with little, 
if any, environmental damage.
    In short, the federal Outer Continental Shelf Program has an 
excellent environmental record. It is our safest energy extraction 
program. The technology of exploration and development is far superior 
to what existed 40 years ago and petroleum companies now have the 
ability to safely explore in even the harshest ocean environments.
    It is tragically ironic that we continue to use tanker spills as an 
excuse not to allow OCS development and that by not producing certain 
areas, we continue to allow our oceans and beaches to be fouled by oil 
naturally seeping to the surface.
    It is for this reason that I will continue to strongly argue that 
it is in our nation's best interest to explore and develop the 86 
billion barrels of oil and 420 trillion cubic feet of natural gas that 
is projected to exist on the federal OCS. To deny the American people 
these energy resources is simply illogical, shortsighted and wrong.
    <plus-minus>Madam Chairwoman, I ask unanimous consent to submit for 
the Record a letter written in support of OCS development by the Myrtle 
Beach Area Chamber of Commerce. Like California, we have pristine 
beautiful beaches that are visited by millions of people each year. I 
believe it is a false choice to argue that you cannot have beautiful 
beaches and environmentally safe offshore energy development.
    Thank you, <plus-minus>Madam Chairwoman.
                                 ______
                                 
    [NOTE: The report and letter submitted for the record have been 
retained in the Committee's official files.]
    Ms. Bordallo. I thank the gentleman from South Carolina.
    Before I recognize our next speaker, those standing in the 
back, I would like to invite you to take some of the chairs 
here on the lower level. Thank you.
    And I would now like to recognize the gentleman from 
California, Mr. Costa, the Chairman of the Energy and Minerals 
Subcommittee. Mr. Costa.

 STATEMENT OF JIM COSTA, A REPRESENTATIVE IN CONGRESS FROM THE 
                      STATE OF CALIFORNIA

    Mr. Costa. Thank you very much, Madame Chairwoman, for 
holding this joint committee hearing with both Subcommittees. I 
think we obviously, as members of the Natural Resources 
Committee, have overlapping interests. And we see this morning 
in a case in point where those overlapping interests come 
together. I think it is productive and a good use of our time 
for both Subcommittees, in fact, to therefore hold this hearing 
together on this topic. It is the sixth hearing that the 
Natural Resource Committee has held on related subject matter.
    I know last year there was a lot of concern on how we were 
attempting to make offshore oil policy in the absence of real 
hearings on the subject. And I have already commented a number 
of times that a lot of the discussion seemed to me to simply 
refrain toward sloganeering. I simply don't believe that is a 
way in which you can have an honest debate and discussion of a 
public policy issue of this importance.
    Certainly in the case of the last two months, Madame 
Chairwoman, we have, I think, demonstrated that we do want to 
give thoughtful consideration as a result of the hearings that 
the Natural Resources Committee has been holding over the last 
two months.
    Frankly, obviously cooperation, instead of shouting slogans 
at one another, is what we have to do if we are going to craft 
solutions that focus on one of our nation's most pressing 
problems. And that is, putting together a comprehensive energy 
package, one that has remained elusive going all the way back 
to President Nixon in 1973, when some of us can remember the 
first gas lines began forming. And of course, since that time 
every President, regardless of their persuasion, has attempted 
to forge an energy policy, and Congress has attempted to act on 
an energy policy.
    And yet it remains elusive in terms of our ability to come 
together to form that sort of comprehensive energy policy. As a 
matter of fact, in those first gas lines in 1973, 30 percent of 
our energy was imported from foreign sources; and today, that 
number is much closer to 70 percent.
    So clearly, notwithstanding 40-plus years of debate and 
discussion, we have yet to come up with that sort of bipartisan 
comprehensive effort.
    As you noted, Madame Chairwoman, this is the 20th 
anniversary of the Exxon Valdez spill. It had a tremendous 
impact on the coasts of Alaska. We all remember the pictures of 
the impacts of that spill. I have been to Valdez, I have seen 
the coastal areas that were impacted. And clearly, many lessons 
have been learned from that.
    But I think we clearly need to know that how we apply those 
lessons. For example, in California we started requiring that 
all tankers that bring oil to California, which is the primary 
source of how California gets its oil that we refine from 
Alaska, be in double-hulled tankers. We have made improvements 
in our navigational and aid systems. We have tried to take 
lessons from the past by using them to plan for how we do it in 
the future, how it will make it more environmentally sound, and 
so that we don't have such an accident in the future.
    I think planning is therefore a critical part of a 
comprehensive energy plan. And the panel that we are going to 
hear this morning is going to give us their best thoughts, I 
hope, on how we can better plan.
    I am a supporter of expanding the oil and gas production, 
both on and offshore. I am one that believes that these 
resources have been able to be used safely, and of benefit for 
all Americans. Not only from the standpoint of the energy that 
we derive, whether it be oil or gas, but from the royalties 
that we receive that are the second-largest source of revenues 
to our nation's Treasury.
    So therefore, you know, the discussion and the debate in 
both panels are going to be important today, as the entirety of 
the hearings that we are holding. Too much of our past offshore 
drilling policy I think, in the recent decades, has simply been 
no. But my view is that we can craft a policy if we look at all 
the energy tools in our energy toolbox.
    There can be more than a nuance policy to in effect put 
together an effort that involves comprehensive planning. The 
stakeholders that we hear here this morning and that we have 
heard in the past I think are providing appropriate information 
on how we use oil and gas drilling, both onshore and offshore.
    But how we can use wind energy on our oceans, how we can 
use wave energy. And what other potential sources of energy can 
be derived with a balanced plan on our coasts.
    So therefore, I don't think we should be drawing lines in 
the ocean or in the sand. But rather, we should be basing our 
decision on sound science and a comprehensive understanding of 
what our nation's energy needs are, both in the near term and 
the long term.
    I think we need to take a careful comprehensive approach to 
the risk assessment versus the risk management, therefore 
comparing the analysis in terms of what energies provide the 
most potential, what the assessment of the risk is by utilizing 
those energies.
    Certainly the risks involved with tanker traffic we know 
well. They have been demonstrated. We have attempted to try to 
better manage those risks, and minimize the potential impacts, 
not only for our beaches, but our fishing industry and other 
natural resources, while still ensuring that Americans get the 
energy that we need.
    We know, as was cited by one of the, the Ranking Member, 
that nonpoint-source pollution is the largest source of 
contamination that takes place, not just in oceans off the 
coast of the United States, but throughout the world. And so we 
need to do a comparative analogy on how we can do a better job 
on those nonpoint-source areas of pollution. In California, we 
have done a great deal in that area.
    But I would also like to thank our witnesses here, Madame 
Chairwoman. I want to thank you for holding this hearing with 
both Subcommittees. We look forward to the testimony, and 
seeing how we can put together, by the full committee, a 
comprehensive energy policy that focuses on using all the 
energy tools in our energy toolbox in the near term; the 
midterm, which is defined by 10 to 20 years; and the long term, 
which is in excess of 20 years. Those strategies will have to 
come together if we are going to put together the comprehensive 
energy policy that the President has asked us to work on.
    I thank you very much.
    [The prepared statement of Mr. Costa follows:]

            Statement of The Honorable Jim Costa, Chairman, 
              Subcommittee on Energy and Mineral Resources

    Thank you very much, Madame Chairwoman, and thank you for holding 
this joint hearing with our subcommittee. This is now the third hearing 
that my subcommittee has held on this topic, and the sixth that we have 
had in the Natural Resources Committee. I know last year there was some 
concern that we were trying to make offshore policy in the absence of 
real hearings on this subject, and I believe that we have alleviated 
those concerns over the past two months.
    I also hope we are moving towards alleviating the concerns that 
exist over the policy itself. I believe these hearings have been very 
productive, very insightful, and very cooperative. Instead of people 
shouting slogans at one another, we have members of both parties trying 
to come together to craft solutions to some of our nation's most 
pressing problems. I believe it is what we should strive for on every 
issue that comes before this Congress, and I hope it has helped to set 
the tone for our subcommittees as we move forward.
    As you pointed out, Madame Chairwoman, today is the 20th 
anniversary of the Exxon Valdez oil spill--a tremendous environmental 
tragedy of almost immeasurable proportions. Those of us who saw the 
pictures coming in from Alaska after that spill will certainly never 
forget it. I am thankful that we have not had a spill of that magnitude 
or destructive impact in the 20 years since.
    But I do not believe that is simply a result of luck. It is because 
we learned lessons from the Valdez, lessons that we applied to how 
tankers get built, how we respond to spills, and how we operate more 
carefully to ensure it never happens again. For example, in California 
we started requiring that all tankers that bring Alaskan crude oil into 
our state be double hulled, and made improvements in our navigational 
aid system. Taking these lessons from the past and using them to plan 
what we do and how we do it in the future will help us be more 
environmentally sound while still being able to meet our nation's 
energy needs. It is this idea of planning, thoughtful planning, that 
our first panel is here to discuss.
    I am a supporter of expanding the amount of oil and gas production 
that we do on the outer Continental Shelf. I believe there are large 
resources out there that we can develop cleanly and safely, and for the 
benefit of all Americans. But I also believe there are areas that are 
not appropriate for oil and gas development. It may be a region that 
does not have any resources, or it may be a region that does have 
resources, but is too environmentally sensitive for drill rigs to 
operate.
    Too much of our past offshore drilling policy has just been a 
blanket ``no''. But we cannot craft a policy going forward unless we 
use all the energy tools in our energy toolbox, and offshore drilling 
is one of those tools. There can be a more nuanced policy, and it 
should involve a comprehensive planning process that brings all 
stakeholders together, and identifies those areas that are appropriate 
for oil and gas drilling, appropriate for wind energy, for wave energy, 
or for other tools entirely. We should not draw arbitrary lines in the 
ocean, but rather we should base decisions on science and a 
comprehensive understanding of our nation's energy needs.
    Also, I believe we have to take a careful and comprehensive 
approach to risk assessment and risk management. The risks involved 
with tanker traffic are, as the Exxon Valdez demonstrated, significant, 
and transportation of oil contributes far more oil to our oceans than 
exploration. So we have to assess these risks, and then we have to 
figure out how to manage those risks, so that we minimize the potential 
impacts on our beaches, on our fishing industry, and on other natural 
resources, while still ensuring that Americans get the energy that they 
need.
    I would like to thank all of our witnesses for being here, and once 
again, Madame Chairwoman, I thank you for holding this hearing with me, 
and I look forward to working with you, and all the Members of this 
committee, so come up with the short, medium, and long-term energy 
strategies that our nation so desperately needs.
                                 ______
                                 
    Ms. Bordallo. I thank the gentleman from California. And 
again, I would like to repeat, those ladies and gentlemen 
standing in the rear, don't be shy. Please come forward, yes. 
This may be a lengthy hearing, and I am sure you are going to 
tire. Right up here. On this side, on this side here. If there 
isn't a nameplate, then you know that the seat is open. No 
nameplate, the seat is yours. Thank you, thank you very much.
    I would like now to recognize the Ranking Member of the 
Committee on Energy and Minerals, the gentleman from Colorado, 
Mr. Lamborn.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. Madame Chairwoman and Mr. Chairman, thank you 
both for holding this hearing. This is now the sixth hearing on 
OCS development held this Congress. Today's hearing will give 
us a clearer understanding of the problems of the past and the 
hopes for the future.
    I wanted to start by saying thank you to one of our 
witnesses here today. Mr. Brad Gilman will be testifying on 
behalf of Mayor Stanley Mack of the Aleutians East Borough 
later today.
    If we had been given notice that this hearing was going to 
be all about Alaska and drilling in Alaskan waters, we would 
have had more success in actually having a witness from Alaska 
here today. Unfortunately, we weren't given notice that the 
focus of one full panel was on Alaska until very late last 
week.
    I hope in the future we will have a clear notice about the 
intent of the hearings, so we can have time to identify the 
appropriate witness to address the subject of the hearing.
    Instead of hearing from the Mayor, we are going to be 
hearing from Oceana once again. At the first OCS hearing of 
this year, we kept the Oceana witness so long we had to take a 
personal break for him. I hope we don't have to do that again 
today.
    We will be talking today about oil spills. Now, for some 
reason we will not be hearing from the Minerals Management 
Service, MMS, today. It is the principal U.S. Federal agency 
responsible for oil spill research, response research, to 
fulfill oil spill regulatory responsibilities under the Oil 
Pollution Act of 1990. This includes the responsibility to 
manage the National Oil Spill Response Facility, OHMSETT.
    For more than 25 years, MMS has maintained a comprehensive, 
long-term research program to improve oil spill response 
technologies. The major focus of the program is to improve the 
knowledge and technologies used for the detection, containment, 
and cleanup of oil spills that may occur on the OCS.
    Nor will we be hearing today for some reason from the U.S. 
Coast Guard. They are the other agency with responsibility to 
respond to and manage oil spills.
    Both of these Federal agencies would have helped this 
committee understand the challenges of addressing oil spills, 
but we will not have their testimony before us today.
    Apparently the inspiration for today's hearing is that 
today is the 20th anniversary of the Valdez disaster in Alaska. 
Sadly, while we have learned a lot since this terrible 
disaster, we haven't learned one of the major lessons: Tankers 
are a terrible way to deliver oil.
    America is more dependent now on tanker-transported oil 
than we were 20 years ago. We can free ourselves from this 
tanker-transported oil if we simply choose to develop our 
domestic resources.
    We have vast reserves of oil off the California coast, so 
much that tons of it seep up from the ocean floor each day. We 
have tremendously rich deposits of oil shale in the West, which 
are calling for investment in research and development, if we 
can keep a clear set of rules in place for industry.
    The lesson of the Valdez is that we should diversify our 
sources of oil beyond that brought to our shores by oil tanker. 
Let us use oil rigs, pipelines, and all the other, much safer 
ways of transporting oil.
    We have heard a lot about oil spills before this committee 
this year. We have recognized that 40 years ago, we had spills 
off Santa Barbara, and today is the 20th anniversary of the 
Exxon Valdez.
    Let us examine cell phones over a 40-year period. Forty 
years ago they didn't even exist. Twenty years ago they looked 
like military phones attached to backpacks. Today we have smart 
phones that have more computing power than the supercomputers 
of 1969. Today's phones are cameras, music players, internet 
browsers, word processors and, by the way, also phones.
    The technological leap in the oil and gas industry and the 
ability to clean up oil spills has advanced just as much. I 
have heard from company executives that say they aren't in the 
drilling business, they are in the advanced technology 
business. This is important to keep in mind.
    In closing, Madame Chairman and Mr. Chairman, I hope we can 
all agree that the old methods of failing to develop our 
resources in the OCS are not going to work any longer. We now 
find ourselves in a new era of opportunity where development of 
the OCS is on the horizon.
    Development of oil and gas can be done in harmony with the 
development of wind and tidal energy, fishing and tourism. We 
have heard testimony that all these uses are compatible in the 
Gulf of Mexico, and we should expect no less from our other 
states.
    Americans are worried about our standard of living. Oil 
prices are beginning to creep up as a result of monopolistic 
actions by OPEC. We can free ourselves from oil tyrants, but 
only if we are willing to act and develop our own resources.
    I thank you, and I look forward to hearing from our 
witnesses.
    [The prepared statement of Mr. Lamborn follows:]

       Statement of The Honorable Doug Lamborn, Ranking Member, 
              Subcommittee on Energy and Mineral Resources

    Mr. Chairman, thank you for holding this hearing. This is now the 
6th hearing on OCS development held this Congress. Today's hearing will 
give us a clearer understanding of the problems of the past and the 
hopes for our future.
HEARING ISSUES
    I want to start by saying thank you to one of our witnesses here 
today. Mr. Brad Gilman will be testifying on behalf of Mayor Stanley 
Mack of the Aleutians East Borough today. If we had been given notice 
that this hearing was going to be all about Alaska and drilling in 
Alaskan waters, we would have had more success in actually having a 
witness from Alaska here today. Unfortunately, we weren't given notice 
that the focus of one full panel was on Alaska until very late last 
week. I hope in the future we will have a clear notice about the intent 
of the hearings so we can have time to identify the appropriate witness 
to address the subject of the hearing.
    Instead of hearing from the Mayor, we are going to hear from Oceana 
once again. At the first OCS hearing of this year we kept the Oceana 
witness so long we had to take a personal break for him, I hope we 
won't do that again today.
    Furthermore, we will be talking about oil spills. For some reason 
we will not be hearing from the Minerals Management Service (MMS) 
today. They are the principal U.S. federal agency responsible for oil 
spill response research to fulfill oil spill regulatory 
responsibilities under the Oil Pollution Act of 1990 (OPA 90). This 
includes the responsibility to manage the National Oil Spill Response 
Facility ``Ohmsett.'' For more than 25 years, MMS has maintained a 
comprehensive, long-term research program to improve oil spill response 
technologies. The major focus of the program is to improve the 
knowledge and technologies used for the detection, containment, and 
cleanup of oil spills that may occur on the OCS. Nor will we be hearing 
from the U.S. Coast Guard. They are the other agency with 
responsibility to respond to and manage oil spills.
    Both of these federal agencies would have helped this committee 
understand the challenges of addressing oil spills, but we will not 
have their testimony before us today.
EXXON VALDEZ
    Apparently, the inspiration for today's hearing is that today is 
the 20th Anniversary of the Valdez disaster in Alaska. Sadly, while we 
have learned a lot since this terrible disaster, we haven't learned one 
of the major lessons. Tankers are a terrible way to deliver oil. 
America is more dependent now on tanker transported oil then we were 20 
years ago. We can free ourselves from this tanker transported oil if we 
simply choose to develop our domestic resources. We have vast reserves 
of oil off the California coast; so much that tons of it seep up from 
the ocean floor each day. We have tremendously rich deposits of oil 
shale which are calling for investment in research and development, if 
we can keep a clear set of rules in place for industry.
Oil Spills
    We have heard a lot about oil spills before this committee. We have 
recognized that 40 years ago we had spills off Santa Barbara, and today 
is the 20th Anniversary of the Exxon Valdez.
    Let's examine cell phones over a 40 year period. Forty years ago 
cell phones didn't exist; 20 years ago they looked like military phones 
attached to back packs. Today we have smart phones that have more 
computing power than the supercomputers of 1969. Today's phones are 
cameras, music players, internet browsers, word processors, and by the 
way, also phones.
    The technological leap in the oil and gas industry and the ability 
to clean up oil spills has advanced just as much. I have heard from 
company executives that say they aren't in the drilling business; they 
are in the advanced technology business. This is important to keep in 
mind.
CLOSING
    Mr. Chairman, I hope we all agree the old method of failing to 
develop our resources in the OCS isn't going to work any longer. We now 
find ourselves in a new era of opportunity where development of the OCS 
is on the horizon.
    Development of oil and gas can be done in harmony with the 
development of wind and tidal energy, fishing, and tourism. We have 
heard testimony that all these uses are compatible in the Gulf of 
Mexico and we should expect no less from our other states.
    Americans are worried about our standard of living. Oil prices are 
beginning to creep up as a result of monopolistic actions by OPEC. We 
can break free from oil tyrants, but only if we are willing to act and 
develop our resources.
    I thank you and look forward to hearing from our witnesses.
                                 ______
                                 
    Ms. Bordallo. I thank the gentleman, and I would now like 
to recognize our first panel of witnesses.
    Mr. Ian A. Bowles, Secretary of Energy and Environmental 
Affairs for the State of Massachusetts; Professor Joshua G. 
Eagle, Assistant Professor of Law from the University of South 
Carolina; Dr. Thomas Kitsos, Consultant to the Joint Ocean 
Commission; and finally, Mr. Robbie Diamond, President and CEO 
of Securing America's Energy Future.
    I thank you all very much for being here this morning. And 
I would note that the timing lights on the table will indicate 
when five minutes have passed, and your time has concluded.
    We would appreciate your cooperation in complying with 
these limits, but be assured that your full written statement 
will be submitted for the record.
    And at this point, I would now like to recognize Secretary 
Bowles. Thank you very much, Mr. Secretary, for being here with 
us today, and please begin with your testimony.

STATEMENT OF THE HONORABLE IAN A. BOWLES, SECRETARY, EXECUTIVE 
     OFFICE OF ENERGY AND ENVIRONMENTAL AFFAIRS, STATE OF 
                         MASSACHUSETTS

    Mr. Bowles. Thank you very much, Madame Chairwoman. Thank 
you, members of the committee, and my home state Congressman, 
Chairman Markey, as well for turning out here today. And thanks 
for the opportunity to testify on energy development on the 
Outer Continental Shelf.
    Oceans represent an important source of energy for the 
United States, ranging from oil and gas to renewable energy 
from tide, wave, and wind power, but they are also a critical 
natural resource. I want to underscore that.
    In Massachusetts we are engaged in a unique first-in-the-
nation exercise to develop a comprehensive ocean plan for our 
state waters. And that will include designating sites that are 
special and sensitive, ecologically sensitive, as well as areas 
for renewable power development. And we are in the midst of an 
18-month process as that goes along.
    And as you consider these issues, I encourage you to do a 
few things. One is to elevate offshore wind as a component of a 
diverse national energy portfolio, as well as do some 
readjusting and alignment among the Federal agencies to focus 
them more tightly on cooperation with states, as we go through 
processes like the one we are involved with in Massachusetts.
    Traditionally, the discussion of offshore energy has 
centered on oil and gas only, and we in Massachusetts have 
sounded a cautionary approach to that, in part because of the 
tremendous economic importance of George's Bank for our 
economy: $140 million a year in groundfish, $225 million a year 
in scallops. New Bedford is the number one port in the Nation 
in terms of economic value of landings, and George's Bank is 
vitally important from an economic perspective.
    Initial exploration of the bank in the eighties found no 
oil and gas that is commercially exploitable at the time. And 
from where we sit, oil and gas development of George's Bank, 
given the other values it provides for our economy, was a bad 
idea 30 years ago, and we see no reason to believe it is a good 
idea today.
    In contrast, I would offer that offshore wind is a 
renewable, free--free of harmful emissions, zero-emissions type 
of source of power generation. Today, 12 countries around the 
world have a combined total of more than 500 wind turbines in 
the oceans, some 1.4 gigawatts of power, but none in the United 
States. We are about 20 years behind Europe on the development 
of offshore wind. And I will circulate for the members of the 
committee a map of offshore wind in Europe. It is remarkable 
the degree of penetration that is coming in Europe in that 
regard.
    As you move forward and look at offshore wind, I would 
encourage you to continue to focus on the pressing need for the 
MMS rule on alternative energy development. I commend Secretary 
Salazar for the focus that they are giving to that.
    And I will also make a related point about transmission. A 
lot of debate today about overland transmission and the 
importance of delivering power from remote regions.
    While that may be a good thing for the West and the 
Midwest, here on the East Coast, the much larger and superior, 
in terms of resource size, capacity factor, distribution of 
liability, and proximity to our population centers is offshore 
wind. And we need FERC and the MMS to really begin to focus and 
do the analytics necessary to say what would it take to do a 
very large set of offshore wind development in this very close 
and important resource.
    If we fail to take the moment in our history where we are 
focusing now on cap and trade, and on aggressive Federal 
policies for sustainable energy development, and don't focus on 
offshore wind, we will be regretting it for decades to come.
    Last, just say a few things more about the ocean plan in 
Massachusetts. Gov. Patrick signed the Oceans Act in 2008. Our 
Office of Coastal Zone Management, led by Deerin Babb-Brott, 
who I want to introduce here, and happy to have him follow up 
with any members of the committees leading this difficult 
process of developing our management plan.
    Let me just say a few of the characteristics quickly and in 
more detail in my testimony, my written testimony. But it will 
be a science-based process. The planning process is transparent 
and participatory. We have had 18-month process and numerous 
workshops and public hearings.
    We are seeking to coordinate state and Federal regulatory 
activities in our state waters, but also looking at our 
adjacent Federal waters. We plan to revise it every five years. 
And perhaps most importantly, we are going to give clarity.
    For those who are seeking development of renewable power, 
and those who are concerned about protecting special and 
sensitive areas, we intend to make choices and give clarity at 
the end of our plan.
    And we also see it as a robust template for protection of 
our natural resources, an important area of engagement with the 
Federal government. Just a note on that, to say that as we have 
worked with NOAA and the other Federal agencies, we have about 
five or six different silos that we talk to about our plan. 
There is not a one single place of coordination.
    And so I think the idea of having NOAA embrace more of the 
coastal mission I think is an important thing that you all 
could clarify by legislation.
    I thank you for your time and attention, and will be glad 
to take questions.
    [The prepared statement of Mr. Bowles follows:]

  Statement of Ian Bowles, Secretary, Executive Office of Energy and 
          Environmental Affairs, Commonwealth of Massachusetts

Introduction
    Good morning, Mr. Chairman, Madam Chairwoman and Members of the 
Subcommittees. My name is Ian Bowles and I am Secretary of the 
Executive Office of Energy and Environmental Affairs for the 
Commonwealth of Massachusetts. In creating the first state cabinet-
level office in the nation that oversees both energy and environmental 
agencies, Governor Patrick recognized, as you have, that these areas of 
responsibility present challenges and opportunities that are 
inseparable and must be addressed together. Thank you for holding this 
important hearing and for inviting me to testify on energy development 
in the Outer Continental Shelf.
    Coastal and ocean areas represent an important source of energy for 
the U.S., ranging from oil and gas to renewable energy from tide, wave 
and wind. However, energy is but one product of the ocean's bounty, and 
its use as a resource must be balanced by a commitment to protection of 
living marine resources, seafloor habitats, traditional uses such as 
fishing and navigation, and coastal communities. Our oceans are held in 
public trust for all citizens, and must be managed in a way that is 
consistent with the long-term preservation of these resources.
    In Massachusetts, the Oceans Act passed by the state Legislature 
and signed by Governor Patrick last year directed my office to develop 
a comprehensive management plan for our state waters that will be the 
first such plan in the nation. We are now creating an ocean management 
framework that will allow us to responsibly develop our marine 
renewable resources, and wind in particular, in the context of strong 
environmental protection and respect for the many interests that share 
our coastal waters. Based on the work we've done thus far, I believe 
the following elements are critical to an effective, progressive 
national energy policy: 1) elevate the energy policy priority of 
offshore wind as a component of a diverse national energy portfolio; 2) 
coordinate and focus federal agency support for ocean management based 
on effective partnerships between state and federal agencies; 3) ensure 
a strong supportive role for the National Oceanic and Atmospheric 
Administration and enhance the existing federal-state partnership in a 
reauthorized Coastal Zone Management Act; and 4) establish an Ocean and 
Coastal Trust Fund to support coastal states' efforts to address the 
critical ocean and coastal management needs of our nation.
Offshore energy, old and new
    Traditionally, discussion of offshore energy development has 
centered on oil and natural gas exploration and extraction. In that 
context Massachusetts has always sounded a note of caution, for we have 
much at stake. The waters of the Outer Continental Shelf off 
Massachusetts are dominated by Georges Bank, a uniquely productive 
fishery. Georges Bank is a rich natural resource and a vital part of 
the Massachusetts and New England economy that warrants strong 
protections.
    The groundfish fishery of Georges Bank is regarded as one of the 
most commercially important fisheries on the Atlantic coast and the 
lifeblood of many coastal communities. The history of fishing on the 
Bank extends over 400 years.
    The value of Georges Bank groundfish today exceeds $140 million 
annually, and with careful stewardship could grow to $300 million by 
2026. About $70 million is attributable to the Massachusetts economy, 
with the remaining $70 million supporting other coastal New England 
States and Canadian Provinces. The scallop fishery generates another 
$225 million in economic activity annually, nearly all of which 
benefits Massachusetts. Thanks to Georges Bank scallop revenues, New 
Bedford has been the nation's most highly valued fishing port for the 
past six years. Gloucester continues to rank among the top ten.
    Still, this significant and productive fishery is under great 
stress, experiencing a general decline in landings and biomass of 
Atlantic cod, haddock and yellowtail flounder over the past 20 years. 
Any further damage to the fishery would be devastating to the fishing 
industry in Massachusetts and New England, which has already seen 
enormous cutbacks resulting from federal catch limitations intended to 
rebuild the fishery. With effective fisheries management and 
environmental stewardship, we are optimistic about the recovery of the 
Georges Bank fishery. Haddock populations are already recovering, and 
the scallop fishery remains a thriving and highly valuable fishery.
    The fragility of this irreplaceable natural resource would make us 
in Massachusetts leery of calls to reopen these waters to oil and gas 
exploration even if the prospects seemed more promising. But initial 
exploration of Georges Bank in the 1980s found no oil and no 
commercially exploitable natural gas. Even if the technology and/or 
economics have changed since, the great value of Georges Bank as a 
fishery would set an extremely high bar for a competing use like oil or 
gas drilling that could put it at risk. Drilling in Georges Bank proved 
to be a bad idea 30 years ago, and we have no reason to think it would 
be a good idea today.
    But oil and gas are no longer the only energy resources to be found 
on the Outer Continental Shelf, and worthy of our attention. Today in 
New England, offshore wind energy offers the prospect of utility-scale 
electricity that is renewable, free of harmful emissions, and if 
developed with care and forethought, compatible with other ocean uses 
and resources. The United States Department of Energy estimates that 
900,000 megawatts (MW) of offshore wind energy potential is available 
off the coasts of the United States, including those of the Great 
Lakes. It is a potentially inexhaustible resource that in many cases is 
available in close proximity to regions with the highest electricity 
demand, minimizing the need for costly new transmission lines. 
According to the National Renewable Energy Laboratory (NREL), 
households and businesses in the 28 coastal states use 78% of the 
electricity generated in the United States.
    The vast resource of offshore wind remains untapped in the United 
States, but capturing it is no longer a fanciful notion. We have come a 
long way since 2001, when Cape Wind Associates proposed to construct 
this nation's first offshore wind farm off the coast of Cape Cod. 
Offshore wind energy was untested in the U.S. at that time, even though 
the first offshore wind project was installed almost 20 years ago in 
Denmark. Today twelve countries have a combined total of more than 500 
turbines (1,480 MW) in the water. The United States is still awaiting 
its first operational offshore wind farm, but Cape Wind is no longer 
the only project in the queue. In fact, the wind energy potential of 
every coastal region of the United States (including the Great Lakes) 
has been or is in the process of being assessed. Projects have been 
proposed in every region save the west coast, where conditions offer no 
opportunities for shallow water development.
    In addition, preliminary estimates by the U.S. Department of Energy 
indicate that ocean wind resources just beyond the reach of current 
technology offer even bigger bang for the buck. University researchers 
and private developers are already working on overcoming the 
engineering barriers presented by deep-water environments over the 
horizon. Their success could help propel the U.S. to the forefront of 
the emerging global offshore wind energy industry.
    With interest growing steadily, there is a pressing need for clear 
and consistent rules from the Department of the Interior's Minerals 
Management Service governing the siting and leasing of offshore wind 
facilities. Governor Patrick and I applaud the Obama Administration and 
Interior Secretary Salazar for their clear expressions of support for 
strong and effective ocean and energy policy. The administration could 
immediately and significantly demonstrate its support for renewable 
energy development by releasing the final rule for alternative energy 
development on the Outer Continental Shelf. The lack of formal guidance 
is restricting the research and development, planning, and market 
creation that will draw capital into this promising new industry. The 
draft rule pending before Secretary Salazar is far from perfect, and 
comments filed by Massachusetts identified a variety of shortcomings, 
but this is a case where the perfect should not stand in the way of the 
good. Offshore wind is a tremendous resource of renewable, emissions-
free energy, and the time has come for us to put it to work creating a 
clean energy future for the nation.
    As we move forward to address the significant opportunity of 
offshore wind and the siting and leasing framework for it, we should 
also consider questions of a specific approach to transmission 
infrastructure. There is currently a significant push for over-land 
transmission to support the development of wind power in remote 
regions. This effort would rely on current, fully commercialized and 
competitive wind and transmission infrastructure, and some of this 
transmission may be appropriate to move this wind power to load centers 
in the West and Midwest. The East Coast is a different matter. Here, 
offshore wind is superior to remote onshore wind in terms of resource 
size, distribution, capacity factor, reliability, minimization of 
environmental impact, and--this is the key--proximity to population 
centers. This enormous energy resource is located just a short distance 
from the major load centers of the East Coast, but unlike on-land wind, 
tapping it will require development and policy assistance to get it 
over the commercialization hurdle. We will fail as a nation if we do 
not take this moment in our history--a time of aggressive federal 
funding and policymaking for sustainable energy development--to capture 
this resource once and for all for the benefit of current and future 
generations.
    What is required to make this happen? Conceptually, the answer is 
fairly simple. We need a comprehensive plan to develop an offshore 
transmission backbone along the East Coast to facilitate the 
interconnection of any and all wind and tidal energy resources. Such a 
system would enable interconnection of offshore generating capacity at 
multiple points, and would deliver power into the major load centers 
along the coast, from Portland, Maine, to Virginia Beach. This would 
combine renewable resource development with energy, capacity, and 
transmission congestion relief for the major load centers of the most 
populous region of our country. Development of such an offshore 
transmission network will require intense focus from MMS and FERC, and 
needs to be aggressively pursued as part of any OCS energy resource 
development plan.
Massachusetts Ocean Management Plan
    Our ocean and coastal areas are being called upon to support a 
tremendous and often conflicting array of critically important 
activities, including fisheries and aquaculture development and 
enhancement; commerce and industrial port development; energy and 
minerals exploration and production; waterfront commerce and 
residences, public access, recreation and tourism; and habitat 
preservation and restoration.
    Historically, Massachusetts waters have supported traditional uses, 
and more recently we have permitted such activities as offshore 
liquefied natural gas facilities, fiber optic and electrical cables, 
and aquaculture. With wind, wave, and tidal energy emerging as vital 
resources for meeting energy and environmental challenges, the need to 
balance and accommodate a growing range of uses while protecting 
precious natural assets has become more pressing than ever.
    Given that the ocean is a resource held in public trust, how should 
the Commonwealth effectively manage the ``assets of the trust'' to best 
protect and use them for the benefit of citizens today and in the 
future? Which uses should be allowed in which areas? Who should decide? 
How do we ensure that individual and collective uses do not harm the 
environment? Do we have the right information to make those decisions? 
Do public agencies that are authorized to make these decisions have the 
right tools? How can we work collaboratively with our federal partners 
to address transboundary resources, uses and impacts?
    Massachusetts is striving to answer these questions by establishing 
a new model of stewardship for the marine ecosystem--a model that 
recognizes the importance of both protecting and making wise use of the 
marine environment for the benefit of society now and in the future. I 
would like to use some of my time this morning to highlight key 
features of the ocean management plan we are now in the process of 
developing.
    In recognition of our need to better understand, protect and manage 
the use of our ocean resources, Governor Patrick signed the 
Massachusetts Oceans Act of 2008 into law last May. The Oceans Act 
directs my office to develop a draft integrated ocean management plan 
by June 30, 2009, and promulgate a final plan by December 31, 2009. The 
Act is comprehensive, and requires, in summary, that the ocean plan:
     1.  set forth the Commonwealth's goals, siting priorities and 
standards for ensuring effective stewardship of its ocean waters held 
in trust for the benefit of the public;
     2.  adhere to sound management practices, taking into account the 
existing natural, social, cultural, historic and economic 
characteristics of the planning areas;
     3.  preserve and protect the public trust;
     4.  reflect the importance of the waters of the Commonwealth to 
its citizens who derive livelihoods and recreational benefits from 
fishing;
     5.  value biodiversity and ecosystem health;
     6.  identify and protect special, sensitive or unique estuarine 
and marine life and habitats;
     7.  address climate change and sea-level rise;
     8.  respect the interdependence of ecosystems;
     9.  coordinate uses that include international, federal, state and 
local jurisdictions;
    10.  foster sustainable uses that capitalize on economic 
opportunity without significant detriment to the ecology or natural 
beauty of the ocean;
    11.  preserve and enhance public access;
    12.  support the infrastructure necessary to sustain the economy 
and quality of life for the citizens of the commonwealth;
    13.  encourage public participation in decision-making;
    14.  adapt to evolving knowledge and understanding of the ocean 
environment; and
    15.  identify appropriate locations and performance standards for 
activities, uses and facilities allowed under the Ocean Sanctuaries 
Act, including but not limited to renewable energy facilities, 
aquaculture, sand mining for beach nourishment, cables, and pipelines.
    To do this, my Office of Coastal Zone Management is developing the 
ocean plan based on the following principles:
    The ocean plan will be science based. We have convened workgroups 
of state and federal agency staff and outside experts to compile and 
analyze existing data relating to fisheries, habitat, sediment, 
cultural/recreational/historic resources, renewable energy, and marine 
infrastructure, and we have convened a science advisory council of 
credentialed scientists to assist in the development and review of 
these materials.
    The planning process will be transparent and participatory. Since 
September, we have held 18 public hearings and five public workshops to 
get input from and share information with the constituencies who will 
be affected by the ocean plan. We have met with over 80 stakeholder 
groups representing all sectors of marine interest to gather 
information and learn the issues important to each group. And we have 
convened an ocean advisory commission, representing legislators, 
coastal regional planning agencies, fishing, and environmental and 
renewable energy interests to provide policy guidance and review 
planning materials.
    The ocean plan will integrate spatial and regulatory management 
measures. We are employing marine spatial planning and ecosystem-based 
management techniques to overlay and analyze data from the workgroups 
to identify special, sensitive and unique marine life and habitat, and 
to identify appropriate locations for renewable energy facilities and 
other uses. We are concurrently developing performance standards to 
define the terms for the respective protection and use of these areas.
    The ocean plan will coordinate state and federal regulation of 
activities in state waters and with current and future uses of federal 
waters. We are working with our federal partners to identify management 
areas in state waters that are consistent with federal management 
interests, to ensure regulatory efficiency. And we will be working with 
the Minerals Management Service, and others, building on our state 
planning materials, to identify appropriate locations for the 
development of renewable energy facilities on the Outer Continental 
Shelf.
    The ocean plan will be revised at least every five years. We 
recognize that much more data and information are needed to address all 
of the issues identified through the planning process. An important 
element of the first plan is the outline for ongoing work and the 
identification of priority management objectives and associated data 
needs to ensure ongoing, dynamic evolution of the ocean plan.
    The ocean plan will make choices and give clarity to users and 
development interests. While we build a durable framework for long 
term, science-based, oceans management, we recognize the need for 
clarity for the range of interests that seek the opportunity to, for 
example, site energy infrastructure in our state waters.
    Overall, the ocean plan will provide a robust template to protect 
our vital natural resources and balance traditional uses with new ones, 
such as renewable energy, that are important to our future.
Federal leadership on ocean policy
    More than five years ago, the U.S. Commission on Ocean Policy and 
the Pew Ocean Commission declared that, while coastal and ocean issues 
have significant and far-reaching environmental, economic and social 
ramifications for the nation, federal policy-makers have been slow and 
short-sighted in their response. More recently, the Joint Ocean 
Commission Initiative's Ocean Policy Report Card gave state-level 
planning and management efforts an ``A-''; federal efforts did not fare 
as well, with federal shortcomings also implicated in hampering state 
efforts: ``While the problems facing marine ecosystems must be 
addressed at the local level, additional tools and support that the 
federal government can provide are also needed to truly resolve the 
most pressing issues.''
    The Coastal Zone Management Act (CZMA) of 1972 authorized the 
framework for the wise stewardship of the nation's coastal resources. 
CZMA established a unique partnership among federal, state, and local 
governments to ensure balanced consideration of competing coastal 
resource uses. CZMA encourages coastal states to develop coastal 
management plans, subject to review and approval by the federal 
government. In addition to its oversight function, the federal role in 
the partnership consists of a combination of financial assistance to 
states and the assurance of consistency of federal activities with 
approved state management plans.
    To date, the partnership established by CZMA has been remarkably 
productive. More than 99 percent of national coastal areas now fall 
under a state coastal zone management plan; 34 of 35 eligible coastal 
states and territories have instituted these plans. Because of their 
experience in managing these programs, coastal states and territories 
have developed unique expertise in dealing with coastal zone management 
issues. This expertise will become increasingly important as pressures 
on the nation's finite coastal resources continue to increase.
    A reauthorized CZMA should also contain provisions that authorize 
grants to coastal states to support state efforts and federal 
partnerships to initiate and complete surveys of state waters and 
adjacent federal waters. Intelligent and responsible siting of energy 
facilities--both traditional and renewable--will require that 
significant effort be devoted to identifying the most appropriate 
locations for these facilities. Adequate and current information is 
needed to identify and understand critical components such as living 
marine resources like fish, marine mammals and endangered species; 
physical and chemical conditions like bathymetry, seafloor geology, and 
salinity; and ocean uses like fishing, navigation, and recreation.
    Section 307 of the Coastal Zone Management Act, known as the 
federal consistency provision, grants states authority to review 
federal activities, licenses and permits that have reasonably 
foreseeable effects on any land or water use or natural resource of the 
coastal zone. These activities must be consistent to the maximum extent 
practicable with the enforceable policies of a coastal state's 
federally approved coastal management program. This has been a primary 
method of ensuring more sustainable development of the nation's coasts.
    Consistency applies before a federal permit is issued; thus, it 
facilitates early consultation between states, federal agencies and 
permit applicants in order to avert disputes from arising after 
substantial commitments have been made by agencies and applicants. 
Without these early reviews, there would be much more uncertainty, 
litigation and calls for federal legislative intervention in actions in 
coastal communities. To increase efficiency for states, federal 
agencies and applicants, many states have created streamlined 
approaches to energy related activities.
    In granting states consistency authority, Congress recognized that 
federal interests and activities must be balanced with the sovereign 
interests of states in managing coastal resources. This is the 
underlying philosophy of the CZMA and the consistency provision. State 
coastal programs must receive federal approval for a state to exercise 
its consistency authority; likewise, each enforceable policy upon which 
it relies must also receive federal approval.
    Furthermore, the resources of the OCS and the coastal zone are many 
times difficult, if not impossible, to differentiate. Fish, currents, 
wind and wave care little about an imaginary line drawn three nautical 
miles from our shores. As the committee considers offshore energy, the 
retention of consistency under the CZMA must be a priority.
    To support the application of this expertise and augment financial 
resources available to state coastal and ocean managers, the U.S. 
Commission on Ocean Policy recommended that a portion of OCS revenues 
should be shared with coastal states (Recommendation 24-1). Revenues 
shared with the states should further the goals of improved coastal and 
ocean management. The establishment of a Trust Fund provides a 
mechanism for the reinvestment of revenues generated from these public 
lands toward protection of coastal resources and communities. The Trust 
Fund can support the focused efforts of coastal states, territories and 
commonwealths, other appropriate coastal authorities, and federal 
agencies in addressing critical ocean and coastal management needs of 
our nation including restoration, protection, and enhancement of 
natural processes and habitats. This will help minimize and plan for 
the impacts of sea level rise, climate change, and ocean acidification 
on ocean and coastal resources.
    In 2006, the Coastal States Organization--which represents the 
interests of the 35 coastal states, Commonwealths, and Territories on 
federal legislative, administrative, and policy issues relating to 
sound coastal, Great Lakes, and ocean management--adopted a policy on 
revenue sharing. The policy holds that ``because the coastal states 
face a number of challenges in conserving their coastal resources and 
protecting their coastal communities, OCS receipts should be used to 
further the goals of coastal and ocean restoration, conservation, 
preservation, mitigation, research, and education.'' Furthermore, these 
funds should be provided over and above existing appropriations to meet 
the increasingly complex and unmet needs of ocean and coastal managers.
    As federal agencies move forward with the implementation of a new 
energy policy, it is imperative that they do so in close and active 
partnerships with state governments and the private sector. States like 
Massachusetts are actively engaged in near and offshore ocean planning 
and the identification of appropriate locations for the development of 
renewable energy facilities both in state waters and on the Outer 
Continental Shelf. They need regular and consistent support from and 
coordination with their federal agency counterparts. NOAA has done very 
well in this aspect, and we would strongly recommend that MMS follow 
suit with an increased regional and even state presence and dialogue.
Conclusion
    The wise use and management of our ocean resources is essential to 
protecting the marine ecosystem for current and future generations, 
meeting the nation's energy needs, feeding and ensuring the health of 
its citizens, and responding effectively to the impacts of climate 
change. In legislation related to state and federal coastal and ocean 
management, Massachusetts recommends that Congress:
    1.  Elevate the energy policy priority of offshore wind. Europe has 
moved well ahead of the United States on the development of offshore 
wind resources. Offshore wind is superior to onshore wind in terms of 
capacity factor, reliability and proximity to the major load centers of 
the East Coast. Once the OCS rule is completed, MMS and FERC should 
turn their focus toward resolving the technical issues surrounding an 
offshore wind transmission system and DOE should invest in accelerating 
the commercialization of deeper water wind technologies.
    2.  Clarify the National Oceanic and Atmospheric Administration's 
mission in supporting new approaches to ocean and coastal management. 
NOAA is a vital resource for our states, providing data, coastal 
management expertise in all disciplines, and financial resources in 
support of state coastal interests. Given the extent of NOAA's line 
agencies' jurisdiction, their constructive participation in and support 
for new approaches to ocean management will be critical as we increase 
the scope of our ocean activities. Legislation should ensure that 
NOAA's structure is consistent with the principles of ecosystem-based 
management and with its primary functions of assessment, prediction, 
and operations; management; and research and education.
    3.  Reauthorize CZMA to enhance the federal-state partnership on 
managing state and federal waters. The Coastal Zone Management Act is a 
critical tool by which both federal and state governments effectively 
manage the multiplicity of uses and resources in state waters. To aid 
the states in their efforts to develop workable coastal zone management 
plans, it is critical that the federal government continue to support 
and enhance a national partnership framework.
    4.  Establish an Ocean and Coastal Trust Fund. Funded by a portion 
of Outer Continental Shelf revenues, the Trust Fund would support the 
focused efforts of coastal states, territories and commonwealths, other 
appropriate coastal authorities, and federal agencies in addressing 
critical ocean and coastal management needs of our nation, including 
restoration, protection, and enhancement of natural processes and 
habitats. This will provide resources to help minimize and plan for the 
impacts of sea level rise, climate change, and ocean acidification on 
ocean and coastal resources.
    In closing, this is a time of great challenge but also great 
opportunity when it comes to the vast resources found in our ocean 
waters. We in Massachusetts are particularly hopeful about the prospect 
of offshore wind helping to meet our energy and climate goals and 
obligations, and excited about the process of bringing a comprehensive 
approach to managing our ocean resources in a productive and 
environmentally responsible way. We look forward to the federal 
government being vital partner in both.
    Thank you for holding this important hearing and for the 
opportunity to address the joint subcommittees.
                                 ______
                                 

  Response to questions submitted for the record by Hon.Ian A. Bowles

Questions from Majority Members on the Subcommittees
1.  Secretary Bowles, Dr. Kitsos, and Professor Eagle, the three of you 
        made a strong case for the benefits of a comprehensive planning 
        process for our oceans. However, are there objections that 
        would be raised to the idea of marine spatial planning or ocean 
        planning, and if so, what are they and how do you respond to 
        them?
    1.  Objection: Uses such as commercial fishing and recreation with 
a strong sense of tradition may perceive such an effort as threatening, 
since through such an effort emerging uses (related to renewable 
energy, e.g.) would be part of the consideration. Response: Successful 
comprehensive ocean planning allows all interests to have a voice 
before an individual project is proposed. Because commercial fishing, 
recreation, and other uses provide input (i.e., identifying highly 
important fishing grounds or travel routes) regarding their concerns, 
ocean planning thus reduces conflict and controversy associated with 
specific ocean development proposals.
    2.  Objection: Planning slows down the pace of development. 
Response: Done correctly (i.e. with a fully developed program for 
public participation), the end result of ocean planning is that 
obstacles for appropriate development are avoided or minimized. 
Stakeholder concerns and policy issues can be dealt with through the 
development of the plan, so that a specific development that conforms 
to the plan will have fewer issues to address. Additionally, an 
aggressive deadline for the plan (for example, such as that mandated in 
the Massachusetts Oceans Act) can be helpful regarding this objection.
    3.  Objection: There is insufficient scientific information 
available. Response: There is certainly much that we do not know about 
the ocean environment, particularly toward the outer edges of the OCS. 
However, the Massachusetts experience is that the combination of 
existing scientific data and the input of lifelong users of ocean 
waters (fishermen, commercial vessel operators, and others) provide a 
solid foundation of information to begin making decisions on the 
appropriate locations of specific uses.
    4.  Objection: Ocean planning is not necessary, since existing 
authorities at the federal level are sufficient to address any 
conflicts that arise. Response: A main need for ocean planning is 
because of the intersection of public policy concerns such as climate 
change, the need for clean, secure electricity generation, and the 
importance of commercial fishing. While federal authorities exist to 
address each of these policy concerns, the tendency is for there to be 
an issue-specific approach: one agency regulates energy development; 
one agency regulates commercial fishing, etc. Comprehensive ocean 
planning provides for a mechanism to consider all such concerns 
simultaneously.
2.  Secretary Bowles, you mention in your testimony that you believe 
        the MMS draft rules for offshore wind are ``far from perfect.'' 
        In what areas, specifically, do you see flaws? Also, during the 
        hearing you indicated that you did not believe that the 
        regimented MMS oil & gas leasing system would be appropriate 
        for offshore renewables. Could you elaborate on this point, and 
        describe what parts of the oil & gas program are too regimented 
        and why those procedures would not be appropriate for 
        renewables?
    Oil and gas leasing has multiple layers of NEPA review/lease step; 
in part this is because of the lack of any planning activity that 
happens before the oil and gas leasing process is triggered (when a 
proponent shows interest in a particular area) and partly because of 
the significant potential environmental impact (due to oil spills etc.) 
during oil and gas extraction operations. Renewable energy facilities, 
if appropriately sited to avoid significant impacts (particularly 
related to birds and bats), may not have the equivalent level of 
potential impact and thus may not require as extensive a review 
process. Additionally, an ocean plan that considered renewable energy 
would, through its development, seek to minimize environmental impact 
and conflict with existing uses; presumably, therefore, the scope of 
NEPA review would also be decreased. Our comments to MMS in response to 
the draft rule observed that the proposed information requirements did 
not reflect an appropriate distinction between the functional 
characteristics and concomitant review process for oil and gas and 
renewable energy technologies.
3.  Secretary Bowles, would you support a comprehensive federal 
        planning process that did not presuppose that certain areas, 
        such as Georges Bank, would be taken off-limits for oil and gas 
        exploration? That is, if we moved forward with a planning 
        process, would Massachusetts insist on specific protections for 
        Georges Bank beforehand, or would you trust that the planning 
        process would result in that area being protected when all is 
        said and done?
    The Massachusetts Oceans plan would exclude any type of ocean use, 
including renewable energy or oil & gas exploration, in areas of 
significant commercial fishing effort and value. If the federal 
planning process used similar criteria for the Outer Continental Shelf, 
which we believe is vital, Georges Bank would be excluded from oil & 
gas exploration. That is because Georges Bank is regarded as one of the 
most commercially important groundfish fisheries on the Atlantic coast, 
with value exceeding $140 million annually, while the scallop fishery 
generates another $225 million in economic activity annually. Thanks to 
Georges Bank scallop revenues, New Bedford has been the nation's most 
highly valued fishing port for the past six years.
4.  Secretary Bowles, when you talk about an offshore transmission 
        backbone, are you referring to an actual transmission line that 
        is sited offshore, perhaps in a pipeline, or are you referring 
        to an onshore transmission line that is dedicated to offshore-
        generated electricity?
    The term ``offshore transmission backbone'' refers to the need to 
develop transmission infrastructure and capacity in order to bring 
electricity generated by offshore wind turbines to load centers, which 
would include offshore transmission, limited onshore transmission, and 
onshore infrastructure where the transmission interconnects with 
existing power system infrastructure (e.g., at transmission 
substations). Such a system would enable interconnection of offshore 
generating capacity at multiple points, and would deliver power into 
the major load centers along the coast. Until there is a specific 
effort to identify the best locations for offshore wind generation, it 
is difficult to say whether this would involve a single extended 
offshore line, or possible multiple shorter segments. Either way, a 
concerted effort to act on this vision would combine renewable resource 
development with energy, capacity, and transmission congestion relief 
for the major load centers of the most populous region of our country. 
Development of such an offshore transmission network will require 
intense focus from MMS and FERC, and needs to be aggressively pursued 
as part of any OCS energy resource development plan.
5.  Secretary Bowles, Dr. Kitsos, and Professor Eagle, about three 
        years ago, MMS delineated administrative lines in the Outer 
        Continental Shelf, effectively assigning different parts of the 
        ocean to different states, although making it clear that all of 
        the waters of the OCS are federal. MMS published these lines in 
        the Federal Register in January 2006 without any public comment 
        period or, as far as we have been able to tell, any 
        consultation with states. Although MMS has indicated that these 
        lines are for purely administrative purposes, we have seen a 
        real-world consequence of these lines when they were used to 
        establish the portion of the OCS offshore Virginia that would 
        be included in the 2007-2012 5-year plan. What are the other 
        potential consequences of these administrative boundaries that 
        Congress should be aware of, and do you believe there is a need 
        for MMS to revisit how these lines were determined?
    From the Federal Register notice for the delineation of 
administrative lines, MMS stated that their goals were:
    1.  Enhancing the Secretary's ability to ensure that the ``4-
C's''--communication, consultation and cooperation, all in support of 
conservation(are considered as [the Director] engages in efforts to 
identify which State has the most interest in the extended area 
offshore from its coastline because of the increasing number of 
commercial activities on the Federal OCS, such as permits for liquefied 
natural gas facilities, wind power, and wave energy;
    2.  Providing the basis for more accurate delineation of OCS 
planning areas;
    3.  Assisting in ``affected State'' status under the Coastal Zone 
Management Act and the OCS Lands Act. For example, section 18 of the 
OCS Lands Act requires the Secretary to consider the ``laws, goals, and 
policies of affected States.'' Similarly, section 19 analysis requires 
the Secretary to balance national interests with the ``well-being of 
the citizens of the affected State'';
    4.  Providing a more accurate basis for the Secretary to consider 
support for, or objections to, a State's request to analyze leasing off 
its shores. Without such administrative lines, it is difficult to 
define these areas accurately;
    5.  Assisting in the section 18 comparative analysis to determine 
``an equitable sharing of developmental benefits and environmental 
risks among regions.'' Such lines will more accurately define the 
necessary assumptions of what are ``regions''; and
    6.  Helping define appropriate consultation and information sharing 
with States.
    These are important consequences of their action which, in the MMS 
language above, clearly have important ramifications. Deciding what 
States are involved, the nature of that involvement, and what is 
``appropriate consultation and information sharing'' with States during 
regulatory reviews has clear policy and legal implications. This is 
particularly important given the geography of the Atlantic coast of the 
United States and the potential for impacts in one state's 
administrative area to affect another state. The CZMA provides that a 
State can assert federal consistency authority for activities which can 
be demonstrated to affect coastal resources; such activities may have 
an effect on coastal resources of multiple states.
Questions from Minority Members on the Subcommittee
1.  While oil and gas exploration and development may not be 
        appropriate off the coast of Massachusetts, do you oppose the 
        development of oil and gas in other areas of the OCS as long as 
        it is done in a way that would ``balance and accommodate a 
        range of uses while protecting natural assets?''
    No, not as long as the following principles are achieved:
    1.  Minimize conflicts with established uses and/or where the oil 
and gas industry is an established presence, such that such conflicts 
have already been dealt with;
    2.  Ensure that adjacent/affected state interests and policies are 
incorporated (see response to question 5 above)
    3.  Ensure that new and emerging uses are included in the process 
of balancing and accommodating.
2.  In your testimony, you state that Massachusetts is ``employing 
        marine spatial planning and ecosystem-based management 
        techniques to overlay and analyze data from workgroups to 
        identify special, sensitive and unique marine life habitat, and 
        to identify appropriate locations for renewable energy 
        facilities and other uses.'' You say the State has held 18 
        public hearings and five public workshops to get information to 
        develop its integrated ocean management plan.
a.  Has the State surveyed its offshore waters to create a database of 
        what resources are out there and available for use or 
        protection?
    Yes, and data and information has been collected from and with the 
assistance of:
    <bullet>  state agencies,
    <bullet>  Federal agencies (NOAA, USGS, U.S. Coast Guard, U.S. EPA, 
U.S. FWS, U.S. Army Corps of Engineers)
    <bullet>  Academic institutions (UMass, MIT, Boston University, 
WHOI and MIT Sea Grant)
    <bullet>  Not-for-profit organizations (MMTA, Audubon of MA, PCCS, 
New England Whale Center, New England Aquarium,
    <bullet>  Industry (entities and organizations representing 
renewable energy--wind and tidal, commercial fishing, recreational 
fishing, recreational boating, shipping, passenger transportation)
b.  What specific science is the State using to develop this integrated 
        ocean management plan?
    Two main elements:
    1.  Incorporating best available socio-economic science into the 
ocean management plan. This includes:
          a  Analysis of commercial fisheries landings and value to 
        determine economic benefit derived from commercial fishing on a 
        specific area-basis (avoid impacts to areas of high commercial 
        fishing importance)
          b.  Evaluation of patterns of recreational boating and 
        recreational fishing (avoid impacts to areas of concentrated 
        recreational use)
          c.  Recognition of existing patterns of commercial shipping 
        activity such as the approaches to Boston (avoid impacts to 
        established navigation routes)
          d.  Evaluation of potential renewable energy technology given 
        Massachusetts renewable energy resources (wind, tidal/current 
        speed) and potential limitations on siting (depth, bottom type/
        depth to bedrock)
          e.  Employing best available information (based on experience 
        in Massachusetts and elsewhere) regarding the potential for 
        conflicts between uses and resources, as well as between 
        different uses, and measures to address or reduce those 
        conflicts.
    2.  Incorporating best available environmental and ecological 
information. This includes:
          a.  Fish, marine mammal, and bird data (spatial presence and 
        concentration), and understanding of the biology of individual 
        species (for example, the foraging requirements of whales)
          b.  High resolution mapping of the ocean seafloor
          c.  Developing an approach to measuring the relative 
        ecological value of areas of the Massachusetts ocean, by 
        looking at a combination of biological and ecological factors.
          d.  Assessing the potential impacts of specific potential 
        uses (renewable energy, aquaculture, pipelines, cables) on 
        species and habitats.
c.  Has the State found any gaps in the existing scientific data 
        relating to fisheries, habitat, sediment, cultural/
        recreational/historic/ resources, renewable energy, and marine 
        infrastructure that would need to be collected or updated 
        before the plan could be implemented?
    The plan will identify appropriate areas for uses such as wind 
energy development using the information that is at hand today. The 
approach for this plan is to designate only limited areas of the 
planning area for such uses--only those areas where, with some 
certainty, impacts will be minimized (due to the absence of sensitive 
species, lack of potential conflict with existing uses such as 
commercial fishing, etc.). As part of development of this plan, a set 
of future research questions is being developed to enable the plan to 
evolve in the future--for example, to adapt as new technologies are 
developed and as new scientific information is acquired.
d.  Do you consider this process to develop the integrated ocean 
        management plan to be a ``comprehensive, science-based, 
        precautionary approach?''
    Yes, in part for the reasons stated above under part c, but also:
    <bullet>  Comprehensive because we are acquiring as much 
information as possible, and addressing the issues that such 
information leads us to;
    <bullet>  Science-based because it incorporates the best available 
science, and the structure of the plan is purposefully logical, and 
responsive to available information in an objective fashion; and
    <bullet>  Precautionary because an important question we are 
continually asking ourselves is: ``Does the information at hand support 
the decision we are about to make?'' As a result, we are identifying 
relatively small areas as appropriate for particular uses.
3.  You mention that the State is ``developing performance standards to 
        define the terms for respective protection and use of offshore 
        areas.''
        a.  Has the State collected any baseline data for its offshore 
        waters? Yes; see response to question 2 above.
        b.  Does the State plan to collect this information? See 
        response to question 2 above.
        c.  Did the State collect any baseline information before 
        permitting the offshore liquified natural gas facilities or the 
        aquaculture facilities?
    Some information had been collected; for example, there was some 
information available regarding bottom type (bedrock vs. mud/sand) and 
presence of marine mammals, fish, and other species. Much information 
was collected as part of the permitting process for the liquefied 
natural gas facilities.
4.  You refer to the creation of an Ocean Trust fund, which would be 
        funded by a portion of OCS revenues. Is the State of 
        Massachusetts charging resource rental fees for the offshore 
        liquefied natural gas facilities or the aquaculture facilities? 
        If so, what is the fee amount? How did the State determine the 
        fee rate? What are the fees used for, conservation measures?
    Massachusetts tidelands law (so-called ``Chapter 91'') requires 
fees for occupation and displacement for projects in state waters. The 
pipeline component of the projects in state waters is subject to an 
occupation fee of $1.00 per square yard of area of occupied land held 
by the Commonwealth, times the length of the license term, in years. 
This fee, fixed for the term of the license, is assessed on a lump sum 
basis, and is deposited in the general fund. The occupation fee was 
approximately $500,000 for each of the two offshore liquefied natural 
gas facilities.
    Additional compensatory mitigation was assessed for impacts to 
natural resources (marine mammals, fish and habitat) and existing water 
dependent uses (commercial and recreational fishing, marine businesses 
(whale watching, charter fishing boats), and general recreation) 
Mitigation totaled $23.5million per project, calculated using best 
professional judgment of scale of impact, affected entity, and 
appropriate mitigation measures (see Secretary's Certificate, http://
www.mass.gov/envir/mepa/pdffiles/certificates/120106/13473feir.pdf, at 
pp 4-9, for specific allocation of mitigation funds.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Secretary, for your 
statement, and for providing those insights into the efforts of 
the State of Massachusetts to thoughtfully plan for the 
different uses of our oceans.
    Professor Eagle, you are now recognized to testify for five 
minutes.

   STATEMENT OF JOSHUA G. EAGLE, ASSISTANT PROFESSOR OF LAW, 
           UNIVERSITY OF SOUTH CAROLINA SCHOOL OF LAW

    Mr. Eagle. Thank you, Madame Chairwoman, Mr. Chairman, and 
members of both Subcommittees. Thank you for the opportunity to 
appear here today.
    You have asked me to discuss the potential benefits of 
marine spatial planning as it relates to the development of 
offshore energy projects. The term ``marine spatial planning'' 
refers to a process that governments can use to allocate 
limited ocean resources to various defined uses, such as oil 
and gas development, wind farms, recreational fishing, 
commercial fishing, and marine conservation.
    The benefits of spatial allocation are that it allows 
incompatible uses to be physically separated, and synergistic 
uses to be co-located. The process ultimately produces a two- 
or three-dimensional map on which ocean areas would be 
designated for particular uses.
    Marine spatial planning is often linked to the concept of 
ocean zoning. That term refers to the laws and regulations that 
would govern the use of each area established through the 
planning process. These laws or regulations would, among other 
things, specify the types of resource uses allowed or not 
allowed in given zones, as well as standards and procedures for 
permitting allowable uses within those zones.
    There are three reasons why marine planning and zoning is a 
good idea. First, the planning process itself. Second, the 
potential reduction of user-group conflicts. And third, the 
fact that it would provide valuable certainty and security to 
those resource user groups.
    The value of planning is particularly high in the context 
of marine resource development, because marine resources are 
public resources that government holds in trust for its 
citizens. The government's trustee responsibility for those 
resources mandates that it makes fully informed, rational 
decisions. Such decisions can only be made after thorough 
scientific and economic assessment of the resources.
    This kind of assessment is at the core of any comprehensive 
planning effort. The alternative to planning--that is, ad hoc 
permitting within a multiple-use system--leads only to 
information regarding the project for which a permit is being 
sought. A decision made on the basis of project-specific 
information is likely not to be optimal, mainly because it will 
not take into account a broad range of alternatives to the 
proposed action.
    As beneficiaries of the ocean trust, citizens should be 
provided with the most democratic, transparent means of input 
into government decisions on resource use. Because it would 
take into consideration all potential uses of ocean resources, 
and because it is based on scientific and economic information, 
a comprehensive planning process would create ideal conditions 
for quality public input.
    Zoning and planning can also preempt conflicts among 
competing public user groups. There are, in fact, a wide range 
of competing uses for limited marine resources and ocean space. 
In many cases, proposed uses of particular areas will directly 
conflict. The same square mile of ocean space cannot, for 
example, be used for both seabed mining and marine 
conservation.
    In other cases, two proposed uses could conflict by virtue 
of the fact that they were cited in close proximity. Nearby 
mining activities may, for example, lessen the effectiveness of 
a conservation-oriented, marine protected area.
    Marine planning and zoning allows for some areas of the 
ocean to be dedicated to uses that are not compatible with any 
other uses. At the same time, planning and zoning provides a 
mechanism whereby competing conflicting uses may be located 
geographically far enough apart so that they do not impose 
negative externalities on one another.
    Planning and zoning creates the opportunity not only to 
separate incompatible uses, but to locate zones so as to 
maximize synergies.
    Next, planning and zoning enhances security and certainty 
for user groups. As noted above, the alternative to 
comprehensive marine planning and zoning is ad hoc permitting. 
In addition to requiring an extensive and expensive public 
process for each new proposed project, an ad hoc approach 
creates a great deal of uncertainty.
    Certainty is particularly important in the marine context 
and in the context of resource development. Many desired uses 
of marine resources, including fishing, oil and gas 
development, require substantial capital investment. Each new 
oil platform, for example, costs billions of dollars to 
construct and install.
    The end result of a comprehensive planning process would be 
that certain ocean areas would be presumptively dedicated to 
specific uses. Such presumptions, which would be set out in the 
laws governing permit processing, would create a great deal 
more certainty than the laws mandating ad hoc approvals that we 
currently have.
    Certainty could be increased even further if both Federal 
and state waters were included in a planning process.
    Finally, some have suggested that planning and zoning are 
likely to be expensive, and will slow development. I do not 
think this is the case.
    It is true planning and zoning would require a several-year 
study period, during which time the planning body, likely a 
Congressionally chartered commission, would gather information, 
conduct hearings, consult with experts, and develop a plan.
    However, once Congress considered and adopted the plan and 
the implementing legislation, costs and delays associated with 
project development should be far less than they would be under 
an ad hoc system.
    Thank you very much, and I am happy to take your questions.
    [The prepared statement of Mr. Eagle follows:]

       Statement of Joshua G. Eagle, Assistant Professor of Law, 
               University of South Carolina School of Law

    Madam Chairwoman, Mr. Chairman, and members of both subcommittees, 
thank you for the opportunity to appear here today. My name is Josh 
Eagle, and I am an Assistant Professor of Law at the University of 
South Carolina School of Law in Columbia, South Carolina. You have 
asked me to discuss the potential benefits of marine spatial planning 
as it relates to the development of offshore energy projects. I have 
extensive experience in this area, having written and co-written 
numerous papers on the topic, and I am happy to provide you with my 
views and to answer your questions. I am testifying today in my 
individual capacity.
1. Introduction
    The term ``marine spatial planning'' refers to a process that 
governments can use to allocate limited ocean resources to various 
defined uses, such as oil and gas development, wind farms, recreational 
fishing, commercial fishing, and marine conservation. The benefit of 
spatial allocation--that is, the allocation of defined areas to defined 
uses--is that it allows incompatible uses to be physically separated 
and synergistic uses to be co-located. The process of marine spatial 
planning ultimately produces a two- or three-dimensional map on which 
specified ocean areas would be designated for particular uses.
    Marine spatial planning is often linked to the concept of ``ocean 
zoning.'' That term refers to the system of laws or regulations that 
would govern the use of each area that is established through the 
marine spatial planning process. These laws or regulations would, among 
other things, specify the types of resource uses allowed or not allowed 
in given zones, as well as standards and procedures for permitting 
allowable uses within those zones. The application of marine spatial 
planning without the implementation mechanism of ocean zoning is 
theoretically possible, but probably is not desirable. For this reason, 
and for the sake of brevity, I will hereinafter refer to the 
combination of marine spatial planning and ocean zoning as ``marine 
planning and zoning.''
    While the idea of marine planning and zoning is a relatively new 
one, the use of planning and zoning in other contexts dates back nearly 
one hundred years. In 1916, New York City became the first city in the 
United States to adopt a comprehensive municipal zoning ordinance. 
Today, nearly all cities and towns with over 10,000 residents have 
zoning ordinances in place. Pursuant to state zoning enabling acts, 
these municipal ordinances must be ``in accordance with a general 
plan,'' that is, a plan for current and future land use within the 
relevant jurisdictional boundaries.
    As it supplies a useful analogy, it is worth briefly noting the 
purposes of municipal planning and zoning. It has three primary 
functions:
    <bullet>  First, the planning process provides an opportunity for 
elected officials and voters to assess available public and private 
resources, to consider options for alternate development patterns, and 
to decide--through a highly democratic process--what kind of city they 
wish to build. While some towns may, for example, desire to preserve 
their historic character, others may prefer to encourage redevelopment 
of older neighborhoods.
    <bullet>  Second, the use of planning and zoning helps to prevent 
costly conflicts between neighboring landowners. Allowing a hog farm to 
be built in the midst of a residential neighborhood benefits neither 
the farm nor the neighborhood and would likely lead to litigation. 
Planning and zoning is meant to preempt this type of dispute.
    <bullet>  Third, planning and zoning can provide security and 
certainty to current landowners and potential investors. Zones 
established by a municipal ordinance pursuant to a comprehensive plan 
will generally specify whether a particular land use is presumptively 
permitted or prohibited. These presumptions create a relatively stable 
legal environment. Predictability is extremely valuable to both 
commercial landowners and homeowners.
    Each of these three rationales is even more compelling in the 
marine context than it is in the municipal context. In other words, if 
planning and zoning makes sense in the municipal context, it makes even 
more sense as a tool for rational development of the United States' 
marine resources.
2. Rationales Supporting Marine Planning and Zoning
A. Planning: Science, Values, and Democracy
    The value of planning is particularly high in the context of marine 
resource development because marine resources are public resources that 
government holds in trust for its citizens. The government's trustee 
responsibility for these resources mandates that it make fully 
informed, rational decisions. Such decisions can only be made after a 
thorough scientific and economic assessment of ocean resources. This 
kind of thorough scientific and economic assessment is at the core of 
any comprehensive planning effort. The alternative to planning, that 
is, ad hoc permitting in a multiple-use system, leads only to the 
generation of information regarding the project for which a permit is 
being sought. A decision made on the basis of project-specific 
information is likely not to be optimal, mainly because it will not 
take into account a broad range of alternatives to the proposed action.
    Furthermore, as beneficiaries of the ``ocean trust,'' citizens 
should be provided with the most democratic, transparent means of input 
into government decisions on resource use. Because it would take into 
consideration all potential uses of ocean resources, and because the 
basis for it is scientific and economic information, a comprehensive 
planning process would create ideal conditions for quality public 
input.
    Because many of the important decisions regarding allocation of 
marine resources would be made during the temporally compact initial 
planning phase, interest groups of varying political strength and 
economic resources would be placed on a relatively equal footing. 
Groups with fewer resources and less influence typically do not fare 
well in ad hoc permitting systems, because such systems require 
frequent, long-term, and expensive participation. The inability to 
participate on a regular basis in administrative processes can lead to 
the use of litigation as a tool for intervention. This may not be the 
most efficient means of providing input into resource allocation 
decisions.
    With the best available scientific and economic information in 
hand, government can fulfill its responsibilities to allocate marine 
resources efficiently and through as fair a process as possible. A 
transparent, democratic process ensures that the public will have a 
powerful voice in deciding how its oceans will be used in the future.
B. Avoiding Conflicts Among Competing Public User Groups
    There are a wide range of competing uses for limited marine 
resources and ocean space. In many cases, proposed uses of particular 
areas will directly conflict. The same square mile of ocean space 
cannot, for example, be used for both seabed mining and marine 
conservation. In other cases, two proposed uses could conflict by 
virtue of the fact that they were sited in close proximity. Nearby 
mining activities may, for example, lessen the effectiveness of a 
conservation-oriented marine protected area.
    Marine planning and zoning allows for some areas of the ocean to be 
dedicated to uses that are not compatible with any other uses. This 
ensures that public user groups who desire or depend upon the 
availability of that use will indeed be provided for. At the same time, 
planning and zoning provides a mechanism whereby competing, conflicting 
uses may be located geographically far enough apart so that they do not 
impose negative externalities on one another. So, for example, planning 
and zoning make it possible to locate oil and gas production facilities 
at a safe distance from important commercial fishing grounds.
    The use of planning and zoning to avoid user group conflicts is 
even more important in the ocean context than it is in the municipal 
context. Where private land is involved, as it is in municipal planning 
and zoning, landowners who are not protected from externalities by a 
zoning ordinance have the option of defending their property interests 
through the court system and common law nuisance actions. In lieu of 
landowners, the political landscape of the ocean features a range of 
interest groups, each of which represents a segment of the American 
public, each of which has differing ideas on how ocean resources should 
be used, and none of which has a private property interest in the 
resources themselves. Without property interests to support a nuisance 
action, and without comprehensive planning and zoning, citizens who 
value ocean space for one particular use--commercial fishermen, 
recreational fishermen, the oil and gas industry, wind farmers, marine 
conservationists--have little to no power to ensure that other uses do 
not infringe.
    It should also be noted that planning and zoning creates the 
opportunity not only to separate incompatible uses, but to locate zones 
so as to maximize synergies. There is evidence, for example, that 
recreational fishermen receive significant benefits from being allowed 
to fish along the boundaries of marine protected areas. The placement 
of these two types of areas adjacent to one another would thus benefit 
not only recreational fishermen, by providing them with more and more 
valuable fishing opportunities, but would also benefit marine 
conservation by generating political support for better management and 
enforcement within the protected area.
C. Security and Certainty
    As noted above, the alternative to comprehensive marine planning 
and zoning is ad hoc permitting. In addition to requiring an extensive 
and expensive public process for each specific new proposed project, an 
ad hoc approach creates a great deal of uncertainty.
    Certainty is particularly important in the marine context. Many 
desired uses of marine resources require substantial capital 
investment. Each new oil platform, for example, costs billions of 
dollars to construct and install. The end result of a comprehensive 
planning process would be that certain ocean areas would be 
presumptively dedicated to specific uses. Such presumptions, which 
would be set out in the laws governing permit processing, would create 
a great deal more certainty than laws mandating ad hoc approvals. 
Certainty could be increased even further if both Federal and state 
waters were included in the planning process.
    The certainty provided by planning and zoning would also benefit 
other types of interest groups, such as conservationists and 
recreational fishing groups, that do not make large financial 
investments. To the extent that such groups are allocated a fair amount 
of ocean space, the certainty provided by zoning would mean that they 
could expend fewer resources in opposing permitting processes in other 
areas, confident in the knowledge that some areas of the ocean had been 
presumptively dedicated to their preferred uses.
    There are several examples from around the world that illustrate 
that commercial ocean users respond positively to the planning and 
zoning of public space, owing to the certainty it creates. In New 
Zealand, for example, some members of the fishing industry welcomed the 
creation of marine conservation zones because their creation was 
accompanied by a legal presumption that commercial fishing would be 
allowed in areas outside the conservation zones. Similarly, in Canada, 
the timber industry agreed several years ago to the creation of large 
forest reserves in exchange for the presumptive right to log other 
nearby lands.
3. Is Planning and Zoning Likely to Be Expensive? Will it Slow 
        Development?
    Any assessment of the costs of planning and zoning, including the 
costs of potential delays in project development, must compare the 
costs of planning and zoning against the costs of an ad hoc permitting 
system.
    It is true that planning and zoning would likely require a several 
year study period, during which time the planning body--likely a 
Congressionally-chartered commission--would gather information, conduct 
public hearings, consult with experts, and develop its final plan. Once 
Congress considered and adopted the plan and implementing legislation, 
however, costs and delays associated with project development should be 
far less than they would be under an ad hoc system.
    The reasons for this are three-fold:
    <bullet>  First, ad hoc systems require public process in 
connection with each new permit considered. While permits for 
individual projects would still be required within the context of a 
planned and zoned system, the process associated with such projects 
would likely be more abbreviated.
    <bullet>  Second, agencies implementing zone rules will have a much 
simpler task processing applications because of the specific 
legislative guidance inherent in such rules.
    <bullet>  Finally, interest groups' judicial challenges to agency 
actions under a presumptive-use system should be less frequent and more 
easily resolved. This should be true not only because the presumptive 
rules would make it more unappealing to sue over the granting of a 
permit for a presumptively-permitted activity. It should also be true 
because the groups likely to object to permits will have already been 
centrally involved in the initial planning process. During that 
process, they will have conceded that some areas could be used for what 
they consider to be undesirable projects in exchange for the dedication 
of other areas to their own preferred uses. In other words, the 
negotiation would take place through the planning process and not on an 
ad hoc basis through the court system.
4. Conclusion
    There are three strong rationales for employing marine planning and 
zoning as a framework for developing the United States' offshore marine 
resources:
    <bullet>  First, the planning process would lead to better and more 
transparent decisions and to more and better public participation.
    <bullet>  Second, planning and zoning allows for the separation of 
incompatible uses and the co-location of synergistic uses; each of 
these would promote more efficient use of resources.
    <bullet>  Third, planning and zoning reduces uncertainty for both 
commercial and non-commercial interests.
    Each of these rationales supports the use of marine planning and 
zoning and illustrate why it would be superior to existing or proposed 
ad hoc decision-making systems.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Professor Eagle, for 
your comments.
    And now I would like to recognize Dr. Kitsos, and thank you 
for joining us today. You can begin.

        STATEMENT OF THOMAS KITSOS, PH.D., CONSULTANT, 
               JOINT OCEAN COMMISSION INITIATIVE

    Mr. Kitsos. Madame Chairwoman, Mr. Chairman, members of the 
Subcommittee. At the beginning of this decade, both the private 
sector and the public sector each established an ocean 
commission, a blue-ribbon commission to review the state of our 
oceans and coasts, and to make recommendations for any needed 
policy changes.
    The Hon. Leon Panetta headed the privately funded Pew 
Commission, and Admiral James Watkins headed the U.S. 
Commission on Ocean Policy.
    Many factors were at play in the preceding decade that led 
to the establishment of those two commissions, but a deepening 
concern about the growing threats to a healthy ocean ecosystem 
would be near the top of the list. And the aftermath and the 
legacy of the Exxon Valdez oil spill, the 20th anniversary of 
which we are marking today, was one of the more visible and 
noteworthy events that focused the attention of the Nation on 
the sea and the vulnerability of the living resources that live 
in, or are dependent on, the ocean for sustenance.
    On this memorable day, I would like to thank you for the 
opportunity to testify on behalf of the Joint Ocean Commission 
Initiative on OCS energy activity and the health of our oceans. 
And as requested, I will address the work of the commissions 
and the Joint Initiative, specifically the recommendations 
related to ocean governance and an ocean trust fund that is 
directly on point on today's hearing.
    Our ocean governance system is essentially broken, largely 
attributable to fragmented management, uncoordinated 
decisionmaking, and isolated policies. We need to establish a 
national ocean policy to maintain and protect and restore our 
ocean health.
    We should strengthen Federal leadership and coordination. 
We need to appoint a National Ocean Advisor to the President, 
who is a member of the White House Senior Advisory Team 
responsible for setting and overseeing the implementation of 
domestic policy. This advisor should serve as a chair of the 
Committee on Ocean Policy, a committee that is already in 
existence. But that committee needs to be strengthened by 
making it the principal ocean entity within the Executive 
Office of the President, responsible for, among other things, 
improving coordination among ocean agencies and developing an 
integrated offshore planning and management regime, which are 
issues that both of my prior panelists here spoke to.
    In a nutshell, Madame Chairwoman and Mr. Chairman, a voice 
for oceans needs to be institutionalized in the Executive 
Office of the President.
    Given all the activities that are likely to happen in our 
coastal margins and our oceans, we need someone and some 
institution in the White House responsible for interagency 
coordination of ocean and coastal jurisdiction and activities.
    Good policy requires good planning, and good planning 
requires good coordination. And moving toward an integrated, 
spatially based planning and management approach for the oceans 
is a promising process that is worth exploring.
    The Commission on Ocean Policy noted in its final report, 
this nation needs a coordinated offshore management regime that 
encompasses traditional and emerging uses, and is adaptable 
enough to incorporate uses not yet clearly foreseen.
    An example was played out to some extent last week by the 
signing of the MOU by the Department of the Interior, and FERC, 
which has already been referred to. It is interesting that that 
MOU may address some of the concerns between certain ocean-
based alternative energy activities and industries, offshore 
wind and wave power, and claims of sweeping stretches of the 
sea needed to be sorted out.
    Those who are currently working offshore, and those who are 
planning or hoping to, should want as predictable a system of 
management and regulation as possible. We believe that certain 
changes in ocean governance will facilitate that administrative 
certainty.
    I would now like to end by talking about one of my favorite 
subjects, which is money. As the New York Times noted recently 
in an editorial on the Land and Water Conservation Fund, there 
is an interesting symmetry in diverting some offshore royalty 
money to that fund for the acquisition of threatened lands and 
expansion of outdoor activities: namely, using dollars raised 
from depleting one natural resource to protect others.
    This is exactly on point, and should be adapted to our 
oceans. A fund for the reinvestment of the dollars coming from 
the OCS in the balanced management and protection of our 
oceans.
    Specifically, the Administration and Congress should work 
together to establish an ocean investment fund, using a 
significant portion of the resources once generated by private 
commercial activities occurring in Federal waters on the OCS, 
dedicated to provide financial support for national, regional, 
and coastal state and local programs related to understanding 
and managing our oceans and coasts and Great Lakes.
    Currently, virtually all Federal revenues come in from oil 
and gas, but we think these new and emerging technologies--
offshore wind, tidal power, and other sources--will generate 
revenues in the near term. And all of this money should be 
credited to the ocean investment fund.
    In summary, an ocean investment fund should be established 
in the U.S. Treasury, capitalized by a significant portion of 
the resource funds from activities that include oil and gas 
development, as well as new and emerging uses.
    The fund should go to all coastal states, as determined by 
Congress, and used for good, sustainable ocean conservation 
purposes. And it should go to, also a chunk should go to the 
Federal government to try to recoup some of the losses that we 
suffered in budgetary matters to address climate change and 
other needs on behalf of the Federal government.
    In conclusion, our oceans and Great Lakes provide an 
abundance of wealth resulting from numerous activities that are 
vital to our economy, national security, and environmental 
health. They are major contributors to our economy, with half 
the nation's gross domestic product generated in coastal 
watersheds.
    A national ocean policy should be established. Certain 
institutional changes need to be made in our ocean governance 
system, and a coordinated offshore management regime should be 
established to protect our resources, and reduce multiple-use 
conflicts.
    Finally, a portion of the revenues we receive from 
activities in the oceans should be reinvested in, and dedicated 
to, those oceans.
    Thank you, Madame Chairwoman. I would be happy to answer 
questions.
    [The prepared statement of Mr. Kitsos follows:]

             Statement of Dr. Thomas Kitsos, Consultant to 
                 The Joint Ocean Commission Initiative

    Chairman Costa, Chairwoman Bordallo, and Members of the Joint 
Subcommittees. On behalf of the Joint Ocean Commission Initiative, I 
would like to thank you for the opportunity to testify on OCS energy 
activity and the health of our oceans. In your letter of invitation, 
you asked that I address the work of the ocean commissions that 
preceded and led to the establishment of the Joint Initiative and 
specifically the recommendations of the Commissions and the Joint 
Initiative related to ocean governance and an ocean trust fund.
    The Joint Initiative is a collaborative effort of members of the 
U.S. Commission on Ocean Policy and the Pew Oceans Commission. The 
purpose of the Joint Initiative is to advance the pace of change for 
meaningful ocean policy reform. The Joint Initiative is co-chaired by 
Admiral James D. Watkins (U.S. Navy, Ret.) who was Chairman of the U.S. 
Commission on Ocean Policy. Up until quite recently, Admiral Watkins' 
co-chair on the Joint Initiative was The Honorable Leon Panetta who had 
headed up the Pew Oceans Commission and who, as you know, was confirmed 
last month as the Director of the Central Intelligence Agency. In his 
new capacity at the CIA, Mr. Panetta will no longer be able to serve as 
Joint Initiative Co-Chair.
    As a little background, the Joint Initiative communicated with the 
offices of each major party candidate during the presidential campaign 
about an ocean policy agenda and, in September, 2008, issued a report 
entitled Changing Oceans, Changing World: Ocean Policy Priorities for a 
New Administration and Congress: Recommendations from the Joint Ocean 
Commission Initiative. The essence of the report, a copy of which is 
appended to this statement, was to inform each candidate that, for a 
broad range of reasons, our oceans are in crisis and that to begin to 
meet the challenge of that crisis, it is essential that the new 
administration:
    1.  Establish a coherent national ocean policy and improve federal 
coordination of ocean science and resource management to protect, 
maintain, and restore ocean health and enhance economic opportunities.
    2.  Invest in ocean science to rebuild capacity for research so 
that we can better understand and predict climate change and its 
impacts on oceans and coastal economies.
    3.  Bolster U.S. international leadership by acceding to the Law of 
the Sea Convention in order to secure the country's economic and 
national security and reestablish the United States as the preeminent 
steward of ocean health.
    The first recommendation, the statement on ocean policy, 
encompassed both of the issues in which your subcommittees have 
expressed an interest: ocean governance and an ocean trust fund. 
Specifically, the Joint Initiative recommended that the United States 
should establish a national policy to protect, maintain, and restore 
the health of ocean ecosystems and enhance the sustainability of ocean 
and coastal economies. Further, it should require that federal agencies 
administer U.S. policies and laws to the fullest extent possible 
consistent with this national policy. Based on this policy, the four 
components of a new ocean governance regime include:
    Strengthening federal leadership and coordination. Appoint a 
National Ocean Advisor to the President, who is an integral member of 
the White House senior advisory team responsible for setting and 
overseeing the implementation of domestic policy. Designate the Advisor 
as the chair of the current Committee on Ocean Policy. Strengthen the 
Committee by making it the principle entity within the Executive Office 
of the President responsible for improving coordination among ocean 
agencies, developing an integrated offshore planning and management 
regime, and enhancing leadership in support of a national ocean policy 
and implementation of a broader climate change strategy.
    Codifying and reorganizing the National Oceanic and Atmospheric 
Administration (NOAA). Codify NOAA as the lead federal civilian agency 
with responsibility for coasts, oceans and Great Lakes. Consideration 
should be given to reorganizing the agency along its primary 
functions--assessment, prediction and operations; resource and area 
management; and scientific research and education--to enhance the 
agency's capacity for providing climate-related services, coordinate 
federal ocean science, management, and education programs, provide 
support for regional and state ocean management efforts and improve 
efforts to respond to climate change.
    Supporting regional approaches. Support regional solutions and 
improved coordination across all levels of government to promote more 
integrated approaches and coordination among federal, state and local 
governments around the goal of ocean ecosystem health.
    Establishing a national ocean trust fund. Create an ocean trust 
fund, incorporating revenues generated by economic activities occurring 
in federal waters on the OCS, to support federal, state and local 
activities related to understanding and managing our oceans,
    These, then, formed the foundation of the Joint Initiative's pre-
election ocean governance recommendations based on its assessment of 
the work of the two commissions and the record of the subsequent years 
since their reports were issued. It is a record of a national failure 
to act on most of the core recommendations of the Commissions including 
the establishment of a new ocean policy framework and a coordinated 
ocean governance regime; securing Senate support for U.S. accession to 
the Convention on Law of the Sea; codifying and reorganizing NOAA, 
significantly increasing federal support for regional coordination 
efforts, and addressing chronic underfunding of ocean and coastal 
science, management, and conservation.
    After the 2008 election, the Joint Initiative organized a series of 
meetings with Obama transition teams focusing on the natural resource 
policy and planning efforts of the President-elect's incoming 
administration. Along with the Monterey Bay (California) Aquarium, the 
Joint Initiative then convened a workshop with ocean leaders in January 
of this year in Annapolis. Attendees included individuals from research 
institutions and academia, environmental organizations, foundations, 
and ocean industry groups. Through discussions at the workshop, the 
Joint Initiative is currently developing a more detailed set of 
recommendations focused on the priority areas of ocean and coastal 
governance reform, science and research, international leadership, and 
funding. The result of the workshop will be a report to national 
leaders that builds upon and retains the title of Changing Oceans, 
Changing World. Recognizing the pressing national needs associated with 
climate change, energy policy, and rebuilding the economy, the report 
will demonstrate the strong linkages between ocean health and these 
priorities areas. The Joint Initiative will formally deliver Changing 
Oceans, Changing World to the Administration and Congress next month.
    Although the Commissioners and staff of the Joint Initiative are 
still working on the final language of the report, some observations 
based on its past work and the discussions at Annapolis can be advanced 
now. Our ocean governance system is essentially broken, largely 
attributable to fragmented management, uncoordinated decision making, 
and isolated policies. A voice for oceans needs to be institutionalized 
in the executive office of the President. Interagency coordination of 
ocean and coastal jurisdictions and activities, moving toward 
integrated, spatially based planning and management approaches, is 
essential, as we have seen in a number of examples in the last few 
years. As the U.S. Commission on Ocean Policy noted in its final 
report, ``...(t)he nation needs a coordinated offshore management 
regime that encompasses traditional and emerging uses and is adaptable 
enough to incorporate uses not yet clearly foreseen'' (An Ocean 
Blueprint for the 21st Century, p. 98).
    One recent example of this that was played out to some extent last 
week--and of direct interest to these subcommittees--was the signing of 
a memorandum of understanding by the Interior Department and Federal 
Energy Regulatory Commission regarding federal oversight of offshore 
renewable energy projects on the OCS. Interior will handle wind 
projects and FERC will oversee hydropower projects, such as wave, tidal 
and ocean currents. Apparently another MOU dealing with the permitting 
and licensing of offshore projects is still in the works and Interior 
Secretary Salazar indicated that rules to set up alternative energy 
development may be finalized in a couple of months. This may address 
some concerns between certain ocean-based alternative energy 
industries--offshore wind and wave power--about claiming sweeping 
stretches of the sea, sometimes overlapping each other and igniting 
what has been described as modern-day allegations of ``claim jumping'', 
or a wild west atmosphere based on regulatory uncertainty.
    We will have to see if all of the outstanding issues between these 
two agencies have been resolved and some additional time will be 
necessary to make that determination. However, it does appear that 
there is no dispute about the Mineral Management Services' jurisdiction 
over offshore wind projects and that clarification is very helpful in 
moving forward with at least one form of renewable power generated from 
the ocean.
    This illustrates the relationship between the work of the 
commissions and energy development in the OCS. What the commissions 
emphasized and what the Joint Initiative has reiterated is that we need 
a far more coordinated ocean governance regime and a far stronger 
emphasis on the role of ocean science in a variety of policy areas, 
from climate change to energy. One promising process that can support 
more integrated management is a comprehensive, spatially based approach 
based on a stronger marine science foundation delineating general 
levels of acceptable activities and impacts for particular geographic 
areas in the ocean. This integrated, spatially based planning and 
management approach can provide greater clarity and predictability to 
ocean users, reduce conflicts, account for cumulative impacts on 
ecosystem health, and help achieve specific ecological, economic, and 
societal goals.
    This is precisely the type of mandate that should be given to the 
enhanced Committee on Ocean Policy and would provide a common vision 
and enable an integrated and comprehensive approach to planning and 
managing ocean and coastal activities. For our oceans, the resources 
they hold, and the scientific information we need to manage them, are 
essential parts of the fundamental structure that supports our economy. 
Agriculture, transportation, fishing, recreation and tourism, and 
coastal development are all dependent upon information derived from 
ocean and coastal science.
    And, importantly, oceans and marine science also relate closely to 
one of our highest national priorities: a clean and secure energy 
future. With abundant opportunities for wind, wave, tidal and thermal 
energy production and reserves of oil and gas, our oceans and coasts 
are a significant source of both traditional and clean, renewable, 
domestic energy. Advances in ocean science are critical to 
understanding the benefits and costs associated with these 
opportunities as the nation struggles to strike a new balance and 
realign its priorities in the face of a major economic and 
environmental transition.
    This, then, is the broad, general background of the context of the 
work of the two ocean commissions and the Joint Initiative with respect 
to ocean policy, governance and science. There are two final issues 
that require mentioning given the primary subject of this hearing: OCS 
leasing moratoria/presidential withdrawals and the use of revenues from 
offshore development.
    The two commissions took some slightly different positions on each. 
The U.S. Commission described the history of the development of 
moratoria and withdrawals but did not take a position on that issue. 
The Pew Commission did not carry an extensive discussion of the OCS 
moratorium but recommended that it be retained pending the completion 
of regional governance plans developed by ocean ecosystem councils. 
Since the filing of the reports and the follow-up work of the Joint 
Initiative, the Commissioners have not taken a position on the 
moratoria/presidential withdrawal, either while such moratoria or 
withdrawals were in place nor since they have been lifted. There is a 
clear understanding and acknowledgement that offshore oil and gas 
production is one of the important ocean activities in a mix of growing 
uses of the sea and is a large and important contributor to our 
economic and energy life whether, as now, confined largely to the 
central and western Gulf of Mexico or allowed to move to newer so-
called frontier areas in the future--decisions for the Administration 
and Congress to address.
    Beyond the question of whether the OCS leasing program should be 
expanded into areas that had been under moratoria, the issue of the use 
of the revenue coming from the program was one on which there was 
considerable although not total commonality between the Commissions but 
one from which a clear action has been recommended by the Joint 
Initiative in a number of fora, including various public statements, 
letters and reports to Congress, implementation report cards, and other 
documents.
    The critical need for additional money dedicated to the management 
and conservation of ocean and coastal resources has been a consistent 
and key principle of the Joint Ocean Commission Initiative from its 
inception. In effect, both Commissions addressed the issue of dedicated 
funding for implementing their recommendations, making the case that 
our oceans, coasts, and Great Lakes are major contributors to the U.S. 
economy, with half the nation's Gross Domestic Product generated in 
coastal watersheds.
    The Joint Initiative strongly supports the establishment of an 
Ocean Trust Fund or Investment Fund in the U.S. Treasury, using a 
significant portion of the resource rents generated by the use of 
publicly-owned resources by private commercial activities carried out 
in federal waters on the OCS. This Fund should be dedicated to 
providing financial support for national, regional, and coastal state 
and local programs related to understanding and managing our oceans, 
coasts, and Great Lakes.
    The monies for the Fund are readily available from existing 
offshore activity. Currently, virtually all federal revenues being 
generated from activities on the OCS are from oil and gas activities--
averaging some $5-7 billion annually in recent years but as much as $18 
billion in Fiscal Year 2008. Additionally, it is clear that converging 
economic, technological, demographic, and environmental factors make 
our oceans an attractive and challenging place for new and emerging 
enterprises. Marine aquaculture, bioprospecting, and a broad range of 
non-conventional offshore energy activities (e.g., wind, tidal, and 
wave power generation projects) are on the horizon and can and should 
generate federal revenues from the use of space on and resources of the 
OCS. The Joint Initiative believes that a significant portion of all 
such revenues coming from our oceans should be reinvested in our oceans 
and their management. Just as one must make an ongoing investment in 
the operation and maintenance of physical capital for it to remain 
productive, one must do the same with respect to natural capital. The 
Ocean Trust or Investment Fund and the conservation, management, and 
research activities it would support should be viewed as the operation 
and maintenance fund that supports the natural capital of the oceans, 
which generates these revenues in the first place.
    The establishment of such a Fund would clearly demonstrate the 
Administration and Congress' commitment to our ocean and coastal 
resources. It would support both federal and state ocean related 
programs and greatly enhance our capacity for managing competing 
economic and environmental priorities along our oceans and coasts, 
strengthen our understanding of the oceans role in climate change, and 
clearly demonstrate a national commitment to restoring the health of 
one of our nation's greatest natural resources, our oceans and coasts.
    This Fund would be a complementary scientific, natural resource 
management, and environmental (green) technological supplement to our 
ongoing economic recovery efforts. The critical contribution of our 
oceans, coasts, and Great Lakes to the nation's economy, current 
financial recovery efforts, and the generation of jobs; the various 
crises threatening those water bodies and their continued capacity to 
contribute to our fiscal recovery; and the intractable management 
challenges required to address such crises by the public and private 
sectors of our economy all support the need for a dedicated source of 
revenue from the national government to sustain our ocean resources.
    At the national level, our failure to adequately invest in ocean 
and coastal science and management has severely limited the capacity of 
federal agencies to understand our oceans and coasts. In particular, 
better assessing the role of oceans in climate change continues to be a 
challenge, constraining our capacity to make informed decisions to 
address the impacts of such change on our coastal communities, 
economies, and ecosystems--impacts that include the effects of ocean 
acidification on the marine food web and coral reefs, sea level rise 
and the threats to public and private infrastructure, and the impact of 
rising ocean temperatures on fisheries and ocean health threats. 
Increasing our scientific understanding of the links between ocean 
climate change and improving our management strategies to mitigate and 
adapt to the resulting effects require substantial fiscal resources for 
both federal and state agencies.
    The Joint Initiative recommends that the key institutions in the 
Executive Office of the President with oversight responsibility for 
oceans, science, climate, and energy policy--the strengthened Committee 
on Ocean Policy, the Office of Science and Technology Policy, the 
Council on Environmental Quality, and the Assistant to the President 
for Energy and Climate, be given authority to make recommendations for 
allocating Trust Fund revenues among federal agencies on an annual 
basis. This would help facilitate interagency collaboration and 
coordination by supporting interdisciplinary and integrated programs 
and activities that have difficultly securing funding through the 
individual departmental budgeting process.
    With respect to our coastal states and local communities, it is at 
these levels where much of the day-to-day work of integrated, multiple 
use management in the coastal zones is carried out and it is where, 
among other phenomena, sea level rise will have a significant impact on 
coastal infrastructure and habitats and adaptation strategies will be 
required. Efforts at establishing and enhancing regional ocean 
partnerships is another policy area emphasized by the Joint Initiative 
and one which requires fiscal as well as other support and partners at 
the national level.
    In this time of economic crisis many demands will be made on the 
revenues coming from the OCS, particularly if additional offshore areas 
are open to leasing and development. Nevertheless, we believe that the 
investment of a significant portion of these revenues in our oceans, 
coasts, and Great Lakes is consistent with the President's and 
Congress' priorities to support economic and energy security 
initiatives and enhance natural resource management. This includes 
supporting green technologies such as alternative offshore energy 
production and a commitment to balancing economic and environmental 
impacts of such projects in federal waters.
    In summary, an Ocean Trust or Investment Fund should be established 
in the U.S. Treasury capitalized by a significant portion of the 
resource rents from activities that include offshore oil and gas 
development as well as new and emerging uses such as marine 
aquaculture, bioprospecting, wind farms and other alternative, non-
conventional offshore energy generation technologies.
    The Fund should be allocated (1) to all coastal states, as 
determined by Congress, and used for the conservation and sustainable 
development of renewable coastal resources and the management of their 
coastal zones including the development of new methods of addressing 
adaptation to climate change and (2) to the federal government, 
allocated among agencies as determined by the primary ocean policy 
entities in the Executive Office of the President, to begin to reverse 
the serious gap in scientific research and integrated planning and 
management, and other national responsibilities to address pressures on 
our oceans, coasts, and Great Lakes.
    The activities and programs supported by the Fund, among the 
coastal states and federal ocean agencies, must be consistent with any 
national ocean policy established by executive order or legislation. 
Finally, none of the proceeds provided through the Fund should replace 
regular appropriations nor should any of the programs currently 
receiving OCS oil and gas revenues be adversely affected by this 
additional allocation.
    Mr. Chairman, Madam Chairwoman: The Joint Ocean Commission 
Initiative stands ready to work with your subcommittees on a broad 
range of ocean legislation including a new policy to protect the health 
of our oceans, ocean governance efforts, and a balanced and 
comprehensive approach to the development of an offshore regime for the 
management of conventional and renewable sources of energy including 
the critically important establishment of an Ocean Trust or Investment 
Fund.
    Thank you very much for the opportunity to appear before you this 
morning and I would be happy to try to answer any questions you may 
have.
    [NOTE: The report entitled ``Changing Oceans, Changing World: Ocean 
Policy Priorities for a New Administration and Congress: 
Recommendations from the Joint Ocean Commission Initiative'' has been 
retained in the Committee's official files.]
                                 ______
                                 
    Ms. Bordallo. Thank you, Dr. Kitsos, for your testimony, 
and for the many years of service, both on Capitol Hill and in 
the Administration, working on marine conservation and energy 
development issues. And I also am very interested in hearing 
about your reorganization suggestions.
    Finally, our final witness this morning is Mr. Diamond. 
Welcome, and please begin.

   STATEMENT OF ROBBIE DIAMOND, PRESIDENT AND CEO, SECURING 
                    AMERICA'S FUTURE ENERGY

    Mr. Diamond. Thank you, Madame Chairwoman, Mr. Chairman, 
and members of the committee. I would like to thank you for 
giving me this opportunity to speak to you regarding one of the 
greatest challenges facing our country today: providing secure, 
sustainable, and affordable energy to power the American 
economy.
    As you know, I came before you, I come before you today as 
the President of Security America's Future Energy, or SAFE. 
SAFE was founded in 2004 to deliver an urgent call to action. 
Our nation's energy security is at risk, and leadership, 
ingenuity, and commitment are required to protect current and 
future generations.
    In December 2006, SAFE's Energy Security Leadership 
Council, a nonpartisan group of business executives, retired 
senior military officers, led by Frederick W. Smith, Chairman, 
President, CEO of FedEx, and Gen. P.X. Kelley, 28th Commandant 
of the U.S. Marine Corps, released its recommendations to the 
Nation on reducing U.S. oil dependence. A set of policies 
designed to reduce our nation's energy vulnerability.
    A year later Congress passed, and President Bush signed 
into law, an energy bill largely mirroring many of our 
recommendations, principally reforming and strengthening fuel 
economy standards. That was only a first step. There is much 
more to do.
    The American economy continues to operate at risk. Today 97 
percent of our transportation energy needs are met by 
petroleum, with no readily available substitutes.
    In September, SAFE released a comprehensive new plan that 
presents a long-term vision for the dramatic transformation of 
our energy system. It is called a National Strategy for Energy 
Security, which establishes a goal of electrification of the 
short-haul transportation system in the United States, and 
provides a multifaceted set of proposals to help achieve that 
long-term goal.
    Electrification of transportation would allow cars and 
light trucks to run on energy produced by a diverse set of 
resources: nuclear, natural gas, coal, wind, solar, geothermal, 
and hydroelectric. The supply of each of these fuels is more 
secure, and the price is less volatile than oil. In the 
process, electrification would shatter the status of oil as the 
sole fuel for the U.S. ground transportation fleet.
    In short, electrification is the best path to fuel 
diversity that is indispensable to addressing the economic and 
national security risks created by our oil dependence.
    It is also crucial that we take important steps to 
safeguard our economy and national security, while we 
transition to an electrified transportation system. Increasing 
domestic production of oil and natural gas is an important 
component of this process. Petroleum and petroleum products 
represented more than $380 billion of our total $677 billion 
trade deficit in 2008.
    In other words, our addiction to oil accounted for more 
than 56 percent of our entire national trade deficit. This is 
an unprecedented and unsustainable transfer of wealth to other 
nations.
    While it is often noted that the United States holds just 3 
percent of the world's crude oil reserves, this figure only 
tells half the story. In fact, the U.S. possesses substantial 
reserves of oil that have yet to be exploited. Current 
undiscovered, technically recoverable reserves are at least 100 
billion barrels, according to numerous U.S. Government reports.
    According to the Minerals Management Service, the offshore 
oil and gas industry produced 10.2 billion barrels of oil 
between 1985 and 2007, with a spill rate of just .001 percent.
    During the turbulent 2005 Atlantic hurricane season, when 
Hurricanes Katrina and Rita tore through the Gulf of Mexico, 
approximately 75 percent of the 4,000 Federal OCS oil and gas 
facilities in the Gulf of Mexico were subjected to 175-mile-
per-hour winds and other hurricane conditions. Despite serious 
damage to 168 platforms, 55 rigs, and more than 560 pipeline 
segments; however, the U.S. Coast Guard and MMS reported what 
they called no major oil spills.
    Now that Congress has allowed the OCS moratoria to expire, 
it is time to put in place a rational offshore energy 
development program that leverages advances in technology and 
renewables to produce the most cost-effective oil supplies, 
while safeguarding our economy.
    There have been remarkable advances in offshore and gas 
production technology in recent decades. These advances should 
help reframe our debate about the safety of offshore 
development.
    Subsea wellheads, long-distance tiebacks, seafloor 
separation units allow for a minimum surface presence 
throughout the life cycle of a project, and also provides more 
flexibility to site infrastructure.
    We can look across the world to see examples of nations 
using innovative technologies and processes to safely produce 
oil and natural gas. Norway, for example, is currently the 
third largest exporter of natural gas, and the seventh-largest 
petroleum exporter, and is widely recognized as an 
environmentally progressive nation.
    Norway has a very collegial approach to petroleum 
regulation. Generally the government and industry consult on 
establishing long-term targets for development, and they work 
together to achieve those goals in a way that fits within 
Norway's national social framework.
    In practice, this means that the government and industry 
consult on establishing desired outcomes, not just for resource 
development and output, but also for environmental impact, 
technological standards, and performance metrics.
    Other nations are using new technologies to produce safely. 
Total Pazflor's deepwater project off the shore of Angola, for 
example, is utilizing a single floating processing storage and 
offloading unit to manage an undersea network of 109 miles of 
pipeline, and 51 miles of umbilicals, expected to produce 
220,000 barrels of oil per day. This is seven times the size of 
Paris, with one little rig.
    On Russia's Sakhalin Island, Exxon-Mobil has drilled seven 
miles horizontally under the seabed to access resources, 
without puncturing the seabed, which will minimize any chance 
of a spill.
    This technique has also been used by the United Kingdom to 
develop Pool Harbor, an ecologically sensitive and 
archaeologically important area, from a disguised onshore 
drilling pad.
    So we have to think about our areas differently. The 
Atlantic, the Pacific, the Gulf of Mexico, and Alaska. I would 
also say we should consider different types of areas: areas 
that already have infrastructure, areas that require geological 
surveying prior to any licensing, and sensitive areas that can 
maybe mimic some of these techniques and processes in other 
countries.
    So let me just be clear. We cannot drill our way to energy 
security. Ultimately, the best way to secure our future is by 
transitioning to an economy, and specifically to a 
transportation system, that is no longer dependent on 
petroleum. But that cannot happen overnight. And we must take 
every step to protect our economy and our national security in 
the interim.
    Increased domestic production of oil and natural gas is not 
the only answer, but is a crucial part of the solution. And we 
shouldn't, we ignore it at our own risk.
    Thank you very much.
    [The prepared statement of Mr. Diamond follows:]

            Statement of Robbie Diamond, President and CEO, 
                Securing America's Future Energy (SAFE)

    Good morning, Chairman Costa, Chairwoman Bordallo, Congressman 
Lamborn, Congressman Brown, and members of the Committee. I would like 
to thank you for giving me this opportunity to speak to you regarding 
one of the great challenges facing our country today: providing secure, 
sustainable and affordable energy to power the American economy.
    As you know, I come before you today as the President of Securing 
America's Future Energy (SAFE). SAFE is action-oriented, non-
ideological, and focused on results. We are committed to advocating for 
an effective package of energy policy reforms, believing that the path 
forward will be defined by a combination of solutions that address both 
the supply and demand sides of the energy equation.
    SAFE's central message can be summed up as follows: there is no 
silver bullet for addressing America's formidable energy challenges. 
Even the most promising policy responses entail difficult trade-offs, 
and improving U.S. energy security will require a massive disruption of 
the status quo in many respects. Too often in Washington, however, 
meaningful changes in important and longstanding policies are 
obstructed by parochialism, influential industries, and ideological 
interest groups that see success in the maintenance of the status quo.
    To be effective in this environment, SAFE has enlisted the vocal 
support of a group of prominent business leaders and retired senior 
military officers known as the Energy Security Leadership Council 
(Council). The Council is co-Chaired by Frederick W. Smith, Chairman, 
President, and CEO of FedEx Corporation, and General P.X. Kelley 
(Ret.), 28th Commandant of the United States Marine Corps. The Council 
represents a substantial effort to support comprehensive, long-term 
policies to reduce U.S. oil dependence and improve energy security. Its 
members have worked aggressively to build bipartisan support, and their 
track record speaks for itself.
    In December 2006, the Council released a report entitled 
Recommendation/s to the Nation on Reducing U.S. Oil Dependence. The 
report laid out a comprehensive blueprint for energy security, 
including: demand reduction through reformed and increased fuel-economy 
standards; expanded production of alternatives; and increased domestic 
production of oil and natural gas. The Council collaborated with 
Senators Byron Dorgan (D-ND) and Larry Craig (R-ID) to design 
legislation incorporating the principal elements of the 
Recommendations. This resulted in the ``Security and Fuel Efficiency 
Energy Act of 2007 (SAFE Energy Act).''
    In December 2007, Congress passed and President Bush signed into 
law an energy bill that honored the Recommendations by (1) dramatically 
reforming and strengthening fuel-economy standards and (2) mandating a 
Renewable Fuel Standard that will displace significant quantities of 
gasoline using advanced biofuels such as cellulosic ethanol.
    That was a significant accomplishment, but was only a first step. 
There is much more to do. The reality is this: our nation's dependence 
on oil--much of it imported and the majority used in our transportation 
sector--still represents a grave threat to our economic and national 
security. Now that we are, as a nation, pointed in the correct 
direction, it is time to help facilitate the transformation to the next 
generation of transportation technology that is as inevitable as it is 
necessary.

                                 * * *

    SAFE was founded in 2004 to deliver an urgent call to action: the 
nation's energy security is at risk, and leadership, ingenuity, and 
commitment are required to protect current and future generations. In 
the five years that have passed since then, Americans have been 
reminded of the very real consequences of oil dependence and the 
threats to this nation's economic and national security. If we continue 
down the current path, economic weakness and decay at home will 
continue to threaten American power and influence abroad.
    Recent events provide a useful benchmark for gauging both the 
vulnerability of our transportation system and the consequences of an 
actual energy crisis. Between January 2003 and July 2008, benchmark 
crude oil prices increased nearly five-fold, from about $30 per barrel 
to almost $150 per barrel. The run-up in prices was made worse by 
significant short-term price volatility. Between May 2 and July 3, 
2008, oil prices spiked by $30 per barrel--an increase of 25 percent.
    Indeed, while we are all aware of the sharp financial burden on 
U.S. households that face resets in their adjustable rate mortgages--a 
legitimate and significant concern--the increases in energy costs have 
been on the same, or even a greater, order of magnitude.
    A typical subprime borrower with a poor credit history who bought a 
$200,000 house in 2006 with a 2 year/28 year ARM with a 4 percent 
teaser interest rate for the first two years would have seen monthly 
mortgage payments increase from about $950 a month before the reset to 
about $1,330 after the reset--an increase of about $4,500 a year. 
Meanwhile, the median household in America saw its household energy 
costs increase by roughly $1,600 a year during the same two-year 
period. But this type of increase in energy costs affected all U.S. 
households--not just the one household in 20 that held a subprime 
mortgage.
    All of these developments stemming from higher oil prices caused a 
noticeable slowing of economic growth. The U.S. economy lost more than 
700,000 jobs between December 2007 and the beginning of September 2008, 
and the unemployment rate increased from 4.5 percent to 6.1 percent--
all before the financial crisis truly hit later in September. In fact, 
as early as last August, many economists believed the U.S. economy was 
already on the verge of recession, largely driven by sharply rising and 
volatile oil prices. This put banks and Wall Street firms in a weakened 
financial state, with sharply eroded profit positions, even before the 
credit situation reached its crisis point.
    Despite these well-known dangers, the American economy continued to 
operate at risk, with almost no substitutes for petroleum products and 
very few alternatives to driving. Today, 97 percent of our 
transportation energy needs are met by petroleum, and the 
transportation sector accounts for 70 percent of U.S. oil consumption.
    Our mistakes have been costly. Sharply higher oil prices had a 
devastating effect on household, business, and public sector budgets, 
and effectively functioned as a tax on the economy. One recent estimate 
by researchers at the Oak Ridge National Laboratory placed the combined 
cost of foregone economic growth and economic dislocation at nearly 
$300 billion in 2008. Rising fuel prices also significantly weakened 
U.S. automakers, whose relatively inefficient but high-margin large 
vehicles were virtually unsellable for a period of several months.
    Finally, the U.S. exported hundreds of billions of dollars to pay 
for imported oil. Based on initial estimates, the U.S. trade deficit in 
petroleum products reached an all-time high of $383 billion in 2008--56 
percent of the total deficit in goods and services and more than the 
combined cost of the wars in Iraq and Afghanistan. This massive 
financial burden accelerated the deterioration of the American balance 
of payments and contributed to a weaker U.S. dollar.
    Today, oil prices are near the bottom of a record slide. One 
hundred and fifty dollar oil and U.S. gasoline prices over $4.00 per 
gallon led to demand destruction, which was reinforced by the financial 
and economic crises and the resulting recession in which we today find 
ourselves. What is absolutely crucial to remember, however, and what 
history has taught us time and again, is that these economic conditions 
are temporary. As the economy recovers, and drivers return to the 
roads, our dependence will once again put us at the mercy of rising oil 
and gas prices--particularly if the existing vehicle fleet is 
fundamentally the same as it is today.
    Despite some initial signs that consumer behavior had changed over 
the summer of 2008, this country will most likely return to its 
historical oil consumption pattern with prices back at a more palatable 
level. Indeed, anecdotal evidence supports that assertion. New vehicle 
sales once again shifted in favor of SUVs in December of 2008--for the 
first time since February of 2008. On New Year's Day, the Financial 
Times reported that U.S. sales of hybrid vehicles were down 53 percent 
in November compared to one year ago, and the decline steepened over 
the following months.
    To be blunt, we can no longer be slaves to the boom and bust cycle 
of oil prices. Mr. Chairman, members of the Committee: what is required 
here is a dramatic transformation, and what that transformation 
requires is leadership from Washington. The dynamism, ingenuity, and 
entrepreneurial spirit of the American economy can take us wherever we 
want to go, but government has to set the priorities.

                                 * * *

    In September, SAFE and the Council released a comprehensive new 
plan that presents a long-term vision for the dramatic transformation 
that our energy system requires. A National Strategy for Energy 
Security offers a pathway toward a transportation system that draws on 
a diverse range of fuel sources; an electrical grid that is flexible, 
clean and robust; reduced import dependence through expanded domestic 
energy production; and an American research and development apparatus 
that sets the standard for the rest of the world. The plan will reduce 
the oil intensity of the U.S. economy, secure American manufacturing 
jobs, reduce the U.S. trade deficit, enhance the resiliency of the 
overall economy, and reinforce our foreign policy priorities.
    The National Strategy establishes as a goal the electrification of 
the short-haul transportation system in the United States and provides 
a multifaceted set of proposals to help achieve that long-term goal. 
America's cars and SUVs consumed approximately 8 million barrels of oil 
per day in 2008--about 40 percent of the U.S. total. Aggressively 
transitioning this segment of the vehicle fleet to electrification has 
the potential to dramatically reduce U.S. oil consumption and 
fundamentally alter our energy profile. But that will require our 
national political leaders to embrace electrification not as a discrete 
and narrow initiative, but rather as a dominant policy theme to address 
our dependence on oil. And it will require a comprehensive, well-
integrated approach.
    Deteriorating U.S. energy security is largely due to the nearly 
complete absence of transportation fuel diversity. Not only are ever-
greater amounts of oil required to fuel the U.S. transportation system, 
which is almost entirely dependent on oil, but the world oil market 
increasingly relies on supplies from hostile and/or unstable foreign 
producers. Electrification of transportation would allow cars and light 
trucks to run on energy produced by a diverse set of sources--nuclear, 
natural gas, coal, wind, solar, geothermal and hydroelectric. The 
supply of each of these fuels is secure, and the price of each is less 
volatile than oil. In the process, electrification would shatter the 
status of oil as the sole fuel of the U.S. ground transportation fleet. 
In short, electrification is the best path to the fuel diversity that 
is indispensable to addressing the economic and national security risks 
created by oil dependence.
    Central to the success of such an approach will be the manner in 
which we, as a nation, manage the consequences of oil dependence while 
we transition to electrification. The upgrades in infrastructure and 
technology that are required are on the order of trillion dollar 
investments. Our ability to finance this decades-long commitment will 
be directly related to our economic well-being and national security. 
Therefore, what SAFE and the Council have put forward is not simply a 
laundry list of energy policy items. It is, instead, a strategy for 
mitigating oil dependence through practical measures in the short- and 
medium-term while we simultaneously invest in a post-oil transportation 
system for the long-term.
    Increasing the domestic production of oil and natural gas is among 
the most effective near-term steps for improving American energy 
security. A high trade deficit--which has recently been directly fueled 
by petroleum imports--weakens the U.S. dollar and can act as a drag on 
total employment. Countries that run long-term deficits also tend to 
save less and borrow more. By moving forward with an expanded range of 
production areas on the Outer Continental Shelf (OCS), the U.S. can 
reduce its economic exposure to future prices spikes. Of course, 
ongoing improvements in efficiency and fuel diversification are 
critical as well. But to the extent that we will need some oil for the 
next several decades, there is a powerful case for producing more of it 
at home.
    To be sure, the U.S. cannot solve its energy security dilemma 
through enhanced domestic oil production alone. Existing economically 
recoverable reserves are not comparable to projected demand, and U.S. 
oil production will not likely impact international energy prices in 
any substantial way in the short-term. However, by responsibly 
developing our own resources, we can reduce the impact of global oil 
prices on the current account balance and the national economy. We can 
also keep more currency at home, where it can be invested in productive 
domestic industries.

                                 * * *

    While it is often noted that the United States holds just three 
percent of the world's proved oil reserves, this figure incompletely 
represents our production potential. In fact, the U.S. possesses 
substantial reserves of oil that have yet to be exploited. Current 
undiscovered technically recoverable reserves are at least 100 billion 
barrels, according to numerous U.S. government reports. Just as the 
U.S. possesses vastly greater natural gas reserves than conveyed by 
proved reserves data, we have access to a large quantity of oil 
resources that currently sit undeveloped.
    In some cases, the constraints on U.S. oil and gas development are 
economic and technical. In the Deepwater Gulf of Mexico, for example, 
projects take years to develop and rely on a global infrastructure 
chain that was overburdened during the run-up in oil prices that began 
in 2003. In other cases, however, the government has constrained the 
oil and gas industry's access to reserves on Federal lands. In 
particular, the ability of the industry to access high-potential areas 
of the OCS has, until recently, been restricted by long-standing 
congressional moratoria and presidential withdrawals. Proponents of 
these restrictions historically justified them on environmental 
grounds, but the most accurate and up-to-date data suggest that this 
position is no longer accurate.
    According to the Minerals Management Service (MMS), the offshore 
oil and gas industry produced 10.2 billion barrels of oil between 1985 
and 2007 with a spill rate of just .001 percent. In recent years, as 
standards and technology have improved, the rate of incidents has 
steadily declined. A recent report by the Congressional Research 
Service found that the annual number of oil spills in U.S. coastal 
waters declined by 50 percent from 1995 to 2004. In fact, nearly two-
thirds of the oil that enters the North American coastal waters each 
year comes from natural seeps, with only 5 percent coming from oil 
extraction and transportation.
    During the turbulent 2005 Atlantic hurricane season, when 
Hurricanes Katrina and Rita tore through the Gulf of Mexico, 
approximately 75 percent of the 4,000 federal OCS oil and gas 
facilities in the Gulf of Mexico were subjected to 175 mile-per-hour 
winds and other hurricane conditions. Despite serious damage to 168 
platforms, 55 rigs, and more than 560 pipeline segments, the U.S. Coast 
Guard and MMS reported no ``major oil spills.'' Total OCS petroleum 
spillage from the two storms has been estimated at 14,676 barrels--
about the size of a single Olympic swimming pool.
    Now that Congress has allowed the OCS moratoria to expire, it is 
time to put in place a rational offshore energy development program 
that leverages advances in technology to produce the most cost-
effective oil supplies while safeguarding the environment. There have 
been remarkable advances in offshore oil and gas production technology 
in recent decades, and these advances should help to reframe the debate 
about the safety of offshore development. Subsea well heads, long 
distance tie-backs, and sea-floor separation units allow for a minimum 
surface presence throughout the life-cycle of a project and also 
provide more flexibility to site infrastructure.
    Today, a single platform can produce oil and/or natural gas from a 
number of wells over substantial distances. A temporary surface 
presence is required for installation and maintenance, but current 
technologies offer the possibility of oil and gas production without 
the burden of numerous surface-level platforms. Consider the 
development plan recently announced by Total for its Pazflor deepwater 
project offshore Angola.
    According to the Journal of Petroleum Technology, ``the total 
subsea production system, linked by a network of 109 miles of pipelines 
and 51 miles of umbilicals, will be spread over a vast expanse of 232 
square miles--some seven times larger than the city of Paris.'' 
Incredibly, a single floating processing, storage, and offloading 
(FPSO) unit will manage this system, which is expected to produce 
220,000 barrels of oil per day. Also of note is that the size of the 
surface facility will be minimized by nature of the fact that Pazflor 
will feature cutting edge subsea separation units. These units will 
remove produced water and natural gas from oil on the sea floor, and 
then inject the produced water back into the reservoir.
    Projects like this and others around the world are demonstrating 
that existing and emerging technologies can be leveraged in order to 
access significant resource volumes while maintaining a minimal 
environmental footprint. For fields close to the shore, for example, 
extended-reach drilling allows many different deposits to be drilled 
from a single onshore pad by drilling wells horizontally under the 
seabed. The longest such wells--over seven miles long--have been 
drilled by ExxonMobil on Russia's Sakhalin Island. Because the drilling 
does not puncture the seabed, it dramatically reduces the already 
exceptionally low possibility of oil spills. This technique has also 
been used in the United Kingdom to develop Poole Harbor--an 
ecologically sensitive and archeologically important area--from a 
disguised onshore drilling pad.

                                 * * *

    By maintaining a strong record on spills and developing improved 
technologies to minimize its environmental footprint, the offshore oil 
and gas industry has taken important steps toward earning public 
confidence. However, there are likely additional political and 
institutional challenges that remain to be addressed before access to 
undeveloped resources proceeds at an ambitious pace.
    With this in mind, SAFE has recently examined the energy production 
policies of other developed nations around the world. In particular, 
the Norwegian model stands out as highly successful in balancing energy 
production with sustainability. Norway is currently the world's third 
largest exporter of natural gas and seventh largest petroleum exporter. 
Oil production was 2.5 mbd in 2007 and exports were 2.3 mbd. Gas 
production in 2007 was 8.7 bcf/d, with exports standing at 8.3 bcf/d. 
At the same time, Norway is often recognized as an environmentally 
progressive nation.
    In 1991, Norway was among the first countries in the world to enact 
a carbon tax. Initially a pure tax, since Norway integrated its policy 
with the European Union's Emissions Trading Scheme (ETS) in 2006, half 
of the cost today comes from the fee for a required ETS permit. Because 
of these factors, the average emissions-per-barrel of oil produced in 
Norway is 7.1 kilograms. The EU average is 10.1 kg. The average in 
North America is 24.1 kg. As a company, StatoilHydro emits only 37 
percent of the global average CO<INF>2</INF> emissions-per-barrel of 
oil equivalent produced.
    Most of Norway's oil and gas resources are located offshore on the 
Norwegian Continental Shelf (NCS). Increasingly, commercially viable 
resources are being discovered above the Arctic Circle in areas with 
seasonal sea ice and sub-freezing temperatures. Coupled with strict 
governmental regulations on emissions and other discharges, operational 
complexity has forced companies like StatoilHydro to develop effective 
technologies for accessing new resources.
    Norway's StatoilHydro is among the international oil companies that 
generally operate at the frontier of advanced offshore operations. At 
its Snohvit field in the Barents Sea, subsea structures have been tied 
to onshore facilities nearly 100 miles away. The project utilizes no 
surface-level structures offshore and separates and sequesters 
CO<INF>2</INF> from produced natural gas.
    A key reason the Norwegian process works so well is that Norway has 
a very collegial approach to petroleum regulation. Generally, the 
government and industry consult on establishing long-term targets for 
development, and they work together to achieve those goals in a way 
that fits within the Norwegian national/social framework. In practice, 
this means that government and industry consult on establishing desired 
outcomes not just for resource development/output, but also for 
environmental impact, technological standards, and performance metrics.
    In the U.S., such an inclusive approach might mean that states 
would share the benefits from development. For environmental groups, a 
stake in the process could mean an opportunity to help set performance 
standards in environmentally sensitive areas. Perhaps this could be 
done through a limited pilot program that aims to take a consultative 
approach to develop a bounded area with participation by a limited 
number of companies. The companies and agencies involved would have two 
goals: to develop the area and to refine the consultative methodology. 
In these limited areas, perhaps technology and environmental footprint 
could supplant monetary value as the metrics by which successful bids 
are identified.
    Of course, there are real differences--cultural, political, and 
economic--between Norway and the United States. There are a relatively 
small number of operators in the Norwegian oil industry, and the 
government owns a 66.86 percent share of StatoilHydro--the most 
dominant player in the nation, accounting for 40 percent of total 
operatorships on the NCS. The size of the Norwegian economy makes the 
role of petroleum exports in social welfare crucial. Oil and gas 
production account for 48 percent of national export revenue and 24 
percent of total GDP. Seventy-six percent of the revenue from NCS oil 
production accrues to the government. This stream of funding has 
allowed Norway to maintain the world's second largest sovereign wealth 
fund, the Norway Government Pension Fund. The Fund, valued at more than 
$370 billion, recently allowed the government to finance an ambitious 
economic recovery package, estimated at 2.3 percent of GDP.
    To be sure, state revenues are high because the petroleum industry 
tax structure is extremely aggressive. The Norwegian corporate income 
tax rate is currently 28 percent, less than the United States. However, 
Norwegian companies also pay a Special Petroleum Tax on profits derived 
from production and pipeline transportation on the NCS. The Special 
Petroleum Tax is currently 50 percent, making the marginal tax rate on 
NCS petroleum income 78 percent. Other levies include a CO<INF>2</INF> 
emissions tax, a nitrous oxide fee, an abandonment fee, and area fees 
incurred after initial exploration.

                                 * * *

    A frequent criticism of planned OCS development in general is that 
new production will take many years to come online and that only 
marginal volumes can be expected from existing resources. Proponents of 
this view conclude that opening new federal areas for development is 
unnecessary. As noted above, SAFE recognizes that the overarching 
objective of any national energy policy must be to reduce U.S. oil 
consumption and therefore oil intensity. However, all solutions--
whether one considers fuel-economy improvements, electrification, or 
advanced biofuels--will take time to implement. The technologies and 
processes for producing oil and gas are well understood and mature in 
their development. As the nation transitions to dramatically reduced 
oil consumption, it is critical that the oil we do use is produced at 
home to the maximum extent feasible.
    It is also important to remember that resource estimates for many 
areas in question are based on data from the 1970s and 1980s. In its 
2006 National Assessment, the Minerals Management Service noted:
        There is much uncertainty in the resource estimates due to a 
        lack of adequate data, especially in those OCS areas which have 
        been unavailable for exploration and development for many 
        years. For example, outside of the active OCS producing areas, 
        significant quantities of oil and gas resources are known to 
        exist in part of the Eastern GOM and the California OCS, but in 
        other areas, less is known about resource potential due to the 
        availability of scarce or older data. In Alaska, there has not 
        been any commercial exploration activity for many of the areas 
        outside the Beaufort and Chukchi Seas for the past two decades.
        Due to subsequent access restrictions, there has been little or 
        no opportunity to follow-up on the initial round(s) of 
        exploration activity in many of these frontier areas. Yet, in 
        the interim, there have been enormous advances in exploration, 
        formation evaluation and exploitation technologies that could 
        be utilized in these frontier areas today. Industry has made 
        huge advancements in the technology of seismic data acquisition 
        and processing, which allows for use of these data to create 
        high resolution images of the subsurface to great depths.
    Advances in technology have allowed for two critical developments 
in oil and gas recovery. First, 3D and 4D seismic have allowed 
geophysical data to be collected in a more precise manner that captures 
a more accurate snapshot of potential resources compared to older 
technologies. Moreover, when contrasted to technology from the 1970s 
and 1980s, the IT revolution has enhanced the speed, accuracy, and 
intricacy with which that data can be analyzed. As this process has 
occurred, MMS estimates of undiscovered technically recoverable 
resources in OCS areas have increased, most notably in the Gulf of 
Mexico where access has not been restricted.
    Secondly, advances in offshore production techniques have allowed 
higher rates of resource recovery from resource plays that are father 
from shore, in deeper water, and in deeper geological formations. In 
short, there is simply no way to fairly assess potential resource 
production from existing data. As noted above, MMS and the 
administration must take the lead in offering leases in new areas, 
which will compel interested parties to contract for new seismic data. 
In contentious areas, MMS should employ alternative strategies, 
including acquiring the data itself.
    Assuming commercial discoveries are made in the Atlantic, Pacific 
or Eastern Gulf planning areas, a logical and fair question is whether 
these resources can be produced in a time frame that will be useful. 
The answer is yes. According to a 2008 MMS report (Deepwater Gulf of 
Mexico 2008: America's Offshore Energy Future), as advanced 
technologies have become the mainstream, and as fuel transportation 
infrastructure has been installed, the timing for first production from 
new leases has decreased dramatically in recent years. Specifically, 
the report notes that ``as industry gains experience in the deepwater 
areas of the Gulf, the time between leasing and production is 
reduced.'' This significant trend suggests that in well known areas 
close to existing infrastructure, such as the Eastern Gulf and some 
areas on the West Coast, first production can be expected by 2014-15.
    To be clear, the long-term goal of any U.S. energy policy should be 
to replace our nation's heavy reliance on petroleum for transportation 
with a more diverse range of domestic energy sources. This can be 
accomplished through widespread electrification of short-haul travel, 
which will deliver energy to light-duty vehicles from a range of 
feedstocks, including wind, solar, hydro, nuclear, natural gas, and 
coal with carbon capture and storage. However, U.S. oil demand will 
continue at near current levels until electric vehicles have 
sufficiently penetrated the overall passenger vehicle fleet, and low-
carbon alternatives have been developed for long-haul travel and air 
transport. In other words, even if one is very bullish about electric 
vehicles and the ability of the U.S. to generate low-carbon electricity 
to power them, the country still needs to come up with adequate oil 
supplies for at least the next 20 years.
    In its January 2009 Draft Proposed Program, the U.S. Minerals 
Management Service (MMS) reported alternative energy and import 
substitution findings from its Market Simulation Model. The report 
notes that ``according to the research supporting the model, oil lost 
from OCS production would be replaced by 88 percent greater imports, 4 
percent increased onshore production, 3 percent switching to gas, and 5 
percent reduced consumption.'' Based on current oil market dynamics, in 
the event that the OCS is not opened, incremental imported oil will 
come from four main sources: Brazil, the Middle East, West Africa, and 
the Canadian oil sands, in order of increasing climate footprint.

                                 * * *

    In addition to the economic and energy security benefits of 
domestic energy production, it is important to acknowledge the 
substantial fiscal benefits. Today, the U.S. federal government 
collects significant royalties from the extraction of oil and gas 
resources in federal waters. In 2008, the Minerals Revenue Management 
Service reported $8.3 billion in offshore royalty receipts plus an 
additional $9.7 billion in lease rents and bonuses associated with 
bids.
    While estimates vary widely depending on assumptions, expanding 
access to the OCS areas currently off-limits should significantly 
increase government revenue from royalties. One recent study, which 
assumed full access to all OCS waters by 2012, estimated cumulative 
increased royalties at $41 billion through 2025. Another study, carried 
out by ICF International, estimated lifecycle government revenue of 
over $300 billion for opening the full OCS.

                                 * * *

    In closing, SAFE and the Council believe that by leveraging 
technology and smart public policy, the U.S. can produce more domestic 
oil and gas in the coming decades in an environmentally sensible 
manner. At the same time, we are acutely aware of the limitations of a 
strict supply-side approach to energy security. We believe that 
increased domestic production must only be viewed as a tactical 
component of a long-term strategy to aggressively move away from our 
reliance on petroleum.
    We cannot continue to react to events as they happen, risking our 
economy every time an insurgent attacks a pipeline or a hurricane 
threatens the Gulf. Continued delay carries unacceptable risks. I 
believe that we are at a unique moment, where the recent run-up and 
collapse of the price of oil, and its consequences for consumers, the 
automakers and the economy, has left Americans thirsty for bold and 
transformative policies to address our addiction to oil. We must take 
advantage of this moment in time and act together while this priority 
remains prominent in our collective consciousness.
    Our challenges are great, but so are our opportunities. It is time 
for America to act.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Diamond, for your 
testimony.
    I will now recognize Members for any questions they may 
wish to ask, alternating between the Majority and the Minority, 
and allowing five minutes for each Member. And we will 
recognize the Members in the order of their arrival.
    I will begin with, I have a question for Dr. Kitsos and 
Secretary Bowles.
    For any revenues that we might be able to get into a 
dedicated ocean trust fund, do you believe that a portion 
should be dedicated to improving the planning and assessment 
process that we have been talking about this morning?
    And in the case of money that might be allocated to coastal 
states, do you think there should be a nexus with coastal 
management and planning as well?
    We will begin with you, Secretary.
    Mr. Bowles. Thanks for the question. Briefly, Madame 
Chairwoman, I say yes to both. I think that what you have in 
NOAA right now is an agency that focuses on fisheries 
management, it focuses on the CZMs and a variety of other 
things, but there is not, in my judgment, enough of a unified 
kind of planning, collaborating with state type of functions. 
So I think that would be a useful thing.
    I certainly think states, the CZMs around the Nation are 
kind of chronically invariably underfunded. So I think having 
some specialized funds that would be for this purpose of 
getting good plans that are consistent with state goals and 
engage the Federal government I think would be very useful, 
indeed.
    Ms. Bordallo. Dr. Kitsos?
    Mr. Kitsos. I would just like to echo what the Secretary 
said. The important point in developing a policy and 
legislation in allocating the money among the states is a 
section that has been called `eligible uses.` And I think that 
in the eligible uses for the allocation of money to each state, 
coastal zone management and planning purposes, adaptation to 
climate change, and a broad range of activities that you 
indicated, Madame Chairwoman, should be eligible, and should be 
funded by these grants. Yes.
    Ms. Bordallo. Thank you. Thank you very much, Doctor. And I 
hope when you mentioned states, that includes the Territories, 
as well.
    Mr. Kitsos. Absolutely. The states are coastal states, 
entities under the CZMA, and they should be deemed that for 
purposes of money.
    Ms. Bordallo. Thank you, thank you. Now, certainly more 
knowledge will be needed in order to cite energy projects with 
the least environmental impact. What kind of info do we need in 
that respect? Secretary?
    Mr. Bowles. A terrific question. I think that, you know, we 
have such a paucity of projects in terms of the offshore wind 
area that we are, you know, just learning. We can import a lot 
of that information from Europe. I think that sharing of the 
information, such as Mr. Diamond suggested, around other states 
is a good one.
    And you know, one other point I would just make, and it is 
sort of somewhat related to your question, is the, as you think 
about the alternative energy development process, MMS has a 
very regimented approach to dealing with offshore, you know, 
drilling. And one of the issues in the rule, in our view from 
Massachusetts, is it wasn't particularly well-suited to the 
needs of developing offshore renewables, in the sense that it 
required a multilayered approach to it that wasn't necessarily 
tailored.
    So I don't know if that gives a perfect answer to your 
question, but a few thoughts. Thank you.
    Ms. Bordallo. Thank you, Mr. Secretary. And now I would 
like to--oh, I have one more question here.
    Professor Eagle, you mentioned that there will be initial 
planning phase in a comprehensive marine planning process? How 
compact are you talking about? Or how is this compact that you 
are talking about? A few months? A few years? Many years? How 
do you respond to these that would argue this kind of planning 
is simply an excuse to delay energy development?
    Mr. Eagle. Thank you, Madame Chairwoman. I am not sure what 
the time requirements would be. One variable would be whether 
the Congress decided to move forward in planning and zoning for 
the entire Outer Continental Shelf, or rather address the issue 
on a region-by-region basis. Those would lead to different 
timeframes.
    I think that, in fairness, that whether you go with an 
upfront planning period, or whether you go on an ad hoc basis, 
there is going to be time involved in processing. And we see, 
it is unlikely that we will ever see a situation where, say, 
lease sales or other types of development activities go forward 
without a public process.
    So the question is really not how can we avoid process, but 
what is the best type and most efficient kind of process. And I 
think that the upfront planning process is that.
    Ms. Bordallo. Thank you, thank you very much.
    And now I recognize the Ranking Member from South Carolina, 
Mr. Brown.
    Mr. Brown. Thank you, Madame Chairwoman. My first question 
would be to Dr. Kitsos.
    Dr. Kitsos, as someone who served on the House Merchant 
Marine and Fisheries Committee, the U.S. Commission on Ocean 
Policy and the Joint Ocean Commission Initiative, you have 
worked on the Federal OCS oil and gas lease program for over 30 
years.
    Would you describe the program as environmentally safe?
    Mr. Kitsos. Mr. Brown, I also worked at MMS for a while, so 
I have some hands-on experience with the program directly. The 
Minerals Management Service runs a very effective and 
environmentally sound offshore oil and gas program.
    I think over the years, certainly since the unpleasantness 
in Santa Barbara in the late sixties, there has been tremendous 
advances in technology and in regulation.
    Is it a perfect system? No. I am not sure that that is ever 
possible. But I do believe that the record of offshore oil and 
gas development in the United States is a sound one. And we 
have heard statistics from Mr. Diamond, and you have quoted in 
your opening statements other data indicating that, in fact, 
the operation is sound and getting better all the time.
    I am a little concerned about some of the aging 
infrastructure in some areas of the OCS which I think need to 
be updated. And there are always risks every time you go in for 
drilling.
    But the real concern I think is onshore. And you change 
ways of life for certain frontier areas that are politically 
difficult to deal with. But on balance, I think it has been a 
very sound program, sir.
    Mr. Brown. Are you talking about onshore, are you talking 
about the refineries?
    Mr. Kitsos. Well, yes, I am talking about the utilization 
of space. I am talking about areas that heretofore have been 
tourist areas, and now suddenly they might be faced with the 
prospect of leasing. There are issues in the Arctic environment 
that needed to be addressed. Areas that have not had oil and 
gas leasing.
    If you set aside the Gulf of Mexico, which has been used to 
this, there are other areas where the very idea of the possible 
industrialization of their coast is one that generates some 
concern.
    When I was working up here, I worked for Congressman Walter 
Jones of North Carolina when he chaired the Merchant Marine 
Committee, the father of the current Congressman. And there 
were proposals to go off North Carolina. It had never been done 
before, and suddenly there emerged a very strong opposition to 
some exploration plans that Exxon and Marathon were offering.
    You just never know where that, the onshore community will 
say we do not want a change, the change in the way we run our 
businesses and the way we conduct our fishing operations, and a 
variety of other commercial activities. Those are some of the 
difficult issues dealing with OCS.
    The offshore matters are important, and oil spills are very 
important. And on this Exxon Valdez anniversary we need to 
recognize that. But I think that you take the whole package, 
and it is a controversial program.
    Mr. Brown. Let me ask you a followup question on that, if I 
might. I noted we have a history in the Gulf of, you know, 
extracting resources from there.
    How does it impact the, well, the ocean population, like 
the fisheries and the shrimp, and the other, other fisheries 
there? Is it a negative impact? Have you seen any change, or--
--
    Mr. Kitsos. The Gulf of Mexico coastal environment, the 
fisheries, commercial and sports fishermen, the marine 
scientific community, the tourist industry, all grew up 50 
years ago with the emergence of the offshore oil and gas 
industry. And there was a certain kind of slow and compatible 
allegiance between these industries, in which they have learned 
to live with each other. And in fact, the fishing community 
will tell you generally that they have thrived with the 
offshore industry, because they have been able to work, to work 
together.
    The coastal economies of the Gulf of Mexico states west of 
Florida are used to this activity, and there is a compatibility 
through various uses that have generated some ability to work 
with each other.
    That is not necessarily what we are seeing in other 
frontier areas, as the moratoria is lifted and discussions 
occur regarding moving elsewhere.
    Mr. Brown. I know the gentleman from California alluded 
that, you know, we are becoming more and more dependent on 
foreign sources. And to the extent that now we have 70 percent 
of our energy is being imported from some other countries.
    We had, I guess, the oil companies in the other day sitting 
at the same table where you are. And the question I posed to 
them are, you know, how are you extracting new energy from 
those countries. Are you extracting it from offshore? And I 
said well, let me see if I can make a distinction, because, so 
we are all on the same planet. If it comes from offshore from 
that country, it is in the same ocean that we deal with every 
day, too. What difference would it make if it was in that 
country or our country? Why would our country's boundaries be 
sacred?
    Mr. Kitsos. Well, our country is now currently open to 
offshore leasing almost everywhere, except certain areas off of 
Florida.
    I think if you look at the global oceans, each country has 
its own set of laws and its own unique economic and political 
constraints.
    I did note that the companies that came to testify before 
you, and that the, I think it was the person from the General 
Accountability Office, indicated that the United States, 
notwithstanding a variety of concerns that you and I have just 
talked about, is still a very friendly environment for oil and 
gas companies. And they like to work here. They like the 
general level of predictability in our regulatory system, and, 
under the Outer Continental Shelf Lands Act.
    There are a variety of political considerations and 
concerns, but those are generally outside the statutory law, 
and are really related to the local communities and to the 
multiple-use problems. But each nation has its own unique kind 
of operations.
    We have not done as good a job, I think, in terms of our 
collection of royalties as perhaps others have. But that is a 
problem that is being worked on.
    Mr. Brown. I think that is something we need to address, 
too. I think it ought to enhance those communities, certainly 
within that environmental region that is impacted.
    Mr. Costa. Excuse me. We need to be mindful of others' time 
here.
    Mr. Brown. Oh, I apologize. I was waiting for the 
Chairwoman to give me a knock.
    [Laughter.]
    Mr. Costa. No, no. You took your chance, and----
    Mr. Brown. I didn't hear you knocking. Thank you, 
gentlemen.
    Mr. Costa. Well, OK. Thank the gentleman from South 
Carolina.
    Mr. Brown. I got carried away.
    Mr. Costa. We will just deduct that off your next round.
    Gentlemen, you have talked, three of you, about the--well, 
first of all, let me just take off on the response on the last 
question, doing any sort of comparative analogy on the sort of 
safety factor for OCS activities in the United States, Dr. 
Kitsos's comparative analogy to other, in Europe and other 
parts of the world.
    How would you compare our safety factor and protection for 
the oceans?
    Mr. Kitsos. I think that our safety, our safety regulations 
are among the best in the world. The technology for offshore 
oil and gas industry, however, is pretty global. The kind of 
technology that they used in the North Sea or off of Africa is 
very similar to the technology used in the United States.
    I think the stringency of MMS regulations and safety 
inspections is pretty sound, and perhaps not quite as well 
enforced in other nations. But I am really speaking off the top 
of my head on that.
    The improvement in the safety record of offshore industry 
in the United States has been steady and linear. That is not to 
say there are not risks, however.
    Mr. Costa. All right. Before my time expires, let me move 
on.
    The three of you indicated about the importance of planning 
and developing an overall comprehensive planning process. 
However, what, I think you didn't--I mean, I can understand 
logically why that would make sense.
    But what are going to be the difficulties? We have multiple 
states. We have multiple jurisdictions. We have the balancing 
act that is always a source of conflict.
    So what is the process to develop this, this planning 
effort from three to 200 miles off the coasts of the United 
States? Who wants to start first?
    Mr. Bowles. Shall I go?
    Mr. Costa. Yes, quickly.
    Mr. Bowles. A couple thoughts. I think we have big data 
gaps, just to be clear about that, about habitat uses, 
conflicts, fisheries, the location of infrastructure. I mean, 
just in our own state waters, we have a remarkable diversity 
of----
    Mr. Costa. Certainly, and around the country.
    Mr. Bowles. Right.
    Mr. Costa. But I mean it would take the Federal government, 
in essence, to bring the states together, and all the multiple 
jurisdictions, would it not?
    Mr. Bowles. I think so. I mean, I think that is part of my 
answer before, is that NOAA doesn't do this for a living. And 
having some----
    Mr. Costa. Well, nobody does it, right?
    Mr. Bowles. Yes. And I think it would be very----
    Mr. Costa. It has to be created.
    Mr. Bowles. I agree. And I think it can be done in a way 
that planning doesn't lead to obstruction. To be clear about 
our process, we have 18 months, and there will be some sites 
and----
    Mr. Costa. Mr. Eagle, do you want to respond? How long do 
you think this should take, this planning process? And who 
should do it?
    Mr. Eagle. Well, as I said before, I am not sure of the 
exact amount of time. It depends whether we took a regional or 
a national approach. But you know, somewhere in the 
neighborhood of a few years.
    One good analogy would be the process that was used to do 
planning and zoning for the Great Barrier Reef in Australia, 
which is an enormous area. In that case, I believe Parliament 
asked the Great Barrier Reef Authority to create a planning, to 
plan and zone the entire reef area. And they returned with a 
plan within two years, which was then approved by the 
Australian Parliament.
    Mr. Costa. Do you think we could do it within two years, if 
the Aussies can do it within two years?
    Mr. Eagle. Perhaps. I don't want to put money on that one.
    Mr. Costa. Dr. Kitsos?
    Mr. Kitsos. The reason I focused much of my oral statement 
on an ocean advisor to the President and strengthening the 
Committee on Ocean Policy----
    Mr. Costa. No, I think that was a good suggestion.
    Mr. Kitsos.--in the Executive Office of the President, is 
that is the institution, in my judgment, that should have 
responsibility for this coordinated----
    Mr. Costa. For putting this process together.
    Mr. Kitsos. To bring all of these agencies together. 
Because only the White House can do that.
    Mr. Costa. Mr. Diamond.
    Mr. Diamond. So I would recommend potentially looking at 
these areas. Areas with infrastructure probably can move 
quicker. There are places without geological surveying, where 
if you want to move like Virginia, that might be a different 
process. But very sensitive areas, off the coast of California, 
for example.
    Maybe we could look at a test project to see, and try to do 
it the way they do it in Norway. I mean, it is a little bit of 
a cat-and-mouse game in the United States, where of course the 
Norwegian oil company is mostly owned by the government, it is 
very collegial. And there is no reason why we couldn't come up 
with, instead of just looking at the amount of money we are 
going to make for the leases, but also look at the 
environmental goals.
    And so create two task forces, one government and one 
community; come up with the way they would like to see the 
project developed; and have the companies then bid based on 
technology, as opposed to bidding based on price.
    Mr. Costa. Is this planning process by a person, advisor, 
science advisor to the President, is the way to proceed with 
this?
    Mr. Diamond. I mean, it certainly----
    Mr. Costa. Just yes or no.
    Mr. Diamond. I think that is probably the way to go.
    Mr. Costa. OK, final question. Professor Eagle, do you 
think the Congressional or Presidential moratorium on offshore 
drilling has been a help or a hindrance in this effort to do 
this planning? It has been lifted now.
    Mr. Eagle. Right. I mean, well, obviously during the 
moratorium there was no effort, or there was no foreseeable 
activity, so there was no planning going on. I think actually 
lifting the moratorium provides a great opportunity to take a 
look at the resources that we have out there, and to conduct a 
rational planning process for using them.
    Mr. Costa. Thank you very much. My time has expired.
    Ms. Bordallo. I thank the gentleman. I would like now to, 
first before we recognize the next Member, would those standing 
in the back--there are a few chairs up here. All right. Please 
feel free to sit on the lower level here, OK?
    All right. And I at this time would like to recognize Mr. 
Gohmert, the gentleman from Texas.
    Mr. Gohmert. Madame Chair, the former Chairman of the 
committee had asked--his time was short. He could be recognized 
at this time, and I don't have a problem doing that.
    Ms. Bordallo. No objection.
    Mr. Gohmert. He is going to bring me a salmon.
    Ms. Bordallo. No objection. I now recognize Mr. Young.
    Mr. Young. He is going to get a White King salmon. Thank 
you, Madame Chairman. And I appreciate the testimony from the 
witnesses, and the future panel, too.
    My big concern is it is the day of the Exxon Valdez 
tragedy--not disaster, tragedy. And I want to stress that, 
because in the aspect of oil in our waters, American waters--
and I know I have talked to a captain that is going to be on 
the next panel--I have figures that show that of petroleum 
transportation, 4 percent contribute to the pollution of our 
waters.
    Drilling, extraction, and delivery other than by tanker is 
1 percent in our waters. Cars, fishing boats, pleasure boats, 
another 32 percent.
    What I am leading up to is we are talking about whether we 
do or whether we don't drill. So the biggest polluter we have 
is Mother Nature itself. Sixty-three percent of the oil that 
goes in our water comes from nature, seeps that go into the 
water. And I haven't seen, I hope we are not thinking about 
capping Mother Nature. I mean, it may be a good stimulus 
package, by the way; it would put a lot of people to work.
    But I would urge that whatever comes out of these hearings, 
whatever we do, we understand the necessity of fossil fuel. The 
necessity of fossil fuel. That is something we have to 
understand.
    Mr. Brown mentioned that we imported this year actually 13 
million barrels of oil a day. We actually import a total amount 
of 4 billion barrels, very near 5 billion barrels from 
overseas. That is $453 billion we send overseas. We can't 
continue to do that.
    And unfortunately, those that oppose drilling or 
exploratory of offshore also oppose drilling and exploratory 
onshore, in every area of the United States. Even where the 
states want to do that.
    And we can't continue to put our heads in the sand, when we 
are a nation of fossil fuels.
    If you think about it for a moment, the new 787. The reason 
it is going to be so efficient and will contribute to climate 
change is the fact it uses, some 50 percent of that plane is 
composites made from fossil fuels. Fertilizers for our crops 
feeding the nations in the world, made from fossil fuels. 
Natural gas and oil.
    Automobiles. You think about everything in that automobile 
now today is made from fossil fuels. The tires, the navigation 
instruments. Most of the, other than the engine, it is all made 
from fossil fuels.
    And so what I am concerned about, Madame Chairman, we go 
through the series of hearings; we have to start thinking about 
this nation for the future of it, including fossil fuels and 
all those other components that will contribute power.
    Your windmills, I hear a lot about wind. Those propellers 
are being made from fossil fuels. And I can go on down, and go 
on and on about the amount of products made from fossil fuels, 
and I won't do it, as my time is running out.
    But keep in mind, parts of the barrel, of the barrel that 
is made of 42 gallons of oil, there is actually, of that 42 
gallons a barrel, 19 gallons are gasoline. There are eight, 
nine gallons of diesel; there are three gallons of jet fuel; 
there is one, two gallons of heating oil. And then 24 percent 
of the barrel, 11 gallons, are the other things that you use 
every day.
    If I was to remove everything in this room that was made by 
fossil fuels, you would all be in pretty sad shape.
    You think about it. I mean, it goes from your eyeglasses to 
medicines. One of the things that always tickles me, the 
Pampers. And I would like to eliminate Pampers. For these young 
ladies who may have a baby in the future, you think about it a 
moment. These glasses, get rid of them. I don't like them, get 
rid of this, too. But I can go on down the line.
    When we finally come together as a Congress and say yes, we 
want to address this power issue, this energy dependency, but 
you are not going to do it unless we consider the fact we must 
have a percentage of fossil fuels that are domestically 
produced. And when that day happens, with all the other added 
to it, we will have a nation that is independent from foreign 
oil. And that is what I seek to do.
    But think about that when you have these hearings. Let us 
not get caught in this trap of Dr. No. Because I will hear 
people say we don't want it in ANWR, we don't want shore-
drilling in Colorado, we don't want any onshore drilling 
anyplace in the United States. And yet you have to have fossil 
fuels, or we cannot exist.
    And I thank the gentleman for allowing me to go ahead. And 
thank you, Madame Chairman, I appreciate it.
    Ms. Bordallo. I thank the gentleman from Alaska, Mr. Young, 
for his insightful comments.
    And now I would like to recognize Mr. Inslee from the State 
of Washington.
    Mr. Inslee. Thank you. The gentleman from Alaska made some 
comments about a little company in my district, Boeing, and the 
Boeing 787.
    A couple things I want to note about that plane. It may be 
burning biofuel some day. It is a possibility. Boeing is 
looking at----
    Mr. Young. That will be a warm day in Alaska.
    Mr. Inslee. We may even grow some of it in Alaska. I don't 
know, that might be possible.
    The point is, looking at the development of biofuels, as 
are quite a number of other companies and entities, including 
the U.S. Air Force, there is another company in my district--
they are actually one of the leaders in my district--called 
Sapphire Energy, which is growing an algae-based biofuel, which 
is chemically, can be chemically indistinguishable from ATSM-
certified gasoline. So we do have some prospects involving the 
nonfossil fuels transportation.
    I want to turn to a discussion of one of those, and that is 
offshore wind. We have an enormous potential that has not been 
explored adequately.
    I want to ask the panel about the permitting situation on 
offshore wind. Just last week the Department of the Interior 
announced a memorandum of understanding with the Mineral 
Management Service regarding how we should move forward in 
permitting this system.
    And the question I have is, for any of the panelists, is 
that adequate, or do we need a statutory fix to some of the 
ambiguity there is in the sighting of offshore wind? Do any of 
you have any thoughts in that regard?
    Mr. Bowles. Thank you, Congressman. Let me comment on a 
couple ways.
    I think it may be too early to say, because we haven't seen 
the final rule, whether or not there is a need for some 
statutory change. I think that Secretary Salazar deserves the 
credit for the enthusiasm with which he is tackling renewables, 
and we are optimistic that the final rule will be something 
that states like ours can work with.
    I think one of the things we are learning in our ocean 
planning process in our state is the need for summary alignment 
from NOAA and some of the other agencies to work closely with 
us, as we go through a deep 18-month data-driven exercise to 
come out the other end. And then have to start at the beginning 
of a Federal review process for something that we just reviewed 
for 18 months doesn't make a lot of sense.
    So driving back kind of coordination together makes sense.
    Offshore wind also needs to be under the Department of 
Energy R and D investment agenda. Right now, you know, their 
estimate from DOE was hundreds of thousands of megawatts of 
potential. But as you go further into deep water, you know, 
those still need to be commercialized. So it needs to be a part 
of the agenda.
    And then finally, this FERC, in terms of the planning of 
what would a transmission spine look like for the Eastern 
Seaboard interconnection, the three different control areas, 
and all the engineering and analysis needs to be done. I think 
that is not on the radar screen, to my mind, for FERC in the 
way that it needs to be.
    So I think there are some things. I am not sure whether it 
needs to be a big statutory change yet.
    Mr. Inslee. Thank you. I want to ask about the Arctic 
specifically now, as far as our offshore drilling. One of the 
results of global warming is the Arctic is disappearing. There 
has been unprecedented melting that really stunned the 
scientific community. We knew it was in long-term decline, but 
the last two or three years have had the spectacular reductions 
in sea ice, summer sea ice.
    That has people salivating at the prospects of opening up 
the Arctic for mineral and oil exploration. And I can 
understand that ambition, but it is a little disturbing to me 
to think that we burn oil that destroys the Arctic; that opens 
up more area for us to drill oil, which means we burn more oil, 
and that melts more of the Arctic, and then we drill more oil. 
It just doesn't sound like a real virtuous cycle that we are 
in.
    Seventy members joined myself and others in writing a 
letter to the Administration urging them to take a 
precautionary approach to drilling in the northern waters as a 
result of that, particularly because of our lack of any 
technology to deal with these spills in these very, very 
challenging climates.
    We know how tough it was in the Exxon Valdez, where we 
still have declining herring stocks there after 20 years. 
Imagine what it would be like up even farther north.
    So I guess I would just ask for any of the panelists to 
comment on the question--should we have an additionally 
precautionary approach in the far north before we allow 
drilling as the Arctic melts?
    Mr. Eagle. I don't have a specific answer to that question. 
But I it ties into an important point that I think is being 
missed, which is, you know, it is a little bit of a red herring 
to talk about the safety of offshore oil as an industry.
    The question is, and this is why planning is so important, 
you know, what is the safest place to do it? That is where you 
would start.
    In other words, if you were going to say, well, nuclear 
energy is safe, that might be true. But the first place you 
would install a nuclear energy facility wouldn't be next to a 
nursery school, right? You might think that's a bad idea, even 
though it's relatively safe.
    And so I think the same process needs to be gone through 
with respect to drilling, and this would apply to the Arctic, 
as well. Let us start with an assessment of where the most 
environmentally sensitive areas are, where the cheapest places 
to drill and the safest places to drill are, and start with 
those places, as opposed to just saying well, the industry is 
safe wherever it is located.
    Mr. Inslee. Yes?
    Mr. Diamond. Congressman, I don't disagree with that. I 
would just note that we should really look at Norway and have a 
serious discussion with Norway on how they do it.
    Norway, as an industry, has a carbon tax. The carbon that 
they produce from their barrel of oil is 7.1 kilograms. The EU 
average is 10 kilograms, and the North American average, which 
of course includes Mexico, is 24 kilograms.
    They are an industry and a group that has a very similar 
climate, our northern climates. And they are able, underwater, 
to do all this, and have absolutely no surface presence at all. 
And the reason that they are so advanced is because of all the 
ice floe.
    And so I don't think it is a question of only the melting 
that matters. I mean, or the Sakhalin project in Russia, 
similar. So I don't think it is like oh, things are melting, 
and so we should do it more up there. I think we should look at 
what is up there today. We should look at other countries and 
what they are doing, and see if there is a technological 
approach based on the environmental standards that we want as a 
country, and the local communities want. And can it be done or 
not.
    Mr. Inslee. Thank you.
    Ms. Bordallo. I thank the gentleman from Washington.
    I would now like to recognize the gentleman from Texas, Mr. 
Gohmert.
    Mr. Gohmert. Thank you, Madame Chair. It was interesting 
hearing about the Arctic melting, because I don't know if 
everybody has gotten the memo, we are supposed to quit saying 
``global warming'' and talk about climate change. That way, if 
we are making a lot of money from contributions from people 
that want us to fight global warming, and it turns out the 
planet is actually cooling, then we can still keep the 
contributions coming in, because now we are going to fight 
climate change and the fact that maybe it is cooling.
    And that instead of, one article I read said maybe we were 
wrong that it is not carbon gases that is holding the heat in; 
maybe the sun is hitting the carbon gases, and it is bouncing 
off. That way you can keep the contributions coming, and we 
will save the planet whether it is cooling or warming, either 
one.
    But with regard to oil spills, you know, it has been 20 
years since that horrible, as my friend from Alaska said, 
tragedy. There are a lot of things, I think, to be very pleased 
about in the succeeding 20 years.
    For one thing, for example, the Hurricane Katrina hit 
platforms off the Louisiana coast at a level 5. It wasn't like 
3 when it hit the shores. We didn't have any oil spills.
    Now, our friend, Ted Danson, that I love from television, 
he had talked about we have to prevent all the killing off of 
the jobs of two million fishermen around the world. But when we 
pressed the issue, it turns out all platforms increase fishing. 
It increases fishing; fish proliferate.
    As we have seen along the Texas coast, as the platforms 
have gone out there, despite what naysayers said for so long 
when I was growing up. Now you want to fish, you are better off 
going near a platform; they make great artificial reefs.
    Also, there was no leakage that came from any of those 
platforms, even though some of them were totaled.
    So in 20 years we haven't had an oil spill. I don't like 
tankers running around full of oil. That is a problem about to 
happen, especially if you have a lot of windmills they might 
collide with out there in the water.
    But there is a pipeline to Alaska. As I understand, it is 
about 70 miles or so from where ANWR would be drilled. So that 
could help prevent further tanker disasters or tragedies.
    Secretary Bowles, you discussed the wind energy, so I take 
it that you are 100 percent in favor of the windmills off Cape 
Cod coast. So I am glad to hear you plug those like that, 
correct? You fully support the Cape Cod windmills, right?
    Mr. Bowles. Gov. Patrick has supported that project, and it 
is in the permitting process in the Commonwealth right now.
    Mr. Gohmert. OK. And you personally do, correct?
    Mr. Bowles. Well, I actually haven't had a personal opinion 
on it, Congressman, because it has been before me as a 
regulatory matter for the environmental review. And I chair the 
siting board that is reviewing its permits.
    Mr. Gohmert. Well, wait a minute. If you are going to come 
up here and take our time testifying about how great windmills 
are, then all you need to tell me is you don't have an opinion 
on having them off your own coast, then I think you answer my 
question.
    Mr. Bowles. Let me just be clear. I said that Gov. 
Patrick----
    Mr. Gohmert. I know, you are speaking for the Governor. I 
asked you a personal question; you didn't have an answer 
personally. You said you didn't have an opinion personally, is 
that correct?
    Mr. Bowles. Well, let me clarify, to say that the matter is 
before me as a regulator. And so it is not appropriate----
    Mr. Gohmert. The question is, do you have an opinion or 
not?
    Mr. Bowles. I don't have a personal opinion----
    Mr. Gohmert. That is all I needed to know. You answered the 
question. Thank you very much.
    Mr. Bowles.--my regulatory job.
    Mr. Gohmert. As I understand it, though, Massachusetts does 
not produce any significant energy at this point. And I am 
sorry, we are limited to five minutes. That is all I get, and 
so I need direct answers.
    Secretary Salazar recently announced that it was a midnight 
leasing by the Bush Administration of shale, in Wyoming, Utah, 
Colorado. And so he suspended them, and then refused to allow 
the leases to go forward. Everybody needs to know that was 
completely disingenuous. We heard in this committee that had 
been a seven-year process that he nailed the last nail in the 
coffin, and prevented us from having oil and gas.
    At some point, we have to get realistic about our needs. I 
met with some Chinese. They said we know what you are doing. 
These people were brilliant. They said, you know, we think long 
term in China, and we realize America would not be so stupid as 
to keep putting your own resources off limits for no reason. We 
know what you are doing. You are going to let everybody else 
use up their resources, and then you will be the only one with 
these resources, and then you will be the true superpower.
    And I had to admit, I wish we had been that far-thinking. 
Actually, we are just cutting off our nose to spite our face, 
apparently.
    But with regard to this zoning issue, I am concerned about 
that. And I see my time is up. But if I could just find, is it 
really a good idea to zone before we really know where all the 
oil and gas is?
    Mr. Eagle. Well, that is a good question. I think that the 
idea would be that part of the planning process would be to 
gather as much existing information as we could.
    In addition, you ought to be very careful to build 
flexibility into the zoning process. In other words, it 
wouldn't be set in stone. And while there is, you do want some 
certainty in there in order to promote investment and 
development, you are going to have some flexibility built in. 
And certainly Congress could always come back and change the 
plan.
    Mr. Gohmert. So you support a comprehensive inventory.
    Mr. Eagle. Correct.
    Mr. Gohmert. OK, thank you.
    Ms. Bordallo. I thank the gentleman from Texas. And now I 
would like to recognize the gentleman from Hawaii, Mr. 
Abercrombie.
    Mr. Abercrombie. Thank you, Madame Chair.
    Mr. Diamond, are you familiar with the bill that Mr. Brown 
and Mr. Costa, I, and others, on a nonpartisan, I want to say 
nonpartisan basis, put together, H.R. 6709 last year on 
offshore development.
    Mr. Diamond. I am aware of your initial bill with 
Peterson----
    Mr. Abercrombie. With Peterson, yes. The variation on that 
that we--in other words, you are familiar. Maybe some of the 
others are, as well.
    Mr. Diamond. Right.
    Mr. Abercrombie. This goes to what some of the others were 
talking about.
    To the degree you are familiar with it, that is the 
vehicle. We are putting another bill together. We cannot wait. 
This is not a partisan issue, we simply cannot wait.
    I have been in discussions with the Consul General of 
Norway. I am very familiar with it, because they want to use 
Hawaii--I shouldn't say they want to use Hawaii. But they see 
Hawaii as a template, as an experimental venue, if you will, 
for so many of these alternative energy transitions.
    We can't get there. And part of the reason that Norway sees 
us that way is because they have been using their carbon-based 
fuel resources to maximum efficiency. Would you agree with 
that?
    Mr. Diamond. Yes. Norway is a country that sees both the 
short term and the long term.
    Mr. Abercrombie. Combining it. And the short-term bridge, 
if you will, to an alternative energy future, their carbon-
based resources, right?
    Mr. Diamond. Absolutely. It supports their largest exports, 
almost 60 percent of their exports.
    Mr. Abercrombie. Now, would you also agree that China is 
now in the process of trying to buy every mineral resource that 
it can in the world, corner it one way or another 
diplomatically, contractually, any other way that it can do it?
    Mr. Diamond. I don't know if I would say every one, but 
certainly they are on the hunt to maximize their ability to get 
resources around the world. Certainly in countries that we 
won't operate in, and they are taking advantage of that.
    Mr. Abercrombie. In Africa?
    Mr. Diamond. Yes.
    Mr. Abercrombie. Yes. While we have a military command, 
they are out there cornering the resources. While we are out 
there trying to figure out how we are supposed to insert 
ourselves militarily in the Niger Delta, and come up with some 
more nation-building or whatever it is that we are doing around 
the world these days, China is in there trying to make sure no 
matter who ends up running the Niger Delta, that they get the 
oil out of it. Is that correct?
    Mr. Diamond. The Niger Delta has some western companies. 
They have focused on Sudan and some of the other countries. I 
mean, in the Niger Delta there are a lot of Shell Oil operates 
and some European companies. So I mean, the U.S. Government 
doesn't produce oil, but some of our western companies----
    Mr. Abercrombie. But that is a foreign oil situation for 
us, then, right?
    Mr. Diamond. Certainly it is one of our biggest--our 
biggest, our second- or third- or fourth-largest producer of 
oil for the United States is in Nigeria.
    Mr. Abercrombie. In Nigeria, which is now experiencing what 
amounts to civil war. So we are dependent on an oil resource in 
which the only way we can apparently secure the oil is to try 
to possibly involve ourselves in another war, over oil, because 
we are not producing it domestically. Right?
    Mr. Diamond. There is no doubt that our, the United States 
is essentially I would say Hessians for free. We protect the 
global oil supply for the entire world, not just for ourselves. 
And it is not good, and our allies need to step up and do the 
same thing.
    Mr. Abercrombie. Good luck.
    Mr. Diamond. And while we are dependent on a vulnerable 
resource from countries that don't like us and unstable places, 
our military will definitely be part of the process.
    Mr. Abercrombie. Yes. So we are investing in the military, 
in military adventurism of one kind or another, with dubious 
prospects; and at the same time then, we are involved in 
endless planning or endless preliminaries, endless prefaces 
with regard to domestic carbon-based resource explanation and 
extraction.
    When we talk about planning, I think what we really need to 
do is get toward what kind of an inventory do we have. Would 
you gentlemen agree that we don't really have a good idea at 
the present time as to what resources exist with regard to 
natural gas and oil possibilities offshore, right now? That we 
need to do, if you will, a crash program? And anybody can 
answer who thinks they might.
    Mr. Diamond. I will just do it quickly. That is absolutely 
true. We haven't done a real inventory in over 30 years in many 
parts of the Outer Continental Shelf. And when they do start 
producing or do a modern-day inventory, they find much more 
than we ever thought was there.
    Mr. Abercrombie. OK. So I think we need to make the 
decision first. I can assure, Madame Chair, I can assure you 
that there is going to be a bill coming forward that is going 
to have equal number of Democrats and Republicans on it, that 
is going to address this question of whether or not we are 
going to have energy independence in this country with respect 
to carbon-based fuel, so we can get to some of these other 
alternative energy things.
    If we don't do it, then we are going to end up as we are 
right now, as I have just indicated, in places like the Niger 
Delta and God knows where else that nobody in the rest of the 
country, and the cable shows and everything else isn't focusing 
on. But they will be. Because we don't have our own resources. 
This is something that has to get beyond these ideological 
constructs that we have developed in here, and these ex 
cathedra pronouncements made.
    For example, about how much oil or natural gas is out there 
in the Outer Continental Shelf, and we don't really know right 
now. And if we are going to make that investment, we have to do 
it.
    I appreciate the time. I appreciate this panel. All of the 
testimony in here is excellent and very helpful to us. Thank 
you.
    Ms. Bordallo. Thank the gentleman from Hawaii, Mr. 
Abercrombie.
    And now I would like to recognize the gentleman from 
Louisiana, Mr. Cassidy.
    Mr. Cassidy. Mr. Abercrombie, I enjoyed your comments. 
Thank you.
    Mr. Bowles, it almost seems like you presupposed--now, let 
us assume for the sake of argument that Mr. Abercrombie is 
right, and maybe we do a reassessment, there is oil and gas off 
the coast of Massachusetts.
    But from your testimony, it almost presupposes that you 
know that there will be damage to the fisheries if you allow 
that exploration. Is that true?
    Mr. Bowles. Well, I think the point of my testimony is that 
we have an economic resource we use in our region that is of 
vital importance, and is ecologically sensitive. And we need a 
particularly high bar if we are going to----
    Mr. Cassidy. Now, I may interrupt, because I gathered that. 
And you are not from Louisiana, and I think we have the most 
productive fisheries in the lower 48. And Mr. Kitsos has also 
pointed out that the fisheries, I think his term was thrived, 
even though there has been oil and gas production in the 
western Gulf of Mexico.
    So it almost seems like your priori assumption is that it 
is going to damage--you have to set the bar high, is not based 
on, it is almost based upon--I hate to use, it sounds too 
strong, but--superstition, as opposed to what the most relevant 
facts are.
    Mr. Bowles. Well, I would say first and foremost, we are 
science-based here in the Commonwealth of Massachusetts. And I 
think the case needs to be made. I would also point out it is a 
big ocean. We have a particular area, George's Bank, that is of 
vital concern to our fishing industry. And so when you look at 
the broad swath of the East Coast, you are not hearing from the 
Commonwealth of Massachusetts, don't look at anything at all. I 
think what you are hearing is, pay particular attention and 
concern to this one small area that we know is economically 
important for competing use.
    Mr. Cassidy. Now--and thank you, by the way. I hope I 
didn't seem rude, I apologize.
    Mr. Eagle, now, the thing that concerns me about a kind of 
process where everybody comes in, because although Mr. Bowles 
speaks that it's science-based, again, the most productive 
fishers in the lower 48, I think everybody will want to say 
that, is off the coast of Louisiana.
    And so it almost seems that the final product will be based 
upon assumptions, some of which are unknown. I am not even sure 
we know our unknowns, to quote somebody else.
    And so that said, I hate to be kind of fatalistic about the 
process, and I think about the Great Barrier Reef with much of 
that oil and gas down there, which seems to elicit a particular 
emotional response.
    Your thoughts on that? I guess my question is, it seems as 
if it is not necessarily science guiding this, as much as it is 
no, we don't want it.
    Mr. Eagle. Right. I think both are true. In other words you 
do want, if you are going to do rational management, you do 
want the best available scientific information of the 
assessment of the resources and so forth, so that you can make 
logical planning decisions.
    At the same time, it is going to be true that the public, 
as owners of the resource, the American people as owners of the 
resource, may, do vary, as to what they want to see done with 
those resources.
    Mr. Cassidy. Now, I will say what Senator Johnson once 
said, no one likes change, even when it is from worse to 
better. And so we had a fellow from Florida who was speaking 
about how he didn't want to have sand on his beach from an 
exploration off the coast of Florida. And I pointed out there 
is ongoing, right now, exploration off the coast of Florida, 
and he said we still don't want it. Even though the best 
scientific evidence was that the production there is not 
polluting his beach.
    So again, going back to it, I am not convinced that Mr. 
Bowles has convinced me that offshore would hurt his fisheries. 
And yet somehow that would obstruct off the coast of 
Massachusetts, or off the coast of Florida. Are you with me? 
How do you override this sort of prejudice, is what I am 
asking?
    Mr. Eagle. Well, I think one way would be certainly you 
want to develop the best information that you can, and 
communicate that to the public. But I still think that certain 
people are going to place a high value on things that are hard 
to value, such as, you know, healthy coral reefs, healthier 
ecosystems.
    Mr. Cassidy. Then I will say that, because there is also a 
presumption that offshore oil and gas exploration hurts coral 
reefs. And yet if you look at the NOAA report, the flower 
gardens between Florida and Texas are among our healthiest 
coral reefs. An area of intense oil and gas exploration, with 
the healthiest coral reefs.
    And then off of Florida, where there is none, apparently, I 
am told they are dying.
    So I just say that because it almost seems like there is a 
prejudice against this process that is not based upon science. 
And almost, this discussion affirms it for me by your 
references. Do you see what I am saying?
    No offense, but the fact that you would quote healthy coral 
reefs as an argument against offshore oil and gas, and yet our 
best scientific evidence is that they co-exist makes me 
uncomfortable with the reference.
    Mr. Eagle. Right. I don't have an opinion on whether oil 
and gas development affects coral reefs; I am not an expert on 
that.
    All I was saying is that certain people, members of the 
public who would have ownership of these resources, might 
desire that a particular area is used for----
    Mr. Cassidy. I see that, and I don't mean to interrupt.
    Mr. Eagle.--fish and wilderness area.
    Mr. Cassidy. Except my yield light is on, and I have one 
more question.
    Mr. Kitsos--yellow means speed up. Mr. Kitsos, do you think 
that when you speak about the offshore oil revenue going to 
maintain the coastline, if in Louisiana we are taking all the 
hits, so to speak, if hits are to be had, it almost seems 
unfair to me that we are sharing it with the rest of the 
coastal states who, for example, blocked this revenue source 
for coastal restoration by continuing to oppose offshore 
drilling.
    Your thoughts on that?
    Mr. Kitsos. Well, you are at the nub of a very difficult 
issue with respect to the sharing of revenues, and how much do 
you tie those revenues into where oil and gas leasing and 
production is. And how much do you share it among all coastal 
states.
    And there is no good answer to that. The Congress will have 
to make the ultimate decision. I have seen that decision made 
before.
    My sense is that all coastal states should receive funds 
from a trust fund as their part of offshore revenues, coming 
from oil and gas and new and emerging uses.
    Now, the question is, what kind of use can the states put 
to that. And in Louisiana's case, in Texas and other states in 
the Gulf, some of that money may very well want to use to 
address the impacts from offshore oil. Other states may have 
other decisions to make, and have other uses for it.
    You could use it, some of it, for OCS-related impacts, and 
some of it for restoration of coastal wetlands, and for a 
variety of other, other things.
    So in the end, if in fact a trust fund is set up, 
Congressman, this committee and other committees will have to 
make that hard choice on the relationship between leasing 
production and the sharing of the revenues among the states. 
And the commissions that I worked for never made a call on that 
one way or another.
    Ms. Bordallo. I thank the gentleman. And I would like to 
now recognize the gentlelady from New Hampshire, the Hon. Carol 
Shea-Porter.
    Ms. Shea-Porter. Thank you very much. I have been listening 
to the conversation here, and I have to say that I had the 
great joy of living in Louisiana, and I find it a beautiful 
state full of wonderful people. But they certainly have 
environmental problems in their petrochemical plants, et 
cetera.
    And the problems are deep, and they are a result of not 
necessarily one thing, but a number of issues. Because it isn't 
simply the drilling for it, it is what we do with the product, 
how we use it.
    So to say that we don't have problems from just, say, the 
actual drilling moment, and then not pay attention to what 
happens with the product when we transport it. We certainly 
know Valdez. If we went there today, I think we would still be 
very, very upset with what we are seeing 20 years later. So 
this impact is deadly, and we need to pay attention to this, so 
I am very glad that we are having this hearing.
    I also know that these oceans cannot just cleanse 
themselves, like we used to believe in the past; and that more 
than half of the world depends on the oceans for their 
essential protein. And I have said before here that if we think 
this is a problem now, imagine what it would be like if we had 
some kind of problem where people couldn't access food. Then we 
would really, really be in trouble as a population around the 
world.
    And I think that asking the question what if is 
responsible, and that we have to. Whether you have four engines 
on an airplane or not, somebody needs to ask what if they 
didn't work. What if everything went wrong. What is the worst 
case scenario. That is our responsibility in Congress, to ask 
that.
    And then how do we balance our need for energy--and I don't 
think anybody here denies the fact that we have to have energy, 
and we have to use oil, simple as that. But also looking 
forward, how do we, how do we look into our future and figure 
out how to reduce our dependence on oil.
    So I have a couple of questions. I heard one of my 
colleagues talk about zoning. And so I wanted to ask you, Mr. 
Eagle, zoning is more than simply just figuring out where the 
oil is, and should be. Otherwise we could be putting drilling 
right downtown Houston or somewhere else that wouldn't make any 
sense at all. And I think all of us here would agree that 
wouldn't make sense.
    But what criteria should we be using when we are figuring 
out zoning? What factors besides is oil there?
    Mr. Eagle. Right. Well, I think, as I said, the initial 
process is an information-gathering and planning process where 
we determine, for example, where we determine, for example, 
where the oil is, what the most environmentally sensitive areas 
are. Things like how currents move, wildlife pathways, other 
resources, and think about issues, renewable siting and things 
like that.
    And then what you would want to use is some sort of 
rational process. We are saying OK, well, let us go ahead and 
say this area is particularly environmentally sensitive; we 
should make sure that is as far away as possible from some of 
these potential impacts--I am not saying certain potential 
impacts, but there are always risks--as far away as possible 
from those activities.
    So it would be some form of rational process, similar to 
what we use in designing and laying cities and towns and so 
forth.
    Now, you notice lots of cities and towns are zoned and 
planned differently, right? They all have a different idea. And 
I think what is unique about this process would be the 
Congressionally led effort to figure out what we all want the 
ocean to look like.
    Ms. Shea-Porter. OK. And what we have to have. And then the 
other question that I had was for, about infrastructure, Mr. 
Bowles. And I wanted to talk about the New England region; I am 
from New Hampshire. And I know how important George's Bank and 
that whole fishing area is, the Gulf of Maine, et cetera.
    And so, can you tell me if, if we did drill there, how long 
would it take to create the infrastructure in order to be able 
to do this? What impact would it have, in your estimation, of 
reducing our dependency? And would the results come quickly 
enough to make a significant difference in the debate?
    Mr. Bowles. Well, a couple things. I am not expert on the 
question of how long it takes to put all this infrastructure in 
place, and I would defer to my colleagues on the panel.
    I would just note for the record a couple things. 
Massachusetts has just sited and approved two floating buoy LNG 
berths off of our coast of Gloucester, near our friends in New 
Hampshire. So there is a lot of infrastructure in the 
mainstream fossil energy area that is being sited and built in 
our state, and I don't want to leave the impression for the 
committee that they are not.
    I think the other point to make about energy prices is we 
commonly say we will drill domestically, and it will reduce 
prices. That is not the case when you have a global market for 
energy. So I think you need to look at it more broadly.
    And the third point I want to make is just that we 
societally express a preference in favor of zero-emissions 
energy. We in New England have done a good job; we are now in 
balance in terms of renewable electricity. We don't have the 
shortage that we had for a number of years.
    And so I would encourage the committee to put a good amount 
of attention on what are those things that are coming in the 
future. But I acknowledge I am not answering your question very 
well, so I would ask one of my colleagues who are more expert 
how long it takes to build these things, to answer you more 
directly.
    Ms. Shea-Porter. Would anybody like to----
    Ms. Bordallo. To the gentlelady, yes, your time is up.
    Ms. Shea-Porter. OK, sorry. I yield back. Thank you.
    Ms. Bordallo. Thank you. At this time I would like to 
introduce the gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. Yes, well done. Appreciate it, thank you. And 
I appreciate the gentlemen for being here this afternoon, I 
really do appreciate it.
    My questions initially here are for Mr. Bowles. So you 
touched on it in this last answer, but do you support the 
construction of new liquefied natural gas facilities? And if 
you can expand upon that, I would appreciate it.
    Mr. Bowles. You know, it is hard to answer that in a 
blanket term. Again, they come before us regulatorily all the 
time.
    We have two new ones that have been built with I think an 
interesting system off of Gloucester. It is a floating buoy 
system, so instead of a built infrastructure, essentially this 
buoy comes up and locks on the bottom of a tanker, which then 
vaporizes the LNG and puts it into a pipeline. And those have 
gone through the process in the last two years in 
Massachusetts, and are off the coast of Gloucester.
    So, and we have got----
    Mr. Chaffetz. Would you site or approve those in the 
future? Or are those just a carryover from----
    Mr. Bowles. We review every project on the merits.
    Mr. Chaffetz. But does any of them, do they have a chance 
of getting through the process? Or is there----
    Mr. Bowles. They are built and operating, and they got 
approved in the space of two years.
    Mr. Chaffetz. But I mean in the future. Would there be an 
opportunity expand that?
    Mr. Bowles. Sure, of course. I mean, our ocean planning 
process is going through the question about looking at 
transmission infrastructure, cables, pipes, and all the rest.
    And what we are trying to do, Congressman, is put that in 
the context of other competing uses. Instead of reacting to 
proposals to build these without an overall plan that says what 
is the best place to put them, given other uses, habitat 
values, and all the rest. And that is really the purpose of our 
planning process.
    Mr. Chaffetz. Jumping a little bit, but still for Mr. 
Bowles. How much oil and lubricants will be discharged annually 
by the Cape Wind project when it is operating?
    Mr. Bowles. That is a terrific question. I do not have a 
numeric answer for you, Congressman.
    I will say that in the environmental review that we 
approved and I approved, moving that process into permitting, 
that I think the number used about automobiles displaced--do 
you remember what the number was? What is that? A hundred and 
seventy-five thousand cars taken off the road, as a rough 
analysis. I don't have an answer for you on the lubricant 
question. I apologize for that.
    Mr. Chaffetz. And a question about the, in its best-case 
scenario, what percentage will wind actually supply? The energy 
supply that you need in Massachusetts, what percentage will 
come from wind? In its best-case scenario.
    Mr. Bowles. Well, Gov. Patrick set a 2020 goal of 2,000 
megawatts of wind for our state, which would be an average 
between about 10 percent and 15 percent, depending on what the 
peak value is. We think a lot of that is going to come from 
offshore.
    And you know, I would say again the point I was making 
before, that we have done very well in New England in terms of 
siting new renewable generation in our state, to the point 
where we now actually have a surplus compared to our state. We 
are notable portfolio standard requirement.
    Mr. Chaffetz. And in siting these, the wind projects, I 
notice you cite a number of different factors that go into 
this. What about aesthetics? Does aesthetics play a key role in 
your decisionmaking process about the siting?
    Mr. Bowles. Aesthetics is really a question for the 
beholder, as I am sure you know.
    Mr. Chaffetz. But what about the regulatory agency? Do you 
believe it has a role in that?
    Mr. Bowles. Well, I mean, I think, you know, interestingly, 
in the legislation creating our ocean plan they use a term 
called ``appropriately scaled.'' And that is left to my office 
to figure out. And that involves things like, and explicitly in 
the statute, proximity to population centers.
    So those ideas are put into the overall criteria that we 
are supposed to be looking at as we pick sites in our state 
ocean plan, as we go through the process. And that is how they 
decide that.
    Mr. Chaffetz. So the view line, the site, the aesthetics 
does or doesn't play a role in your deciding whether or not to 
site something?
    Mr. Bowles. Well, it does play a role in the ocean planning 
process, yes. I mean, in terms of the idea of impacts includes 
those of community preferences, things like that.
    Mr. Chaffetz. OK. Mr. Diamond, do you care to respond to 
this idea and this notion about, you know, is it better to 
build a liquid natural gas, and LNG, and import gas? Or should 
we consider responsible development off the coast as a balance?
    Mr. Diamond. I certainly believe that from a balance of 
payments perspective, one can't argue with the fact that 
producing more of your energy at home will give less money to 
send overseas to purchase it.
    Certainly when it comes to natural gas, I think we have to 
be particularly concerned if there is climate change 
legislation, that the electricity providers turn to natural 
gas. It is going to grow in demand, and, well, there is no 
global market today, but no one knows what happens 20 years 
down the road.
    So I think it is certainly important that we always produce 
what we can domestically, responsibly.
    At the same time, we have to end our dependence on fossil 
fuels. And that is going to take 50, 100 years even. But the 
point is, we should be using it responsibly now in order to 
fund and to make sure we have a thriving economy that can 
afford the environmental protections and the technologies we 
will need to continue the economy to grow.
    I will have to turn the----
    Mr. Abercrombie. Will the gentleman yield one moment?
    Mr. Chaffetz. It is clearly more up to the Chairwoman. I am 
out of time here. I would be happy to yield.
    Mr. Abercrombie. Could I make a quick observation, Madame 
Chair? It is very important what Mr. Diamond just said. There 
are some new members on the committee, and they may not have 
picked up.
    There is no world market in natural gas, right? This is not 
like oil right now, where we are talking $50-plus a barrel. 
There is no world market. So we are subject to what we do with 
regard to natural gas, and what others are doing, right?
    Mr. Diamond. Right. Currently we have a domestic market. 
The price of gas is somewhat, somewhat tied to the price of 
oil, but more and more every day it is being decoupled. So the 
truth is we have a domestic market that is with Canada.
    Mr. Bowles. Let me just add to that, if I might, 
Congressman, to say that last summer, when some of the nuke 
plants went offline in Japan, that did lead to an increase in 
natural gas prices in Massachusetts. So there are, it is less 
liquid market than the case of oil.
    Mr. Abercrombie. My point, Madame Chair, is that we are 
utterly and totally reliant on what we do. And we are paying a 
lot more for natural gas, and they are going to be subject to 
doing that more than other nations are.
    Ms. Bordallo. Thank you. I thank the gentleman from Hawaii 
and the gentleman from Utah.
    Now I would like to recognize the gentlelady from 
California, Mrs. Capps.
    Mrs. Capps. Thank you, Madame Chair. And I appreciate very 
much this hearing. I think it is such an important topic for us 
as we consider a comprehensive energy policy, to be talking 
about what is going to happen on the Outer Continental Shelf.
    I want to continue my colleague from Utah's somewhat line 
of questioning. And I guess I am going to be picking on the 
Hon. Ian Bowles for the first question I ask.
    Thank you all, each of you, for your testimony.
    Mr. Bowles, I am about to introduce a bill called the 
Coastal State Renewable Energy Promotion Act, kind of a 
mouthful. But it is designed to provide grants to states so 
that they can survey the coastline, their own coastline, to 
identify areas suitable for renewable energy development, like 
wind and wave.
    The bill will reward those companies that choose to develop 
in these suitable sites. In other words, make a little bit of a 
carrot around it, by expediting their permitting process.
    You are at the state level. You are kind of where all this 
happens. We both agree that maintaining the state consistency 
provisions of CZMA is so vital to ensuring that strong projects 
advance.
    So I want to know what you think of this legislation, and 
other ways that you might suggest that we help avoid 
consistency conflicts. In other words, anticipate them ahead of 
time, lay out a framework, so that we can site offshore 
renewable energy projects in an efficient and environmentally 
friendly manner.
    Mr. Bowles. Thank you, Congresswoman. Let me just say I 
think your legislation is terrific, and our state would be----
    Mrs. Capps. I may use you.
    Mr. Bowles.--very supportive of it. I note that you are co-
sponsoring it with my Congressman from Cape Cod, where I vote, 
Bill Delahunt. And I commend him and you for your work on it. I 
think it would be very helpful for us.
    I am glad you brought up Coastal Zone Management's Federal 
consistency, and I just want to put on the record that 98 
percent of these coastal, of these Federal consistency findings 
across the Nation are favorable. For those who talk about 
wanting to kind of chip away at that authority, I would 
encourage you to strongly protect it, and reauthorize it.
    I would add a point that I made earlier, Congresswoman, 
about the need for NOAA to have some central point of working 
with states like ours who are doing this type of work, and 
certainly embrace the point you are making about wanting to 
have a proactive zoning process based on good science that says 
here is the places that we prefer to put these things, and here 
are the places that are not appropriate.
    As we conclude our process in state waters, we will have 
some sites that we want to look at for wind development that 
will straddle into Federal waters. And we would like to have 
the Federal government having already been at the table for our 
process, so when it comes they say great, you know, we all 
looked at this together, instead of starting a new full EIS 
process, which I don't think would make sense.
    Mrs. Capps. I appreciate that very much, particularly the 
tie to the Federal.
    Dr. Kitsos, from your perspective on the Joint Ocean 
Commission, with that initiative, you may be able to also give 
maybe some advice and others. Should we be doing more in this 
arena, these kinds of surveys and assessments, in order to 
implement smart marine spatial planning?
    Mr. Kitsos. Well, we think that there is so much more that 
needs to be done by the Administration and by Congress in the 
implementation of the recommendations from the Pew Commission 
and the U.S. Ocean Commission, as you know, Congresswoman. And 
I know you have spoken with Admiral Watkins and with----
    Mrs. Capps. Yes.
    Mr. Kitsos.--Mr. Panetta on numerous occasions.
    We are, the Joint Ocean Commission Initiative is taking a 
growing interest in marine spatial planning as a possible way 
to address some of the issues that the Secretary just spoke 
about.
    And so I think, in a nutshell, the answer is yes, 
cautiously. And dealing with the ocean is just a different kind 
of animal than zoning on land. And it is going to require some, 
some dexterity, I think, on the part of everybody. But it is 
doable, and it should lead to a predictable system.
    Mrs. Capps. Well, I want to follow up by asking you, I 
mean, you say it is a different animal. It is different in many 
ways.
    What are some of the factors that we should consider as we 
try to manage offshore energy development, and implement marine 
spatial planning?
    Mr. Kitsos. Well, the issues are where, with respect to 
conventional oil and gas, where does the oil and gas reside. 
That is always the issue that the lessees are interested in. 
And with respect to renewables, where are the best sources of 
wind turbine power, wind and so on.
    And then where are the population centers, where are the 
areas of critical need, where are the most environmentally 
sensitive areas. And figure out, through some kind of spatial 
planning, what is most appropriate, based on what the needs of 
your state are.
    Mrs. Capps. Well, I appreciate that very much. And Madame 
Chair, I know that my time is over. But I just want to 
underscore what you just said.
    Because I think we now, we have this opportunity. And we 
didn't maybe have it as much with land development. So we 
should learn from mistakes we have made on shore, and really 
use now--and I want to make sure that we consider, in any 
legislation that we do here, the socioeconomic and cultural 
factors that very much, if we don't, they will come back and 
hurt us.
    And many of our most vulnerable populations reside at the 
coastal edge, as well. And are so deeply--and I am thinking of 
the LNG siting--are so much impacted by how we develop offshore 
energy projects, particularly I want to stress in the area of 
renewable.
    I thank you very much.
    Ms. Bordallo. And I thank the gentlelady from California. 
And I wish to thank all of the witnesses on this panel for 
their testimonies. Members of the Subcommittee may have some 
additional questions for the witnesses, and we will ask you to 
respond to these in writing.
    The hearing record will be held open for 10 days for these 
responses. And you are now excused.
    Will the second panel please be seated, as soon as 
possible?
    I announce that the Subcommittee Chair on Energy and 
Mineral Resources has stepped out of the room for just a few 
minutes to make a statement on the Floor. And I will be taking 
over until he returns.
    Would the second panel please be seated? I would like to 
repeat that the Chairman of the Subcommittee on Energy and 
Mineral Resources, Mr. Costa, has stepped out of the room for 
just a few minutes. He has to deliver a statement on the Floor. 
So I will be taking over until he returns.
    And I would now like to recognize our second panel of five 
witnesses. Captain Keith Colburn of K.H. Colburn, Inc.; Dr. 
Jeffrey Short, the Pacific Science Director for Oceana; Dr. 
Kathrine Springman, the Assistant Editor for Marine 
Environmental Research; Dr. Christopher Clark, the Director of 
Bioacoustics Research Program at the Cornell University 
Laboratory of Ornithology; and Mr. Brad Gilman, testifying on 
behalf of Mayor Stanley Mack, Mayor of the Aleutians East 
Borough in Alaska.
    And just as we did for the previous panel, the timing 
lights on the table will indicate your time. You will have five 
minutes to testify. When the yellow light comes on, you will 
have one minute to wrap up your testimony. And when the red 
light comes up, your time will have concluded.
    Your full statement, however, will be submitted for the 
hearing record.
    As Chairman of this Subcommittee, I now recognize Captain 
Keith Colburn to testify for five minutes.

            STATEMENT OF CAPTAIN KEITH H. COLBURN, 
                      K. H. COLBURN, INC.

    Mr. Colburn. Chairman Costa, Chairwoman Bordallo, Ranking 
Members Lamborn and Brown, I would like to thank you for the 
invitation to provide comments on energy development on the 
Outer Continental Shelf.
    My name is Captain Keith Colburn. I have fished 
commercially in the Alaskan waters for the past 24 years. I am 
a U.S. Coast Guard licensed Master, and I own and operate the 
155-crab boat, The Wizard.
    My fishing grounds are the Bering Sea Aleutian Islands and 
the North Aleutian Basin, otherwise known as Bristol Bay.
    Twenty years ago today, the Exxon Valdez spilled 11 million 
gallons of crude oil into Prince William Sound. Over 1300 miles 
of shoreline were soiled, causing billions of dollars in lost 
revenue to fishermen, communities, Alaska, and the nation.
    On the surface, Prince William Sound appears to have 
recovered. Below the surface, oil still cakes rocks throughout 
the inner tidal zone.
    These were collected just a month ago from Prince William 
Sound. The Pacific herring fishery is closed, and has developed 
unprecedented disease and viral infections, and shows no signs 
of recovery. The ecosystem has been altered.
    Today's energy crisis has not abated due to recent global 
economic events, just been overshadowed. The solutions to our 
energy crisis should be to consider all alternatives to achieve 
energy independence. Quoting President Barack Obama, ``Each day 
brings further evidence, that the way we use energy strengthens 
our adversaries, and threatens our planet.''
    Science-based energy policies will allow us to develop 
resources that are viable, and to protect and preserve 
sustainable resources.
    The North Aleutian Basin, NAB, Lease Sale Area 92, is 
scheduled to be opened in 2011 to oil development. NAB, Area 
92, acronyms and numbers suggest it is another generic or 
obscure offshore vacant lot. The Bering Sea and Bristol Bay are 
not vacant lots.
    As a fisherman, I see the fish basket of America. It is the 
heartland of an incredibly diverse and rich and productive 
resource. Forty percent of all the nation's catch is harvested 
in the Bering Sea. Imagine losing 40 percent of America's 
breadbasket.
    Fish species in the North Aleutian Basin have one common 
threat: They all inhabit, migrate or propagate the epicenter of 
Area 92. The North Aleutian Basin has been recognized as one of 
only three well-managed fisheries in the world. Alaska's 
fisheries managers have received accolades for their 
stewardship in maintaining a balance between harvest and 
conservation.
    Oil revenues from Bristol Bay are estimated to be $8 
billion over the life of the project. Fisheries revenues from 
the same area exceed $2 billion annually, and are sustainable.
    1978, 1979, and 1980 mark the heyday of king crab. In 1981 
a catastrophic crash in the crab stocks occurred. Simultaneous 
with the crash, the oil industry was conducting hundreds of 
thousands of seismic tests. These tests were undertaken mostly 
during the summer months, when the crab were in their most 
vulnerable state of mating and molting.
    Some seismic research on fish exists. However, scientific 
data quantifying the impacts of seismic tests on shellfish are 
scant or nonexistent. One preliminary report involving 
hardshell egg-bearing opilio crab, provided recurring evidence 
of damage to reproductive systems and larva.
    Ongoing noise levels of equipment would create a cacophony 
of sounds, whose effects are known to disrupt, disorient, and 
damage vital systems of fish. Pipelines would force crab to 
reach impasses, alter migration paths for mating, and limit the 
access to food sources.
    Drilling spoils would be in the tens of thousands of tons, 
suffocating the bottom, and releasing heavy metals. Viral 
infections and disease would be borne out of the region by 
migrating fish.
    Few places on the planet witness more severe and dramatic 
weather than the conditions in Bristol Bay. Bristol Bay's 25-
foot tides, hurricane-force winds, and Siberian storms combine 
to create confused and mountainous seas, with wave heights in 
excess of 40 and 50 feet.
    Annual icepack storms down like a freight train, and gets 
crushed back by massive seas. Cleanup and containment of a 
spill would be unequivocally impossible in these conditions.
    The majority of reserves in Bristol Bay are liquefied 
natural gas. Currently only one export terminal is shipping 
LNG. Based in Cook Inlet, Alaska, 100 percent of these reserves 
are shipped overseas, despite shortages in the local and 
domestic utilities markets.
    Under current law, shipment of LNG from one U.S. port to 
another requires the vessel be built in the U.S., operate under 
U.S. flag, and be manned by U.S. licensed officers and crew. 
Currently, no U.S. ships meet these requirements, and there are 
no plans by domestic shipyards to construct any.
    Bristol Bay's natural gas reserves would not be utilized by 
American consumers.
    Every stage from exploration to extraction in the North 
Aleutian Basin imposes substantial risks to the essential fish 
habitat of Bristol Bay. It would be premature to conclude that 
we can safely explore and extract oil in Bristol Bay, given the 
absence of scientific studies.
    March 24, 1989, is a grim reminder of our dependence on oil 
and our past policy choices. We must work toward leaving these 
policies in the 20th century, and focus on energy policies for 
the 21st century.
    Is there any risk level where we would exchange our 
nation's most prolific ocean food source for the development of 
oil and gas in the North Aleutian Basin?
    Thank you for your time, the opportunity to speak. It has 
been an honor to represent fishermen. I am happy to respond to 
any questions that you may have.
    [The prepared statement of Mr. Colburn follows:]

     Statement of Captain Keith H. Colburn, USCG Master 1600 tons, 
            Owner and Operator of the Fishing Vessel Wizard

    Chairman Costa and Chairwoman Bordallo, Ranking Members Lamborn and 
Brown, I'd like to thank you for the invitation to provide comments on 
energy development on the Outer Continental Shelf (OCS) and the future 
of our oceans.
    My name is Captain Keith H Colburn. I have fished commercially in 
Alaskan waters for the past 24 years. I am a USCG licensed master, and 
I own and operate the 155' F/V Wizard.
    My fishing grounds are the Bering Sea Aleutian Island (BSAI) 
fisheries, and the North Aleutian Basin (NAB), otherwise known as 
Bristol Bay. I have fished virtually every species in the NAB, from 
purse seining herring, gillnetting Bristol Bay salmon, long-lining 
halibut, and pot fishing cod and crab. The Wizard is a crabber home 
ported in Seattle, but fishes exclusively in the BSAI crab fisheries.
    My concern for the fleet and the resource rests not only with 
fishing, but with the management, enforcement, and policy surrounding 
Alaska's fisheries. I previously served as a board member of the Alaska 
Marketing Association, negotiating prices for fishermen, and I 
currently serve on the Pacific Northwest Crab Industry Advisory 
Committee, which is overseen by the North Pacific Fisheries Management 
Council. I am on the board of the Alaska Fishermen's Safety 
Association, the overseeing body for insurance that has 63 vessel 
members of the crab and trawl fleet of Alaska, Washington and Oregon. I 
am also a member of the Crab Group of Independent Harvesters.
I. The Legacy of the Exxon Valdez Oil Spill
[GRAPHIC] [TIFF OMITTED] T8185.001

    Today, March 24th, 2009, marks the 20th anniversary of one of 
America's most tragic environmental catastrophes.
    Oil from the Exxon Valdez oil spill, shown in dark shading, 
stretched for miles along the Alaskan coastline.
    The Exxon Valdez spilled 11 million gallons of crude oil into 
Prince William Sound, soiling over 1300 miles of shoreline, as far as 
460 miles from the spill site. In all, the death toll to native species 
of sea birds, bald eagles, seals, killer whales, and sea otters was in 
the tens of thousands. Tens of millions of salmon, herring, and fish 
species were destroyed due to the devastating effects of the spill. 
Every species below and above the surface was affected in the spill, 
including fishermen and communities that lost millions of dollars in 
revenue in commercial fisheries and the tourist industry.
    On the surface, the pristine nature of Prince Williams Sound 
appears to have recovered its storied beauty as one of the jewels of 
Alaska's wild and untouched coastal areas. Below the surface is another 
story. Oil still cakes rocks and cobbles throughout the inter-tidal 
zone. The Pacific herring fishery is closed and shows no signs of 
recovery. Since the spill, this herring stock, which is central to the 
marine food web, has developed unprecedented disease and viral 
infections to all year classes of fish. The ecosystem has been altered, 
and it will be generations before the true effects of the spill can be 
ascertained.
II. Looking Ahead: Outer Continental Shelf oil development in Alaska
    In recent years, the troubled Minerals Management Service has moved 
to develop offshore Alaska with an alacrity rarely seen in a federal 
agency. In the past year alone, the MMS has expanded the territory 
available for leasing in Alaska's offshore waters from roughly 10 
million acres to more than 80 million. Earlier this year, MMS leased 
2.9 million acres of that newly opened territory to oil companies in 
the remote Chukchi Sea. In addition, another 25 million acres of state 
and federal lands in the U.S. Arctic--onshore and off--are open to oil 
and gas leasing; of that, 13.5 million acres have already been leased. 
The only area that now remains totally off-limits to oil drilling is 
the coastal plain of the Arctic National Wildlife Refuge. The past 
administration's protocol of drilling our way to energy independence 
was misguided and was fueled by prices at the pump eclipsing $4.00 per 
gallon. But with our financial institutions in ruins, and our economy 
battered, gas has dropped to $2.00 per gallon.
    Today's energy crisis has not abated due to recent global economic 
events, but it has just been over shadowed. Fuel prices for diesel 
eclipsed $5.00 per gallon less than 6 months ago for Alaska's fishing 
fleet. This was not a localized event, but a worldwide crisis. The 
blissful ignorance of ``drill baby drill'' resounds in my ears, and 
reminds me that the solutions to our energy crisis should look beyond 
resource extraction. We are at a crossroads in our nation's history 
where difficult choices need to be made to achieve energy independence. 
Quoting from President Barack Obama's Inaugural Address, ``Each day 
brings further evidence that the ways we use energy strengthen our 
adversaries, and threaten our planet.'' Based on the president's recent 
statements, I am confident that the choices we will make in the months 
and years to come are now backed by scientific evidence, and will lead 
to energy policies based on science. These intelligent choices will 
allow us to develop the resources that are viable, and to protect and 
preserve sustainable resources for future generations.
North Aleutian Basin Fisheries
[GRAPHIC] [TIFF OMITTED] T8185.002

    The North Aleutian Basin (NAB) lease sale Area 92 is scheduled to 
be opened in 2011 to oil development.
    NAB, Area 92: acronyms and numbers suggest it is another generic or 
obscure offshore vacant lot, but the Bering Sea Aleutian Islands (BSAI) 
and Bristol Bay are not just vacant lots.
    As a fisherman, I see the bread basket, the fish basket of America. 
It is the heartland of an incredibly diverse, rich and sustainable 
resource. Forty percent of the catch from U.S. domestic fisheries is 
harvested in the BSAI fisheries. This can easily be overlooked as 
another obscure statistic, but what if we were talking about 40% of 
America's wheat production? The Bering Sea and Bristol Bay represent in 
seafood what the states of Kansas, Montana, Nebraska, North Dakota and 
South Dakota combined represent in U.S. wheat production.
[GRAPHIC] [TIFF OMITTED] T8185.003

    The North Aleutian Basin comprises millions of square miles 
offshore of Alaska. It has been recognized by National Geographic as 
one of only three well-managed fisheries in the world. Fisheries 
managers using science-based management overseeing Alaska's ocean 
received accolades from around the world for their stewardship in 
maintaining a balance between harvest and conservation.
    Pollock, halibut, cod, herring, sole, salmon, and crab make up part 
of the list of commercially harvested species in Area 92. These species 
have one common thread. They all inhabit, migrate, or propagate in one 
of the world's most prolific and diverse marine ecosystems. Our 
nation's most valuable sustainable fisheries resource, our fish basket, 
lies at the epicenter of lease sale Area 92.
    On the other hand, oil revenues from Area 92 are estimated to be 8 
billion dollars over the life of the drilling project. Fisheries 
revenues currently derived from the same area are in excess of 2 
billion dollars annually ``that's 50-80 billion dollars over the life 
of the drilling project ``and the fisheries are fully renewable and 
sustainable where the oil is not.
[GRAPHIC] [TIFF OMITTED] T8185.004

Effects of oil exploration, and extraction
    Today on the anniversary of a major oil spill, it is important to 
shed light on both improvements and remaining gaps in the capacity to 
respond to oil spills in Alaska's northern waters, but there are many 
other aspects of the proposed lease sale in the North Aleutian Basis 
which are cause for concern among Bristol Bay fishermen like myself. 
These include the use of seismic activity in the exploration phase; the 
dumping of drilling wastes into the marine environment; and the 
disturbance posed by infrastructure and traffic.
Seismic activity
    There is increasing concern regarding the effect of human-generated 
(anthropogenic) sounds on marine organisms. While most concern is 
focused on marine mammals, many of the lower frequency (under 1,000 Hz) 
sounds are also likely to affect fish. Fish are of particular concern 
since many species use sounds to find prey, to avoid predators, and for 
social interactions. Sounds may affect behavior and/or physiology, 
although very little is specifically known about how sounds affect 
fish. Moreover, the sensory receptors used by fishes to detect sounds 
are very similar to those of marine (and terrestrial) mammals, and, as 
a consequence, sounds that damage or in other ways affect marine 
mammals could have similar consequences for fishes (Popper, 2003). 
Study findings of altered fish behavior from seismic shooting support 
the basis for management actions in Norway against seismic shooting on 
and close to spawning grounds and over well-established migration 
routes to spawning grounds (Slotte et al, 2004). See Table 1 for a 
summary of one study demonstrating impacts of seismic on fish.
    While less is known about the impacts of seismic activity on crabs, 
observations and data on fisheries catch indicate a potential adverse 
impact of seismic on this population.
    1978-1980 marked the king crab heyday. Landings of Bristol Bay red 
king crab exceeded 100 million pounds each year, five times our current 
harvest level. In 1981, a catastrophic crash in the crab stocks 
occurred. Simultaneous with the crash however, the oil industry was 
conducting hundreds of thousands of seismic tests in the same waters. 
These tests were undertaken mostly during the summer months when the 
crab stocks were at their most vulnerable state of mating and molting.
[GRAPHIC] [TIFF OMITTED] T8185.005

    Whereas a multitude of studies show the detrimental effects of 
seismic testing to fish, scientific data and reports quantifying the 
impacts of seismic tests on shellfish are scant or non-existent. One 
preliminary report, the 2004 study by the Canadian Dept. of Fisheries 
and Oceans, involved hard-shelled, egg bearing opilio crab. It revealed 
that damage observed to opilio crab organs provided recurring evidence 
of abnormalities in their reproductive systems, hemorrhaging and 
bruising of the ovaries, as well as dilated and detached membranes. In 
test animals, larvae that survived to hatch were weaker and smaller 
than normal larvae, with smaller eyes and spines.
    As a fisherman, I do look at the entire marine ecosystem. Ongoing 
seismic concussions would pummel the sea bed for the duration of the 
project, affecting migratory paths of marine mammals such as whales, 
seals, sea lions, and walrus that transit and forage in the area. Any 
reverberations to egg-bearing ground fish and crab that mate and spawn 
could be catastrophic--for people as well as these other species in the 
Bristol Bay ecosystem.
Infrastructure, and Development
    The impact to Bristol Bay's waters during initial and development 
stages of drilling would also be severe. Disruption of the bottom in 
both stages would be substantial. Turbidity throughout the water column 
severely impact plankton and other food sources throughout the food 
web.
    The noise levels of drills, pumps, de-sanders, compressors, and 
multi phase boosters would create a cacophony of sounds whose effects 
are known to disrupt, disorient, and damage vital systems of mature, 
and adolescent fish. Unknown are the effects on crab and fish larvae. 
Additionally, pipelines would force crab and migratory bottom dwellers 
to either reach impasses, or alter their migration paths, and impede 
their access to food sources.
[GRAPHIC] [TIFF OMITTED] T8185.006

    On top of this, drilling spoils would be in the tens of thousands 
of tons, suffocating the bottom, and releasing high levels of heavy 
metals such as mercury, cadmium, zinc, chromium, and copper. In these 
amounts, these are toxic to every organism in the surrounding area, and 
would subject animals to viral infections and disease. That would be 
consequently borne out of the region by migrating fish.
Weather
    In addition to the anthropogenic activities described above, one of 
the most significant challenges facing a potential offshore lease sale 
is weather. Few places on the planet witness more severe and dramatic 
weather conditions than Bristol Bay.
    Flooding northeast and ebbing southwest, the tidal activity in the 
Bristol Bay area is routinely in excess of 25 feet. Storms originating 
in the Orient and combining with low pressure systems from Siberia 
travel over 2000 miles, and intensify when they hit Alaska's land mass. 
Wind velocities that exceed hurricane strength are commonplace during 
winter months. The sea state associated with these storms as they 
intensify, traveling through the birthplace of storms in the North 
Pacific, regularly create wave heights of 30-50 feet. The opposing 
current from the Bristol Bay ebb turns these waves into confused, 
sharp, and mountainous seas experienced in few other places on the 
planet.
    Annual ice pack reaches into Area 92 frequently, and then gets 
crushed back by massive seas. Clean up and containment of a spill would 
be unequivocally impossible in these conditions.
    While the oil industry has experience working in areas with 
comparable tidal action and smaller confined areas with ice conditions, 
they have never undertaken developing at sea equipment that has been 
tested to withstand all three conditions, wind waves and ice, that 
regularly pummel the Bristol Bay region simultaneously.
Liquid Natural Gas (LNG)
    While much of our discussion and concern centers on oil and the 
possibility of oil spills, the majority of reserves in Area 92 is in 
Liquified Natural Gas. However, there are many social and environmental 
risks associated with developing this resource as well.
    To begin, it is doubtful whether local people would benefit in any 
form from the products that may be close in proximity but may not 
become available for remote communities hoping to get cheaper heating 
fuel. Under current law, shipment of LNG from one U.S. port to another 
requires the vessel be built in the U.S., operate under U.S. flag, and 
be manned by U.S. licensed officers and merchant mariners. However, 
currently no U.S. ships meet these requirements, and there are no plans 
by domestic shipyards to construct any. Without a regulatory change to 
allow foreign flagged vessels to transport LNG to domestic ports none 
of Bristol Bay's natural gas reserves would be utilized by American 
consumers.
    There is currently only one export terminal in the U.S. shipping 
LNG. Based in Cook Inlet, Alaska, 100% of these reserves are shipped 
abroad to Japan despite shortages in the local and domestic utilities 
markets. Thus, hundreds of Alaska coastal residents counting on some 
benefits from this risky endeavor are likely to be left out of the 
picture.
    Furthermore, the increase of foreign flagged vessels in our 
pristine fishing grounds is of great concern. Increased traffic by 
vessels from nations whose safety requirements are almost always less 
stringent than those in the U.S. is another contributing factor to the 
risk.
III. Summary
    Drilling for a finite resource in Bristol Bay is not worth 
jeopardizing America's most prolific and sustainable fisheries 
resource. Every stage from exploration to extraction in the NAB poses 
substantial risks to disrupting essential fish habitat and the delicate 
marine ecosystem. There are no conclusive scientific studies that can 
state otherwise. In the absence of scientific studies gauging the 
effects of seismic testing and long term excessive noise levels, it 
would be premature to conclude that we can safely explore and extract 
in Area 92.
    The potential for disaster is exacerbated by the climactic 
environment, which is one of the harshest and most unforgiving on the 
planet. The reserves there would not help curtail the immediate energy 
crisis, but only exacerbate it, and the nation would not see any 
benefits to the energy crisis by exporting it overseas.
    Noise, suspended sediment and toxic waste would completely disrupt 
the ocean floor and the delicate marine ecosystem. If we are to look to 
our northern European neighbors who have had fisheries and oil drilling 
co-exist for years, we will find no solace. Although touted for its 
successful coexistence of oil and fisheries, Norway has seen a 39% drop 
in fish stocks since offshore oil began working in the Barents and 
North Seas. The interconnected nature of the marine ecosystem in Area 
92 guarantees that the effects of exploration and oil extraction would 
spread well beyond the lease sale area and into the entire Bering Sea.
    March 24th,1989 is a grim reminder of our dependence on oil and the 
monumental catastrophes that can result from our policy choices. We 
should be working toward leaving these policies in the twentieth 
century, and focusing our efforts on smarter energy policies for the 
twenty first century. We have an obligation to our children, to our 
environment and to our sustainable resources. As a country, it's time 
to remember we have to lead by example. We have the scientific and 
engineering prowess to lead in the new fields of renewable energy 
production. Risking our nation's fish basket for oil reserves would 
only throw us back to the policies of the past, not propel us into the 
future. Is there any risk level in the development of oil and gas in 
the North Aleutian Basin where we could say we would give our nation's 
most prolific ocean food source in exchange? I don't think so.
    Thank you for your time, your consideration, and the opportunity to 
speak before you. It has been an honor to speak on behalf of fishermen 
that want to continue the sustainable harvest of seafood in the 
pristine waters of Bristol Bay Alaska. I am happy to respond to any 
questions that you may have.
References
Alaska Marine Conservation Council. ``The Impacts of Seismic Surveys on 
        Marine Mammals and Fish.'' Anchorage, Alaska. Available here: 
        http://www.akmarine.
        org/our-work/protect-bristol-bay/
        Impacts_of_Seismic_Surveys_AMCC.pdf
Alaska Marine Conservation Council. Proposed Lease Sale Area Map. 
        Anchorage, Alaska. Available here: http://www.akmarine.org/our-
        work/protect-bristol-bay/map-gallery
Bowers, Forrest R., Mike Cavin, Karla Granath, Amy Gilson and Chris 
        Lillo. 2003. ``Annual Management Report for the Commercial 
        Shellfish Fisheries of the Bering Sea.'' Alaska Department of 
        Fish and Game, Dutch Harbor, Alaska. 116 p.
Brown, Evelyn D. and Mark G. Carls. 1998. Pacific Herring (Clupea 
        Pallasi). Restoration Notebook, Exxon Valdez Oil Spill Trustee 
        Council. Anchorage, Alaska. Available here: http://
        www.evostc.state.ak.us/Universal/Documents/Publications/
        RestorationNotebook/RN_herring.pdf
Christian, John R., Anne Mathieu, Denis H. Thomson, David White and 
        Robert A. ``Buchanan Effect of Seismic Energy on Snow Crab 
        (Chionoecetes opilio).'' 7 November 2003. Environmental 
        Research Funds Report No.144. Calgary. 106 p. Available here: 
        http://dsp-psd.pwgsc.gc.ca/Collection/NE23-122-2003E.pdf
DFO, 2004. ``Potential Impacts of Seismic Energy on Snow Crab.'' DFO 
        Can. Sci. Advis. Sec.Habitat Status Report 2004/003.
Engas et al. 1993. ``Effects of Seismic Shooting on Catch and Catch-
        Availability of Cod and Haddock.'' Fisken og Havet, nr. 9, 99. 
        117. Friends of Bristol Bay.
Exxon Valdez Oil Spill Trustee Council. 1990. Final Report, Alaska Oil 
        Spill Commission. State of Alaska. 5-14. Anchorage, Alaska. 
        Available here: www.evostc.state.ak.us/facts/details.cfm
Exxon Valdez Oil Spill Trustee Council. 1993. Map of the Exxon Valdez 
        Oil Spill. 1993 State On-Scene Coordinator's Report. Anchorage, 
        Alaska. Available here: http://www.evostc.state.ak.us/facts/
        spillmap.cfm
Harrell, Kelly. 2007. ``Economic Value of Bristol Bay and Southeastern 
        Bering Sea Fisheries.'' Alaska Marine Conservation Council. 
        Anchorage, Alaska.
Lokkeborg,S. and Solda, A.V. 1993. ``The Influence of Seismic 
        Exploration with Air Guns on Cod (Gadus morthua) Behavior and 
        Catch Rates.'' ICES Marine Science Symposium. 196, pp.62-67
Popper, A.N. 2003. ``Effects of anthropogenic sounds on fishes.'' 
        Fisheries 28:24-31.
Skalski, John R., Walter H. Pearson and Charles I. Malme. 1992. Effects 
        of Sounds from Geophysical Survey Device on Catch-per-Unit-
        Effort in a Hook-and-Line Fishery for Rockfish (Sebastes spp.) 
        Canadian Journal of Fisheries and Aquatic Sciences Vol. 49, pp. 
        1357-1365. Available here: http://www.awionline.org/oceans/
        Noise/IONC/Docs/Skalski_1992.pdf
Slotte, A., K. Hansen, J. Dalen, and E. Ona. 2004. ``Acoustic mapping 
        of pelagic fish distribution and abundance in relation to a 
        seismic shooting area off the Norwegian west coast.'' Fisheries 
        Research 67:143-150.
Stocker, Michael, et al. ``Rigs in the Nation's Fish Basket? What 
        Fishermen should know about Proposed Offshore Drilling in 
        Bristol Bay.'' Presentation delivered 20 November 2008. Pacific 
        Marine Expo 2008.
USDA. 2008. U.S. & All States Data - Wheat All. National Agriculture 
        Statistics Service 2008 Census.
World Wildlife Fund. 2009. ``Lessons Not Learned: 20 Years After the 
        Exxon Valdez Disaster.'' Anchorage, Alaska. Available here: 
        www.worldwildlife.org/bristolbay
World Wildlife Fund. 2009. North Aleutian Bay Map. Don't Take the Bait 
        on Offshore Oil & Gas Drilling in Bristol Bay. Anchorage, 
        Alaska. p. 2. Available here: http://www.worldwildlife.org/
        what/wherewework/arctic/WWFBinaryitem10785.
        pdf
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Captain Colburn. As 
Chair, I am going to have to hold you to the five minutes. We 
just went into session, and I may be losing more Members up 
here, and I don't want to be all alone.
    So the Chairman now recognizes Dr. Jeffrey Short to 
testify.

              STATEMENT OF JEFFREY SHORT, PH.D., 
                PACIFIC SCIENCE DIRECTOR, OCEANA

    Mr. Short. Good afternoon, Madame Chairman and members of 
the committee. For the record, my name is Jeff Short. I am a 
Ph.D. in fisheries, and have a master's degree in physical 
chemistry. And I live in Juno, Alaska.
    I recently became Pacific Science Director for Oceana, an 
international marine conservation organization of more than 
300,000 members.
    Ms. Bordallo. Would you move a little closer to the mic, 
please?
    Mr. Short. Dedicated to using--I recently became the 
Pacific Science Director for Oceana, an international marine 
conservation organization of more than 300,000 members, 
dedicated to using science, law, and policy to protect the 
world's oceans.
    I have lived in Alaska for 37 years, and I have been with 
the National Oceanic and Atmospheric Administration for 31 of 
those years, working on the effects of oil pollution, including 
the impacts of the Exxon Valdez oil spill.
    Today I want to summarize where we were, leading up to the 
spill, and what we have learned since, and what we are 
proposing for the Arctic.
    The debate over the development of the Prudhoe Bay oilfield 
was in full swing when I first moved to Alaska in 1972. I 
recall the assurances from the oil industry that they would 
vigilantly apply the best available technology to build and 
maintain the oilfield, the Trans-Alaska Pipeline, and the 
marine oil terminal at Valdez. And that should an accident 
occur, they would respond aggressively with a ready arsenal of 
equipment.
    Fishermen, who were part of the largest private employment 
sector in the state, were skeptical, fearing a large spill 
could wipe out their livelihoods. Their fears were confirmed 
when the Exxon Valdez hit Bligh Reef, and spilled enough oil to 
wreck the most important fisheries in the region, as well as 
jeopardizing Alaskan natives' subsistence way of life, killing 
thousands of marine mammals, hundreds of thousands of birds, 
and millions of fish, all migrating to Prince William Sound, 
the last great protected estuary in North America, not yet 
decimated by coastal settlement and industrialization.
    Despite 11,000 cleanup workers and $2 billion, only about 8 
percent of the spilled oil was recovered.
    We face the same situation again, regarding offshore oil 
development in Alaska. More than 70 million acres are being 
offered for sale to oil companies. These are among the most 
productive and fragile parts of the ocean anywhere.
    The Bering Sea pollock and crab fisheries are the most 
lucrative in the world, and the Beaufort and Chukchi Seas 
support subsistence needs of thousands of Alaska natives.
    Worse, these ecosystems are already reeling from the 
impacts imposed by climate change, and soon to be exacerbated 
by ocean acidification. Biological communities are demonstrably 
moving north, from the Bering Sea to the Chukchi, and east from 
the Chukchi to the Beaufort. And the dramatic losses of sea ice 
during summer is changing how these ecosystems work at the most 
fundamental level.
    The Arctic Ocean can least afford an oil spill. And we are 
talking about bringing icebreakers, seismic testing, pipelines, 
and other industrial activities to areas with little or no 
infrastructure to deal with them. Again, we hear the same 
assurances from the oil industry. And while I applaud all the 
industry has done to improve their safety record and practices, 
I remain convinced that no amount of technology can fully guard 
against complacency, the incessant drive to minimize costs, and 
human error.
    We have yet to see a spill response technology that really 
works in the midst of ice during the long Arctic night, or when 
seas are rough.
    Given how little we know about the Arctic, adding even more 
stress from industrial development amounts to a high risk and 
ecologically high-stakes gamble. In recognition of these 
stresses, the North Pacific Fishery Management Council recently 
voted unanimously to preclude commercial fishing in the U.S. 
Arctic Ocean until enough is known about how these ecosystems 
work, to set safe harvest levels with some measure of 
confidence. The same logic applies to oil development.
    In the end, we at Oceana agree completely with Dr. Jane 
Lubchenco, the newly confirmed Administrator of NOAA, when she 
says the real choice, I think, is between short-term economic 
gain and long-term economic prosperity, in which long-term 
economic prosperity depends on a healthy environment.
    We urge the U.S. Congress to take immediate action to 
suspend all offshore development in the Arctic, unless and 
until it can be demonstrated, through a science-based 
precautionary approach, that such activity can be conducted 
without further jeopardizing the health and well-being of the 
ecosystems, and the people who depend on them.
    Further, the moratoria against leasing in the lower 48 and 
Bristol Bay were instituted and maintained nationally to guard 
against the risks described above. These moratoria should be 
reinstated.
    Thank you for this opportunity to comment. It is a real 
privilege to be here, and I would be happy to work with the 
committee any way as you consider oil and gas development in 
our nation's oceans.
    Thank you.
    [The prepared statement of Mr. Short follows:]

    Statement of Dr. Jeffrey Short, Pacific Science Director, Oceana

    Good morning. I am the Pacific Science Director for Oceana, an 
international marine conservation organization dedicated to using 
science, law, and policy to protect the world's oceans. Oceana's 
headquarters are in Washington, DC, we have offices in five states as 
well as Brussels, Spain, and Chile. Currently, we have offices in 
Juneau and Kotzebue, Alaska, and bring more than 250 years of 
experience working and living in the state. Oceana has 300,000 members 
and supporters from all 50 states and from countries around the globe.
    Today marks the 20th anniversary of the Exxon Valdez oil spill, the 
largest spill in our nation's history and one of the most 
environmentally damaging spills in the world. Within a week of the 
incident, that spill and its effects were the focus of my research. 
Prior to joining Oceana, I spent more than 30 years as an environmental 
chemist studying oil pollution fate and effects as an employee of the 
National Oceanic and Atmospheric Administration (NOAA). In that role, I 
led numerous studies on the Exxon Valdez oil spill beginning a week 
after the incident through my retirement from NOAA last November 
(2008). I have a Master of Science degree in chemistry, and I wrote the 
doctoral dissertation for my PhD in fisheries on data generated by the 
spill. With more than 50 professional papers on the Exxon Valdez oil 
spill and related topics, I have advised governments in Canada, China, 
Korea, Norway and Russia on oil pollution issues, making me an 
internationally recognized authority on oil pollution.
    I have dedicated most of my professional life to understanding the 
Exxon Valdez oil spill, and now to helping ensure that we do not repeat 
the mistakes of the past. We are coming dangerously close to heading 
down that path. More than 70 million acres offshore in Alaska either 
have been made available for oil and gas leasing, exploration, and 
development or are slated to be offered in the next few years. These 
areas are crucial for the lives of local residents, are among the most 
pristine ecosystems in the world, and are increasingly threatened by 
climate change and ocean acidification. They are also remote places in 
which no technology currently exists to respond to or clean up an oil 
spill effectively. Concurrently, there has been a push to allow oil 
drilling in offshore areas of the contiguous United States that have 
been closed to these activities for more than 25 years. Just last year, 
Congress and the president let lapse moratoria that protected these 
areas.
    My testimony will focus on the Alaskan Arctic and, in particular, 
the Beaufort and Chukchi seas. I will summarize some of the scientific 
lessons we have learned from the Exxon Valdez spill, and their 
implications for future development of offshore oil and gas resources 
around Alaska. Together, these facts make a compelling case for a 
comprehensive, science-based, precautionary approach to oil and gas 
activities in the Arctic and for reinstating and extending the 
moratoria on offshore development in the United States.
I. Introduction
    The stage was set for the Exxon Valdez oil spill nearly two decades 
before it happened with the decision in 1973 to authorize the trans-
Alaska pipeline to the Valdez marine terminal. That decision was 
strongly opposed by the fishermen of Prince William Sound, who were 
skeptical of the assurances from the oil industry regarding all the 
modern safeguards that would be put into place. These fishermen feared, 
correctly it turned out, that a large spill could ruin their 
livelihoods. At the time, commercial fishing was the leading industry 
in the State of Alaska, employing more people and generating more 
revenue than any other private sector employer. Fisheries in Prince 
William Sound were especially well developed, harvesting enormous runs 
of pink, sockeye and other salmon, supplemented by halibut, herring and 
rockfish.
    Prince William Sound is one of the great sheltered coastal 
embayments of North America, comparable in size to the Chesapeake Bay, 
Albemarle Sound, San Francisco Bay or Puget Sound, and comparable as 
well in its magnificent natural bounty. There is one big difference: 
Prince William Sound is not seriously impacted by sustained coastal 
population growth and industrialization. As such, it supports very high 
populations of local and migratory birds and marine mammals, from 
puffins to peregrine falcons, and sea otters to killer whales. It is a 
major stop on the Pacific flyway, where birds land after long flights 
across the Gulf of Alaska to re-provision themselves and either 
reproduce in the immediate area or move on to the vast breeding grounds 
of the western and northern Alaskan coastal plains. Their timing 
coincides with the spring phytoplankton bloom in the ocean, when 
increasingly long days and calmer waters turn the sea green with algal 
plant growth. Nearly half the annual nutritional requirements of the 
entire food web in this area are produced over the course of just a few 
ensuing weeks. The bloom starts in the protected waters of Prince 
William Sound and radiates out to the Gulf of Alaska, so the Sound acts 
as a magnet attracting fish, birds, and marine mammals hungry after the 
long winter. This magnet lured many of these animals to their deaths 
soon after the 
T/V Exxon Valdez hit Bligh Reef on March 24, 1989, just before the 
beginning of the spring bloom.
II. Lessons from the Exxon Valdez Oil Spill
    The Exxon Valdez oil spill was caused by human error and occurred 
despite the assurances that the best available technology would make 
such events extremely unlikely and that new response methods would 
limit environmental damage should a spill occur. After hitting Bligh 
Reef just after midnight, the Exxon Valdez began discharging oil, 
creating an oil slick that expanded at a rate of nearly half a football 
field per second, and it continued expanding at this rate for two and a 
half days. By the time it was daylight a few hours later, containment 
was probably not feasible even in optimal circumstances and no matter 
how well prepared the responders were. Once a winter storm developed 
three days later, any remaining hope of containment was lost.
    Nearly 11 million gallons of oil spilled from the Exxon Valdez. 
Despite heroic efforts involving more than 11,000 people, 2 billion 
dollars, and aggressive application of the most advanced technology 
available, only about 8% of the oil was ever recovered. This recovery 
rate is fairly typical rate for a large oil spill. About 20% 
evaporated, 50% contaminated beaches, and the rest floated out to the 
North Pacific Ocean, where it formed tarballs that eventually stranded 
elsewhere or sank to the seafloor.
    The spilled oil had devastating effects on the area. Thousands of 
marine mammals, hundreds of thousands of seabirds, and millions of fish 
were killed by encounters with spilled oil. Beaches were oiled along 
1,200 miles of the coast, killing untold numbers of intertidal plants 
and animals, with additional losses caused by aggressive chemical and 
physical attempts to clean the shorelines. Together, the oil, 
chemicals, and other clean up methods caused habitat alteration that 
will persist for a century or more. Oil penetrated into some beaches, 
creating toxic reservoirs that are still there today and are likely to 
remain for decades more. These toxic oil reservoirs guaranteed 
unforeseen impacts that continued for well over a decade after the 
incident.
    Long-term monitoring led to numerous insights regarding the ways 
that oil pollution impacts ecosystems. Field observations led to our 
discovery that the toxic components of oil are deleterious to embryonic 
development of salmon at concentrations in the parts per billion, over 
100-fold lower than had previously been considered dangerous. This 
finding suggests that oil pollution from non-point sources everywhere 
could pose a much greater threat to fish habitat than previously 
recognized. Furthermore, the initial mass mortalities of wildlife that 
died from contact with oil had destabilizing effects on ecosystem 
function. For example, prey populations exploded following removal of 
their predators and rockweed removal in the intertidal areas deprived 
animals of the protective cover needed to avoid dehydration or 
predation. It took more than a decade for some areas to recover from 
these destabilizing effects, and recovery is still in progress in some 
of the hardest hit places. Another long-term impact came from pockets 
of oil beneath some beaches that were surprisingly resistant to natural 
degradation. These pockets retained most of their toxic components for 
more than a decade, occasionally re-contaminating sea otters and sea 
ducks that forage in the intertidal areas in search of clams, worms and 
other prey found there. This chronic re-exposure is likely a 
substantial if not primary reason why populations of sea otters and 
birds in the areas hardest hit by oil are only now recovering.
    The persistence of oil had serious impacts on the most important 
predator of all--humans. Despite millions of dollars spent on analyses 
which demonstrated the absence of oil contaminants in subsistence food 
items, Alaska Natives in the region would occasionally dig up oil 
unexpectedly instead of clams. For this good reason, many Native 
Alaskans had legitimate questions about the accuracy of the chemical 
analyses, which led many to foreswear subsistence foraging, with 
devastating consequences for their culture. During the process of 
collecting, preparing, sharing, and consuming food collected from 
nature, much of the culture of these peoples is transmitted from one 
generation to the next, binding the generations together. Hence, 
severing the link with subsistence, in a very real sense, severs the 
link between generations, often with tragic results. Because it arises 
from the perception that their environment has been irreversibly fouled 
and violated, augmented by suspicion regarding any attempts by 
outsiders to demonstrate otherwise, this consequence cannot be remedied 
monetarily. Once lost, it is nearly impossible to re-establish the 
reverence the younger generation held for their elders, whose 
knowledge, skills, and abilities are no longer seen as relevant. With 
their trust in the wholesomeness of the subsistence way of life 
compromised, many turn to western culture for their future.
    The Exxon Valdez oil spill took a considerable toll on western 
commercial enterprises in the region as well. Direct economic losses 
were likely in excess of $300 million, mostly because of fishery 
closures to avoid gear contamination by floating oil during the year 
immediately following the spill, followed by impacts on recreational 
fishing and tourism. These losses directly affected some 32,000 people 
whose livelihoods depended at least in part on ecosystem services 
provided by the region prior to the spill. In addition, the 
interruption in supply led to permanent loss of market share for pink 
salmon, the most lucrative fishery in the region. Combined with 
subsequent population crashes of pink salmon and herring from disease 
outbreaks and other factors that may have been caused at least in part 
by the spill, most of these once thriving businesses have never 
recovered. Using contingent valuation to evaluate costs to Americans 
who care about wild, productive, and unspoiled places like Prince 
William Sound even if they do not ever visit them resulted in another 
$1 billion loss estimated from the spill.
    The Exxon Valdez oil spill did lead to welcome, if belated, 
improvements in tanker safety in Prince William Sound. As a result of 
the Oil Pollution Act of 1990, and despite recalcitrance from 
ExxonMobil Corporation, double-hulled tankers are being phased in. The 
U.S. Coast Guard has implemented substantial improvements in ice 
detection and tanker guidance systems. Tankers are accompanied by dual 
tugs, one of which is towed stern-to-stern by exiting tankers to act as 
a forceful brake if needed, and the state of oil spill response 
capability now far exceeds that available prior to the Exxon Valdez 
spill. While these measures undoubtedly reduce the chances of another 
horrific oil spill, they do not eliminate it, at least in part because 
each of these systems is still vulnerable to the same sorts of human 
error that caused the Exxon Valdez spill.
    The last lesson from the Exxon Valdez oil spill concerns hubris. 
Large marine oil development proposals are invariably presented as 
engineering challenges, often with scant regard for the complexity of 
the environment in which they would occur. Oil spill contingency plans 
are presented as exercises in damage control, under the implicit 
assumption that the important variables and their interactions are 
adequately understood, predictable, and manageable. Yet each spill is 
unique, the environment is extremely complex, and we do not yet 
understand how these systems interact with and respond to oil. A 
crucial reason for which the long-term impacts of the Exxon Valdez 
spill have been viewed as so surprising derives from the simple fact 
that enormous resources were available to evaluate them in comparison 
with any other spill before or since. In truth, our knowledge of how 
oil behaves in the environment and how it affects organisms is still in 
its infancy, especially in the more remote regions of our planet. 
Hence, any claim that we adequately understand and can foresee how oil 
pollution will affect even more challenging environments such as the 
Arctic continental shelf deserves skepticism.
    It is clear that oil spills will continue to happen. We need only 
look to recent news stories to confirm this. The continued use and 
production of oil has led to spills already this year, in spite of the 
improvements described above, and there is no reason to think spills 
will not continue. In addition to the direct effects of spills, 
offshore drilling results in considerable releases of oil and other 
hazardous contaminants that threaten marine life. Furthermore, our use 
of oil makes a substantial contribution to the impacts of climate 
change, which is acidifying our oceans. For this reason alone, we 
should be moving away from oil development, not expanding it. 
Accordingly, Oceana believes we need to limit offshore drilling by 
reinstating and extending the pre-existing moratoria on offshore 
drilling. Furthermore, it is imperative that we take action in the 
Arctic, where oil and gas activities already have begun. The Exxon 
Valdez experience suggests that the Arctic is at particularly great 
risk, as described below.
III. Lessons Applied to Offshore Oil Development in the Arctic
    The most important lesson we can learn from the Exxon Valdez spill 
is to take every possible precaution to ensure that nothing like it 
ever happens again. Nonetheless, over the past several years, decisions 
have been made to open vast new areas of our coastline to offshore oil 
leasing, exploration, and development. The risks from these activities 
are particularly acute in the Arctic, where the oceans play a critical 
role in the culture of Native peoples, there is little available 
response, rescue, or clean-up capability, and little information about 
the environment or impacts from oil development is available.
The Beaufort and Chukchi Seas
    The Arctic is at once one of the most beautiful and forbidding 
places on Earth and a critical component of the planet's ability to 
sustain life. In the Arctic, life swings between twenty-four hour days 
of sunshine in the summer and the long, cold, and dark winter. Despite 
those harsh conditions, the Arctic is home to vibrant communities and 
functioning ecosystems. The Beaufort and Chukchi seas are central to 
the very existence of Native communities, provide important habitat for 
countless species of wildlife, and play a vital role in regulating the 
world's climate.
    Tens of thousands of people inhabit the Arctic region of the United 
States, which is entirely in Alaska. The majority of these residents 
consider themselves to be Alaska Natives and, though organized into 
towns and villages like elsewhere in the country, lead a much different 
life. For many Arctic residents, culture is dependent on subsistence 
harvesting, sharing of food, travel on snow and ice, traditional 
knowledge, and adaptation to Arctic conditions. Subsistence harvest of 
marine and terrestrial mammals, fish, and other resources provides more 
than just highly nutritious food. Just as with Alaska Natives in Prince 
William Sound, those activities also ensure cultural continuity and 
vibrancy by providing spiritual and cultural affirmation, and they are 
crucial for passing skills, knowledge, and values from one generation 
to the next.
    For coastal villages, the Arctic seas are the centerpiece of life. 
Coastal people depend on marine plants and animals for food, clothing, 
and other necessities. For those villages that hunt bowhead whales, 
that hunt is at the heart of their existence. As stated by Edward 
Hopson:
        For the coastal Inupiat Eskimo, the hunting of the bowhead 
        whale [agviq] is the heart of our culture. It is the 
        preparation for the hunt, the hunting, and the sharing of the 
        successful hunt that are important. They must all be considered 
        together. The successful hunt feeds us. The successful hunt 
        affirms our shared values and traditions. The successful hunt 
        gives us reason to celebrate together our spirit and sense of 
        identity.
    While relatively few whales are taken each year and the hunt is 
carefully regulated, the importance of the bowhead to coastal Arctic 
communities cannot be overstated. It is their existence as adapted 
across generations to the weather, isolation, and rhythms in the 
Arctic.
    In addition to the vibrant communities that have adapted to the top 
of the world, the Arctic also supports some of the last remaining 
relatively pristine terrestrial and marine ecosystems. The Arctic is 
home to populations of some of the world's most iconic wildlife 
species. Bears, caribou, wolves, foxes, and others patrol the land 
while the Arctic seas are home to 23 species of marine mammals, 
including polar bears; bowhead, beluga, and gray whales; narwhal; 
walruses; and bearded, ringed, and ribbon seals. A diversity of fish 
and invertebrates can be found in the Arctic as well, including forage 
species like krill, Arctic cod, and capelin, which are vital to the 
marine food web. The Arctic nurtures some of the largest seabird 
populations in the world, and more than 280 species breed there. 
Several Arctic areas are critical to the birds' survival and have been 
designated by the National Audubon Society as Important Bird Areas.
    These species come to the Arctic seas because they are among the 
biological crown jewels of the world's oceans. They are especially 
productive because oxygen concentrations are twice those of tropical 
waters and strong currents often drive upwelling that supplies 
nutrients to plants at the base of the food chain, and the productivity 
of these plants is more sensitive to light than to heat in comparison 
with their terrestrial counterparts. All these favorable factors are 
abundant in the Bering Sea, the southern Chukchi Sea, and to a lesser 
extent the western Beaufort Sea. The annualized rate of plant growth 
for phytoplankton, the microscopic algae that support the rest of the 
offshore marine food web, in the southern Chukchi Sea is among the 
highest in the world. These factors combine to make Bering Sea 
fisheries the most productive in the United States, as well as making 
the Bering Sea a biological oasis for a considerable proportion of the 
world's migratory birds and marine mammals. The southern Chukchi Sea is 
a biological stronghold for a comparably rich food web supporting 
Arctic cod, seals, walrus, polar bears, and humans.
    These areas also play an important role in regulating our climate. 
The long periods of little to no sunlight and the high reflectivity of 
snow and ice when sunlight is present result in a net loss of heat. 
These factors help drive the circulation of the Earth's atmosphere and 
ocean currents which transport heat from the tropics to the poles where 
it is released from the planet. Thus, the health of the Arctic is 
important to the Earth's atmospheric and oceanic circulation patterns, 
which affects climate, weather, and natural systems worldwide.
The Changing Arctic
    The remoteness and unforgiving climate of the Arctic have provided 
some protection from the extraordinary human expansion of the last 200 
years. Until recently the Beaufort and Chukchi seas were covered in sea 
ice for much of the year. Now, however, the region is changing. The 
dramatic reduction in Arctic sea ice over the last few years opens the 
Arctic Ocean to the possibility of unprecedented industrialization. The 
expansion of high-risk activities such as oil and gas exploration and 
development, large-scale commercial fishing, and shipping would add 
additional pressures to the already-stressed communities, animals, and 
ecosystems of the far north.
    The Arctic is at the forefront of global climate change. It is 
warming at twice the rate of the rest of the planet, and that warming 
is causing unprecedented losses of Arctic sea ice. In 2007, the 
seasonal minimum sea ice extent reached a record low--23% lower than it 
had been since 1979 when satellite measurements began. In 2008, the 
minimum sea ice extent was lower than any year but 2007. In addition, 
ice cover was more diffuse and the ice pack was thinner, suggesting 
that 2008 may have established a record low ice volume. The rate at 
which sea ice cover is declining exceeds even the most sensational 
predictions from just a few years ago, and scientists now predict the 
Arctic could be seasonally ice-free by 2030.
    This loss of sea ice dramatically alters the ways in which these 
ecosystems function and places them under profound stress. This stress 
is apparent in changes in the location of phytoplankton growth from the 
edge of the ice pack to the open water column, a likely increase of 
productivity in the more open water parts of the Beaufort and Chukchi 
seas, a general northward displacement of marine life to production 
regimes for which they are not entirely adapted, and the displacement 
of habitat for ice-dependent marine mammals from the most productive 
parts of the seafloor on which they depend to provide for their young.
    These stresses are compounded by a companion threat from ocean 
acidification. Rising levels of carbon dioxide in the atmosphere, which 
are attributable to fossil fuel combustion by humans, have increased 
the rate at which carbon dioxide dissolves into the surface of the 
ocean. Once dissolved, carbon dioxide reacts with water to form 
carbonic acid, making the ocean waters more acidic. The resulting 
acidity can attack the calcium carbonate that hardens the exoskeletons 
of a wide array of organisms ranging from some phytoplankton species to 
tube worms, clams, crabs, snails, corals, and many others. The Arctic 
is the most vulnerable ocean in the world to this acidification 
process. It is so vulnerable because carbon dioxide, like oxygen, is 
more soluble in cold water, and because the ability of surface seawater 
to neutralize the resulting carbonic acid is diluted by the large 
freshwater discharges of the Mackenzie and Yukon rivers in North 
America and similarly large rivers in Eurasia.
IV. Impacts of Offshore Oil, Leasing, Exploration, and Development in 
        the Alaskan Arctic
    At the same time these sensitive ecosystems are changing, large 
swaths of the Beaufort and Chukchi seas and Bristol Bay are being made 
available for oil and gas leasing. For much of the past several 
decades, efforts to expand oil production in Alaska have focused on 
terrestrial areas, and there was little attention paid to the Arctic 
Ocean. That has changed dramatically. Prior to 2008, no leases were 
owned in the Chukchi Sea. That year, the Minerals Management Service 
(MMS) held the first lease sale in that area since 1991. It offered 
more than 34 million acres of the outer continental shelf, and sold 
leases encompassing nearly 3 million acres. Under the current 2007-12 
Five-Year Planning Program, MMS plans to hold two additional lease 
sales in this area in which approximately 37 million acres would be 
offered to oil companies.
    Similarly, MMS is moving forward aggressively with leasing in the 
Beaufort Sea. Between 2003 and 2007, three lease sales were held in the 
Beaufort Sea. In those sales, oil companies purchased rights to leases 
encompassing more than one million acres. Under the current 2007-12 
Five-Year Planning Program, MMS plans to hold two additional lease 
sales in this area in which roughly 32 million acres would be offered 
to oil companies. The 2007-12 Five-Year Planning Program also includes 
a proposed sale encompassing 5.6 million acres in the sensitive Bristol 
Bay area and a ``special interest sale'' option for a sale in Cook 
Inlet.
    Much of what we have learned over the past twenty years from the 
Exxon Valdez oil spill applies directly to the leasing, exploration, 
and development in the Arctic. Given the remoteness and sensitivity of 
those marine systems, however, those threats may be magnified. We know 
relatively little about how these ecosystems function, especially north 
of the Bering Sea. While the Bering Sea has received increasing 
scientific attention over the last few decades, we still know almost 
nothing about processes that occur during winter, the critical season 
when death is most likely and hence when year class survival is most 
likely to be set. This dearth of knowledge is much worse north of the 
Bering Sea, where perennial Arctic sea ice has until recently limited 
our ability to even find out what organisms live there. The lack of 
scientific knowledge makes the impacts of oil and gas activities 
extremely difficult to predict, particularly in light of the rapid 
changes occurring there.
    The most dramatic risk, of course, is another catastrophic spill, 
and MMS estimates that at least one major spill is more likely than not 
over economic lifetimes of oil reserves in the Beaufort and Chukchi 
seas. In the environmental impact statement for the 2007-12 Five-Year 
Leasing Program, MMS estimates that there will be one large spill in 
either the Beaufort or Chukchi seas. In its 2008 Draft Environmental 
Impact Statement for the Chukchi and Beaufort Planning Areas produced, 
MMS estimates that there is a 40% chance of a large spill in the 
Chukchi Sea and a 26% chance of a large spill in the Beaufort Sea. 
These percentages may understate the risk because the final technology 
that would be deployed for oil extraction is not clear, and it is 
difficult to realistically account for human error.
    Given the dearth of experience with producing oil in waters exposed 
to seasonal pack ice and the acknowledged inability to respond to or 
clean up any oil releases in the presence of ice, the stage is being 
set for impacts that could substantially exceed those of the Exxon 
Valdez oil spill. Once again, Alaska Natives, whose continuous 
inhabitation of this region is longer by far than any other human 
settlement in North America, and who depend on the ocean for food and 
culture, stand to lose the most in the event of a major spill.
    In addition to a catastrophic spill, oil leasing, exploration, and 
development bring other threats to the Arctic. Offshore activities 
necessitate networks of pipelines needed to collect and transport the 
oil from the fields to the shore from as much as 50 miles away, new 
storage and port facilities along the coast, airstrips, marine vessel 
as well as aircraft and helicopter traffic. Together, these industrial 
facilities would cause: noise pollution from seismic testing, increased 
vessel traffic, and oil platform operations; increased likelihood of 
vessel strikes to marine mammals; transport of invasive species in 
ballast water or on the external surfaces of vessels and drilling rigs; 
and increased risk of pollution from oil and other contaminants 
associated with exploration and production. Many of these activities 
are occurring already. Seismic studies have been conducted in the 
Beaufort and Chukchi seas, and there are proposals to drill exploratory 
wells.
    Oil production in the Arctic would also increase air pollution and 
contribute to global warming by producing soot. Soot consists of black 
carbon particles formed by the incomplete combustion of fuels, 
including flares that may be used to dispose of excess natural gas 
produced by oil wells. These black carbon particles contribute to a 
positive feedback loop that could accelerate warming in the Arctic. The 
soot may eventually settle on ice and snow, where it can dramatically 
accelerate melting during spring and summer, transforming surfaces that 
reflect sunlight back into the atmosphere into liquid water, which 
efficiently absorbs sunlight. The absorbed sunlight warms the water, 
which warms the surrounding region, causing faster permafrost melting 
and releasing stored greenhouse gases, such as carbon dioxide and 
methane, into the atmosphere. The release of these greenhouse gases, in 
turn, causes more snow and ice to melt, which causes more warming, and 
so on. This positive feedback loop is amplified by the warming effect 
of the black carbon particles, which can accelerate the rate of warming 
across the whole planet. This increased warming, which 
disproportionately affects the Arctic, would place the marine 
ecosystems under commensurately increased stress.
    While we know these ecosystems face large and rapid stress, our 
ability to measure these impacts is severely limited by the logistical 
challenges of sampling in this region and the paltry baseline data 
available. In such a situation, it is prudent to proceed cautiously and 
avoid adding additional stress to the system unless absolutely 
necessary. The current and proposed leasing in the Arctic do not meet 
either of these criteria. As discussed above, these activities will 
dramatically increase the stress on the region. In addition, reserves 
in the Beaufort and Chukchi lease areas would supply only a small 
fraction of the U.S. energy needs. Thus, their necessity is 
questionable, and these activities should not be considered in the 
absence of a comprehensive plan to move toward renewable energy and 
sustainable living.
V. Science-Based, Precautionary Management
    On the 20th anniversary of the Exxon Valdez spill, we stand at a 
crossroads in the way the United States approaches energy and our 
oceans. As detailed above, we have learned much about the effects of 
oil in our oceans and the risks from offshore activities. At the same 
time, we know that we have a relatively poor understanding of the 
functioning of Arctic ecosystems and that we cannot effectively respond 
to or clean up an oil spill in the Arctic. While twenty years ago we 
might have pleaded ignorance, there is no excuse now for failing to 
address the risks and unknowns as we make decisions about our oceans.
    For those reasons, we must stop the ongoing and planned leasing, 
seismic, and other activities in the Beaufort and Chukchi seas and 
Bristol Bay. Instead of rushing ahead in the absence of science and 
thorough planning, the federal government should develop a 
comprehensive Arctic conservation and energy plan based on a full 
scientific assessment of the health, biodiversity, and functioning of 
Arctic ecosystems to guide decisions about whether, when, where, and 
how industrial activities are permitted. Creating a comprehensive plan 
would begin with a gap analysis and research plan developed by 
independent scientists, such as the National Research Council. Further, 
the plan could be created in conjunction with broader climate and 
energy plans for America.
    Such an approach has been started with regard to commercial fishing 
in the Arctic. In February 2009, the North Pacific Fishery Management 
Council (NPFMC) adopted a fishery management plan for the Beaufort and 
Chukchi seas. In recognition of the profound stresses on those 
ecosystems and our very limited knowledge of them, that plan precludes 
commercial fishing in U.S. Arctic waters until scientific evidence 
shows that such fishing can be conducted without harming the ecosystem 
or opportunities for the subsistence way of life. The plan was adopted 
unanimously and with support from scientists, industry, Native 
entities, and conservation groups. This ``look before we leap'' 
approach provides a model for addressing other proposed activities in 
the region.
    Developing a comprehensive plan for the Arctic would involve 
coordinating expertise from a variety of sources including government 
agencies (such as NOAA, FWS, MMS, BLM, the Coast Guard, EPA), local 
governments, Native entities, scientists, and others. An interagency 
task force should be created to incorporate their expertise and actions 
related to the Arctic. This task force would oversee the creation and 
implementation of an Arctic conservation and energy plan and could be 
headed by a new position in CEQ or by the NOAA Administrator. As this 
process proceeds, local and traditional knowledge must play an 
important role.
    Further, for any areas in which oil and gas activities are 
considered, we must ensure that they can be conducted without harming 
ecosystems or impacting the subsistence way of life. Doing so requires 
the best available technology and, at minimum:
    a.  Clear evidence that accidents can be controlled, contained and 
cleaned up;
    b.  Adequate response capabilities, including tugs, booms, 
equipment and trained on-site personnel;
    c.  Zero discharge of produced waters, drilling muds, or other 
byproducts;
    d.  Monitoring and tracking for all vessels and materials; and
    e.  Processes and procedures to protect marine mammals and other 
resources from the effects of seismic activities, noise, and other 
pollution;
    A comprehensive, science-based plan for managing ocean resources 
and appropriate standards for any activities permitted are only one 
part of the equation. At the same time, we must work to develop 
alternative sources of energy, such as wind, and, we must provide 
incentives to conserve.
    I live in Juneau, Alaska, a town of 31,000 people that is run 
almost entirely on hydropower. Last April, an avalanche severed the 
transmission line from our power source, forcing us to immediately 
switch to diesel-generated electricity and increasing costs by 500% 
overnight. Within a week, we lowered our consumption of electricity by 
over 30%. We did mainly this by reducing needless waste. No businesses 
closed, no one froze and, while the stores ran out of compact 
fluorescent light bulbs, life went on pretty much as normal. Even after 
the transmission line was fixed, our consumption rate has remained 
about 10% below what it was.
    Through simple conservation efforts, the United States could 
achieve similar savings. Even a 10% reduction of petroleum consumption 
would remove nearly 2 million barrels of oil per day from the oil 
market, which would lower the price of gas much more quickly than the 
decades required for new oil reserves to come on-line. Besides lowering 
the price of gas for everyone, this relatively small conservation 
effort would improve our balance of payments, reduce our reliance on 
foreign sources of oil, and lower our emissions of carbon dioxide to 
the atmosphere. It would slow both global warming and ocean 
acidification, set a compelling example to the rest of the world, and 
preclude placing the last great biological strongholds in jeopardy from 
oil pollution. Were we to actually achieve a 30% reduction in fossil 
fuel use through conservation, the improvement in the atmosphere would 
be detectable within a year. Were we to augment the savings from 
conservation with a deliberate transition to alternative energy sources 
combined with more efficient ways of using energy, we could cut our 
carbon dioxide emissions in half much sooner than we currently think 
possible. Indeed, energy from offshore wind sources has the potential 
to replace fossil fuels for electrical power generation in much of the 
northeastern U.S. and southern California. We will still need fossil 
fuel generation if only for back-up supplies, but it does not have to 
be the dominant source of power generation. We must demonstrate the 
will and leadership to accomplish these goals. When I was young, we 
made a national commitment to go to the moon in ten years, and what we 
face today to change our power generation infrastructure is not nearly 
as technologically challenging.
VI. Conclusion
    As I think back on the last twenty years, I am struck by cyclical 
nature of these events. Before the Exxon Valdez oil spill, we were told 
that oil development was safe and necessary. In the intervening 
decades, science has shown us that it is not. While we have made some 
progress in transport safety as well as response and rescue capability, 
we still cannot clean up a spill in Arctic waters, and we still do not 
understand those systems--let alone how they might be affected by 
industrial activities. Nonetheless, oil companies and others would have 
us believe that, this time, it will be fine. This time, we should be 
smart enough to recognize all that we don't know and all that we stand 
to lose.
    For those reasons, we must stop all ongoing and planned activities 
offshore in Alaskan waters and begin the development of a science-
based, precautionary conservation and energy plan for the Arctic that 
provides a bridge from oil to renewable energy and conservation. We 
also must reinstate and extend the moratoria on offshore drilling in 
U.S. waters. We owe it to ourselves and those whose lives depend on 
preventing a repeat of the Exxon Valdez oil spill.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Short.
    And as Chair now I recognize Dr. Kathrine Springman to 
testify.

   STATEMENT OF DR. KATHRINE R. SPRINGMAN, ASSISTANT EDITOR, 
                 MARINE ENVIRONMENTAL RESEARCH

    Ms. Springman. Thank you, Chairwoman Bordallo, Chairman 
Costa, and members of the committee.
    I am a toxicologist who is here today to answer some of 
your questions about the biological effects----
    Ms. Bordallo. Is your microphone on?
    Ms. Springman. About the biological effects of oil-
drilling. Other oil-producing nations, such as Norway, have 
established more stringent controls on oil exploration and 
production, and these have been codified and enforced.
    Norway has a zero-discharge policy that has been in place 
for several years. Steidl Hydro, a Norwegian energy company, is 
the largest offshore oil and gas drilling company in the world, 
and operates within these requirements.
    Prior to drilling, Norway requires that baseline data be 
collected. These data describe what the area under exploration 
was like prior to any exploration or extraction of resources, 
and these serve as a basis for comparison to evaluate the 
environmental performance of those who wish to drill.
    Additionally, technologies to detect damages and assess 
their real or potential effects on wildlife are also available, 
and have been tested with oil. These technologies are another 
facet of what should be required.
    The presence of risk requires monitoring on a regular, 
repeated basis. The precautionary principle bears repeating 
here. When an activity raises threats of harm to the 
environment or human health, precautionary measures should be 
taken, even if some cause-and-effect relationships are not 
fully established scientifically. In this context, the 
proponent of an activity, rather than the public, bears the 
burden of proof.
    Thanks to methodical research in this area, we have learned 
a great deal about the effects of oil over some of the various 
time scales involved. Among the more salient points concerned, 
how oil can last in a form that is available for uptake by 
wildlife, and the type of damage that can result.
    In a recently published study, fuel oil that was released 
in the 1964 Alaska earthquake was found by digging about 10 
centimeters below the surface. This oil was capable of 
stimulating a pronounced enzymatic response in fish dosed with 
it.
    Oil associated with organic-rich source rock, such as coal, 
has no effect, as the hydrocarbons associated with it cannot be 
taken up. Petroleum hydrocarbons from seeps do not travel far 
enough to affect any sampling or wildlife from sites that were 
used in this study, and any human effects were inconsequential.
    Nonpoint-source pollution has been discussed as a primary 
source of coastal marine pollution. But that would depend on 
many of the same factors that impact the sensitivity of a site 
to drilling. It may be useful to examine the interactions of 
the various stressors found at specific coastal locations for 
both of these applications.
    Identifying the risks involves in resource extraction prior 
to making a decision impacting numerous levels involves 
integrating knowledge and skills from various fields.
    One of the problems here is that we are just now beginning 
to learn crucial details about the interactions and behavior of 
wildlife, and their interactions with their habitat, the 
effects of continuous, long-term hydrocarbon exposure, and the 
generational consequences of interactions with hydrocarbons.
    Familiarity with the components of a system are necessary 
when assessing the potential risks. We are still acquiring the 
knowledge needed to make wise decisions having a long-range 
impact, and making them before the information to do so is 
available can have continuing effects for the areas in question 
and the wildlife involved. This requires extended studies to 
examine these target sites, as the impact factors change.
    Among the crucial points in this discussion is the length 
of time for which an impacted area and its resources will be 
affected by drilling. There are several factors to consider. 
Oil is a complex mixture of hundreds of compounds that degrade 
at different rates, and the composition varies with location. 
Petroleum hydrocarbons can manifest toxicity in various ways, 
on a range of time scales. These compounds can elicit toxic 
effects on an acute timeframe, as well as affect wildlife for 
decades in subtle ways.
    Data strongly suggest that oil becomes more toxic on a 
volumetric basis as it ages, as those compounds that remain are 
among the most toxic. Many of these remaining compounds are 
among the list of probable human carcinogens. Their toxicity 
can be manifested in wildlife, as pronounced demographic 
changes in a wildlife of a region, and for long periods of 
time.
    The time required for recovery from one large incident or 
chronic continuous exposure is uncertain, and depends on many 
factors.
    In closing, many more factors are needed to be taken into 
consideration prior to allowing OCS drilling. Due to the 
variability of these issues, each zone should be considered 
separately to minimize the risk of damage to the areas 
involved.
    I would be delighted to work with the committee in any way 
to implement new technologies and models for accurate 
assessments of drilling impacts. And thank you very much.
    [The prepared statement of Ms. Springman follows:]

          Statement of Kathrine Springman, Assistant Editor, 
                     Marine Environmental Research

    Mr. Chairman and members of the committee: My name is Kathrine 
Springman, and I'm a toxicologist who is here today to answer some 
questions about the biological effects of OCS oil drilling.
    Other oil producing nations such as Norway have established more 
stringent controls on oil exploration and production, and these have 
been codified and enforced. Norway has a Zero Discharge Policy that has 
been in place for several years. A copy of some of this material is 
attached for your review.
    Prior to drilling, Norway requires that baseline data be collected. 
These data describe what the area under exploration was like prior to 
exploration or extraction of any resources, and serve as a basis for 
comparison to evaluate the environmental performance of those who wish 
to drill. One of the biggest stumbling blocks to assessing damage is 
the lack of baseline data. Additionally, technologies to detect 
discharges and assess their affects on wildlife are now available, and 
have been tested. These technologies are another facet of what should 
be required. The presence of risk requires monitoring on a regular, 
repeated basis.
    Thanks to methodical research in this area, we have learned a great 
deal about the effects of oil over some of the various time scales 
involved. Among some of the more salient points concerned how long oil 
can last in a form that is available for uptake by wildlife, and the 
type of damage that can result. In a recently-published study, fuel oil 
that was released in the 1964 Alaska earthquake was found by digging 
about 10 cm below the surface. This oil was bioavailable and capable of 
stimulating a pronounced enzymatic response in fish dosed with it. Oil 
associated with organic-rich source rock such as coal had no effect, as 
the hydrocarbons associated with it cannot be taken up by wildlife. 
Petroleum hydrocarbons from seeps do not travel far enough to affect 
any sampling or wildlife from sites that were used in this study, and 
any human effects were inconsequential. Non-point source pollution has 
been discussed as the primary source of coastal marine pollution, but 
that would depend on many of the same factors that impact the 
sensitivity of a site to drilling. It may be useful to examine the 
interactions of the various stressors found at specific coastal 
locations for both of these applications.
    Identifying the risks involved in resource extraction prior to 
making a decision impacting numerous levels involves integrating 
knowledge and skills from various fields. One of the problems here is 
that we're just now beginning to learn crucial details about the 
interactions and behavior of wildlife and their interactions with their 
habitat, the effects of continuous, long-term hydrocarbon exposure, and 
the generational consequences of the interaction of hydrocarbons. 
Familiarity with the components of a system is necessary when assessing 
the potential risks. We're still acquiring the knowledge needed to make 
wise decisions having a long-range impact, and making them before the 
information to do so is available can have continuing effects for the 
areas in question and the wildlife involved. This requires extended 
studies to examine these target sites as the impact factors change. One 
of these is climate. Where climate changes, ecosystems will do the 
same. Their sensitivity to disruption may be one of the characteristics 
that alters.
    Among the critical points in this discussion is the length of time 
for which an impacted area and its resources will be affected by 
drilling. There are several factors to consider: oil is a complex 
mixture of hundreds of compounds that degrade at different rates, and 
the composition varies with location. Petroleum hydrocarbons can 
manifest toxicity in various ways on a range of time scales. These 
compounds can elicit toxic effects on an acute time frame as well as 
affect wildlife for decades in subtle ways. Data strongly suggest that 
oil becomes more toxic on a volumetric basis as it ages as those 
compounds that remain are among the most toxic. Many of these remaining 
compounds are among the list of probable human carcinogens. Their 
toxicity can be manifested in wildlife as pronounced demographic 
changes in the wildlife of a region, and for long periods of time. The 
time required for recovery from one large incident or chronic, 
continuous exposure is uncertain, and depends on many factors including 
the definition of ``recovery''. This underscores the importance of 
baseline data prior to beginning any activity.
    Another aspect to consider is that released oil is not the only 
concern in drilling. Drilling fluids and produced water can be toxic to 
wildlife when discharged, while drill cuttings can impact the 
characteristics of the receiving environment. Determining the risk 
depends on the quantity of the material discharged, its 
characteristics, the time over which the discharge takes place, the age 
of the production fields involved, the depth of the receiving area, the 
diffusion potential of the released material, the sensitivity of the 
receiving environment, and confounding factors such as hurricanes. 
Consequently, responsible stewardship requires that these differences 
be considered prior to permitting oil drilling in potentially sensitive 
areas. The Zero Discharge Policy prohibits discharges from sources 
other than sea water. Preventing pollution by refraining from it is a 
prudent policy.
    In closing, many more factors need to be taken into consideration 
prior to allowing OCS drilling. Due to the variability of these issues, 
each site should be considered separately to minimize the risk of 
damage to the areas involved.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Springman.
    And now I recognize Dr. Christopher Clark to testify for 
five minutes.

    STATEMENT OF CHRISTOPHER W. CLARK, PH.D., I.P. JOHNSON 
  DIRECTOR, BIOACOUSTICS RESEARCH PROGRAM, CORNELL UNIVERSITY 
                   LABORATORY OF ORNITHOLOGY

    Mr. Clark. Thank you, Chairwoman Bordallo and Chairman 
Costa, Ranking Members Lamborn and Brown.
    It is with hope and some foreboding that I provide this 
testimony. I am here to convey these four important messages.
    Marine animals--for example, whales, fishes, lobsters, and 
crabs--depend on sound and a clean acoustic environment to 
survive. Increasingly, human activities in the ocean are 
generating sounds that compete with the animals. Many marine 
habitats are now acoustically urbanized and industrialized.
    In many areas there is so much acoustic smog and 
interference from human activities, that for all intents and 
purposes, the ocean's acoustic environment is bleached and 
cluttered with acoustic debris. There is now evidence that for 
whales, and probably for fish, human noise is both an acute and 
a chronic problem.
    We do not understand the full scope of the ocean noise 
problem from human activities in the marine environment. We do 
not know the short-term or the long-term cost, the small-scale 
and large-scale impacts, or the cumulative effects from all 
this added noise combined with other stressors, as mentioned 
previously.
    Last, I believe there are opportunities for finding 
sustainable solutions that are both ecologically responsible 
and economically viable.
    I am an authority on the marine acoustic world as it 
pertains to the whales. I study such questions as how do whales 
use sound to communicate, how do they use it to survive. What 
are they saying, what are they listening to. And how do human 
activities impact their chances for survival.
    Communication is a central part of human society. When our 
communication fails, as you all know, we suffer the 
consequences.
    Whales are no different. They depend on communication to 
maintain their social bonds, to make new ones, to exchange 
messages, to convey information about food, predators, ocean 
tides, migrations, and mating opportunities. All the basics of 
life in an ocean world.
    Sound in the ocean is the communication medium of 
necessity, especially if you must send your messages to the 
largest audience possible, or if you want to listen for 
threats.
    There are no fish that are known to be deaf. There 
certainly are no whales or dolphins that are known to be deaf. 
If you want to survive in the ocean, you have to listen, and 
you have to produce sound.
    As a result of human activities, ocean noise levels in some 
places have increased 100 to 1,000 times above what they were 
50 to 60 years ago. This noise increase affects some of the 
quietest places on earth, such as the OCS of Alaska. These high 
noise levels significantly reduce the chances of whales to 
communicate.
    On a very clear day, a blue whale, the largest animal ever 
to live on this planet, can see out as far as maybe the length 
of a football field. In contrast, on a very quiet day, that 
same whale can be heard as far away as we are now from Boston, 
and on an exceptionally quiet day, as far away as we are now 
from Miami. Those quiet days are now rare.
    As illustrated in figure 1, which I provided, the area over 
which a blue whale could have communicated 60 years ago is now 
dramatically smaller. It is roughly 10 percent of what it could 
have communicated over when it was a teenager or a young adult.
    We know that sounds associated with commercial activities, 
both exploratory and operational, inject large amounts of noise 
into the ocean. In many areas along our coastlines, the ocean 
is so noisy that if we applied OSHA standards, the whales would 
be required to wear ear protection. And I provided some scenes, 
acoustic scenes, of quiet and noisy ocean, and I could even 
play you sounds.
    We can now quantify how changes in noise from our 
activities impact the abilities of whales to communicate. For 
example, in the Stellwagen Bank National Marine Sanctuary off 
Boston, places where whales aggregate to socialize and feed, 
average noise levels are so high that the whales have lost 
between 80 percent to 90 percent of their opportunities to 
communicate. Their society is being constantly interrupted by 
the noises of ship traffic, 24 hours a day, 365 days a year.
    What have the whales done about this? Well, first they 
raised their voices a little bit higher, but then they have now 
given up. The result is that they stop communicating. That 
means that the whales can't find mates, and they are having 
trouble finding food.
    I believe it is possible to responsibly explore and exploit 
the OCS such that the acoustic world of marine mammals is 
respected and protected. As an example, I am going to show you, 
or I can tell you about, a collaboration between industry and 
scientific solutions and institutions. And this was brought up 
just previously by Ian Bowles, off Massachusetts, because that 
is where this was done.
    Through a collaboration between universities and scientific 
industries, and with oversight from multiple Federal and state 
agencies, we have successfully implemented a marine acoustic 
observation network off Boston. You can go online and see it, 
it is real-time. This automated network allows LNG businesses 
to operate offshore, while protecting whales in a critical 
habitat.
    In summary, I would emphasize, the critical need for 
comprehensive ocean planning, the importance of converting 
existing and future marine sanctuaries into true sanctuaries, 
the need for a comprehensive review of OCS resources, as has 
been mentioned before, and my sincere conclusion that 
sustainable solutions can and will be achieved by working 
together, doing cutting-edge science and getting the facts 
straight so that we collectively make the right decisions.
    If we don't get the oceans right, our world is not 
sustainable.
    Thank you very much for this opportunity to testify.
    [The prepared statement of Mr. Clark follows:]

      Statement of Christopher W. Clark, Ph.D., Senior Scientist, 
     Neurobiology & Behavior, Cornell University, Director of the 
       Bioacoustics Research Program, Cornell Lab of Ornithology

    Thank you Chairman Costa, Chairwoman Bordallo, Ranking Members 
Lamborn and Brown, and other members of the Committee for holding these 
hearings and for inviting me to be here today to speak with you.
    It is with hope and some foreboding that I provide this testimony.
    I want to convey these important messages to you today:
    1.  Marine animals (e.g., whales, fishes, lobsters & crabs) produce 
and listen to sound. They depend on sound and a clean acoustic 
environment to survive.
    2.  Increasingly, human activities in the ocean are generating 
sounds that compete with the animals, so much so that many marine 
habitats are now acoustically urbanized or industrialized. In many 
areas there is so much acoustic smog and interference from human 
activities that for all intents and purposes the ocean's acoustic 
environment is bleached and cluttered with acoustic debris. There is 
now evidence that for whales, and probably for fish, human noise is 
both an acute and a chronic problem.
    3.  We do not understand the full scope of the ocean noise problem 
as a result of human activities in the marine environment. We do not 
know the short-term or long-term costs, the small-scale and large-scale 
impacts, or the cumulative effects from all this added noise combined 
with other stressors.
    4.  I believe there are opportunities for finding solutions that 
are both ecologically responsible and economically viable.
    I am one of the world's foremost authorities on the marine acoustic 
world as it pertains to the large whales; the giants whose voices can 
be heard across an ocean basin. This is the acoustic world I understand 
very well. The primary focus of my scientific research is in marine 
mammal communication, with particular expertise in underwater sound and 
whale acoustic communication. I study such questions as: How do whales 
use sound to survive? What are whales saying? What are they listening 
to? How do human activities impact their chances of survival? Since 
1982 I have conducted multiple, highly collaborative scientific 
research projects to obtain data on acoustic impacts from Navy sonars, 
oil & gas activity sounds and commercial shipping noise. I have also 
devoted considerable effort to describing and understanding the spatial 
and temporal scales over which marine mammals communicate and how human 
activities are changing their marine acoustic environment. More 
recently, using my skills as an engineer and a biologist, I have helped 
build a functional collaboration between industry and scientific 
institutions, with oversight from multiple federal and state agencies, 
to implement a marine acoustic observation network off Boston (http://
listenforwhales.org); this automated network allows LNG businesses to 
operate offshore while protecting whales in a critical habitat.
    Communication is a central part of human society. It is woven into 
the fabric of our lives. We depend on our eyes and ears and voices to 
communicate. When our communication fails, we suffer the consequences.
    Whales are no different. They depend on communication to maintain 
their social bonds, to make new ones, to exchange messages; to convey 
information about food, predators, ocean tides, migrations, and mating 
opportunities--all the basics of life in an ocean world.
    If you live in the ocean one very big difference compared to living 
on land is that in the ocean light does not travel very far, but sound 
does. Sound in the ocean is the communication medium of necessity, 
especially if you must send your message to the largest audience 
possible or if you want to listen for threats. There are no fish that 
are known to be deaf. There are no marine mammals that are known to be 
deaf, and there certainly are no whales or dolphins that are known to 
be deaf.
    As a result of human activities, ocean noise levels in some places 
have increased 100 to 1000 times above what they were 50 to 60 years 
ago. This noise increase affects some of the quietest places on earth, 
such as the OCS of Alaska, as a result of seasonal human activities 
such as O&G explorations. These high noise levels are now significantly 
reducing the chances for whales to communicate. This problem most 
likely applies to more than just whales. If time allows during this 
session I am prepared to present examples of what the ocean sounds like 
under these different quiet and noisy conditions.
Whales have lost significant portions of their acoustic habitats as a 
        result of increased ocean noise.
    On a very clear day a blue whale (the largest animal ever to live 
on this planet) can see out as far as the length of a football field. 
On a very quiet day that same whale can be heard as far away as we are 
now from Boston, and on an exceptionally quiet day as far away as we 
are now from Miami. Those quiet days are now rare. As illustrated here, 
the area over which a blue whale could have communicated 60 years ago 
is dramatically smaller today as a result of ocean noise.
[GRAPHIC] [TIFF OMITTED] T8185.007

The impact of high ocean noise levels on whale communication can now be 
        measured.
    As the level of noise rises in the ocean, the ability to 
communicate falls. Thanks to an immense amount of basic and applied 
research, conducted or funded mostly by the Navy, we now have a very 
good idea of how sound travels and behaves in the ocean, so we can 
accurately and precisely predict how sound spreads through the ocean.
    We know that sounds associated with commercial activities, both 
exploratory and operational, inject large amounts of noise into the 
ocean. So for example, in many areas along our coastlines the ocean 
noise level is such that the habitat is now ``urbanized'' and in some 
places the noise level is so high that the habitat would qualify as 
``industrialized''. At times, in fact, it is so noisy that if we 
applied OSHA standards the whales would be required to wear ear 
protection.
[GRAPHIC] [TIFF OMITTED] T8185.008

[GRAPHIC] [TIFF OMITTED] T8185.009

    The North Atlantic right whale is one of the rarest whales on this 
planet. It inhabits the ocean from Maine to Florida. This population 
has experienced a dramatic loss in its acoustic habitat, and that loss 
results in a dramatic loss in communication.
    We can now quantify how changes in noise from our activities impact 
the ability of whales to communicate. Thus, for example, in the 
Stellwagen Bank National Marine Sanctuary off Boston or in nearby Cape 
Cod Bay, places where whales aggregate to socialize and feed, average 
noise levels are so high that the whales have lost between 80-90% of 
their opportunities to communicate. Their society is being constantly 
interrupted by the noises of ship traffic; 24h a day, 365 days a year. 
What have the whales done in response to all this noise? First, they 
raised the pitch of their voices to be twice as high as it was 20 years 
ago. Second the whales simply stop calling. The result is that the 
communication system is being constantly broken. This means that the 
whales can't find mates, and they have trouble finding food. These are 
not good indicators for survival.
There are things that can and are being done to reduce the impacts of 
        offshore development on whales.
    Can we responsibly explore and exploit the OCS such that the 
acoustic world that the whales and other marine animals depend on is 
respected and protected? Based on past performance, I have serious 
doubts, but I am an optimist. Furthermore, I have recently been engaged 
in a project that gives me hope. Through a functional collaboration 
between industry and scientific institutions, and with oversight from 
multiple federal and state agencies (e.g., Commerce, Transportation, 
USACE, USCG and MADMF) we have successfully implemented a marine 
acoustic observation network off Boston (http://listenforwhales.org); 
this automated network allows LNG businesses to operate offshore while 
protecting whales in a critical habitat.
[GRAPHIC] [TIFF OMITTED] T8185.010

    Before ending, I would like to state for the record my agreement 
with statements put forth by previous testimonies to this committee, 
and to add several extensions to those testimonies. These include:
    1.  The critical need for comprehensive ocean planning,
    2.  The importance of converting existing and future marine 
``sanctuaries'' into true sanctuaries.
    3.  The need for a comprehensive review of OCS resources including 
a comprehensive cost-benefit analysis and objective assessment of long-
term risks to ocean ecosystems.
    4.  The desperate need for increased scientific understandings of 
marine ecosystems over biologically meaningful scales; spatial, 
temporal and organism-based.
    5.  My sincere conclusion that solutions can and will be achieved 
by working together, doing cutting-edge science, and getting the facts 
straight so that we collectively make the right decisions.
    Thank you very much for this opportunity to testify today on this 
important issue, and I welcome a constructive discussion toward real 
solutions.
                                 ______
                                 
    Ms. Bordallo. Thank you, Dr. Clark.
    And the last witness we will recognize is Mr. Brad Gilman.

  STATEMENT OF BRAD GILMAN, ON BEHALF OF MAYOR STANLEY MACK, 
          MAYOR OF THE ALEUTIANS EAST BOROUGH, ALASKA

    Mr. Gilman. Thank you. Thank you for inviting the Aleutians 
East Borough Mayor, Stanley Mack, to present the perspective of 
the Aleutians East Borough on the proposed North Aleutian Basin 
oil and gas lease sale.
    Mayor Mack is in Norway this week, researching Norway's 
experience with balancing the needs of fishing communities and 
the offshore oil and gas industry. He has asked me to present 
his testimony before your two Subcommittees.
    The Aleutians East Borough stretches over 300 miles along 
the eastern side of the Aleutian Islands, and consists of the 
communities of Sand Point, Nelson Lagoon, King Cove, False 
Pass, Cold Bay, and Akutan, with a total number of residents 
just over 2600.
    These communities are dependent on subsistence in 
commercial fishing, can only be accessed by plane or boat, and 
are situated among the most remote and rugged terrain in the 
United States.
    A recent study by the State of Alaska's Department of Labor 
and Workforce Development labeled the Borough's residents among 
the most diverse in the state, consisting of a mix of native 
Aleuts, Asian and Pacific Islander, and Caucasian.
    The 2000 census recorded unemployment rates as high as 33 
percent in the region, with a poverty rate higher than the 
national average. The economic opportunities for the East 
Aleutian people are extremely limited, and are almost entirely 
dependent on commercial fishing, with salmon and cod as the 
most important fisheries.
    The region doesn't have any tourism to speak of, and there 
are no mining, timber, or sport fishing industries. The East 
Aleutian fisheries must be healthy, may be healthy from a 
sustainability standpoint, but economically, it is a different 
situation.
    In the late 1980s and early 1990s, ex-vessel prices for 
sockeye salmon, the region's most valuable salmon species, were 
well over two dollars a pound. They now hover at around 60 to 
70 cents a pound, as a result of the increased competition from 
subsidized farm fish from overseas. Fuel prices in the region, 
at the same time, have gone up by nearly a factor of five in 
the same period. The East Aleutian fishermen are barely hanging 
on.
    As a result, the Eastern Aleuts are losing many of our 
long-term residents. The population of school-age children has 
plummeted. Over the last 30 years, the borough communities of 
Unga, Belikofsky, Squaw Harbor, and Sanak have become ghost 
towns. Community abandonment is a very real issue to the 
Eastern Aleuts.
    These changing economic circumstances have forced the 
borough to examine other economic opportunities, and to be as 
creative as possible in seeking them out.
    We believe that the offshore oil and gas development in the 
North Aleutian Basin could produce two to three hundred jobs in 
our region alone. That would be a major factor in sustaining 
these communities economically.
    The plan currently adopted by the Department of the 
Interior would permit oil and gas drilling in the North 
Aleutian Basin, pending completion of an environmental impact 
statement. As the nearest local Alaskan Government to the lease 
sale area, the borough has been given cooperating agency status 
for purposes of the EIS process. Mayor Mack also serves on the 
Department of the Interior's OCS Advisory Committee.
    The borough has been investigating the impacts of the OCS 
on fishing communities for over 25 years. In the 1980s, borough 
officials traveled to the Shetland Islands to discuss the 
impacts of OCS development on the local people. The borough 
also convened a symposium, which was attended by local 
governments from the north slope and other OCS-impacted areas.
    Most recently, the Mayor has visited Norway to learn 
firsthand of the Norwegians in developing their offshore 
resources in a manner which protects fishermen and fishing 
communities. The Norwegians appear to have been able to allow 
the oil and gas industry to coexist with coastal residents 
dependent on the commercial and subsistence fishing industries.
    In all of these situations, the borough asked local 
government officials for advice on how to best safeguard the 
region's fisheries and subsistence lifestyle. The borough's 
proposed mitigation measures have evolved over a 25-year 
stretch, based on the experience of diverse coastal 
communities.
    Mayor Mack has submitted for the record the mitigation 
measures of the Aleutians' East Borough that we presented to 
the Minerals Management Service for the North Aleutian Basin 
sale. I would invite you to actually take a look at them; they 
are well thought out, they are on our website. They deal with 
the issue of fisheries inventory, baseline studies, mapping and 
charting of coastal habitat, and critical habitat nursery 
grounds.
    A lot of the issues that we have heard discussed with the 
first panel are actually addressed in the borough's proposed 
mitigation measures.
    The borough will be aggressive during the EIS process to 
ensure that these mitigation measures and environmental 
protections are built into the final plan for the North 
Aleutian sale. Concurrently, the borough will be pressing 
prospective bidders on the leases to guarantee the hiring of 
local residents and businesses.
    Mr. Costa. If the gentleman could please close.
    Mr. Gilman. Very good.
    Mr. Costa. Are you done?
    Mr. Gilman. Yes, I will stop there.
    [The prepared statement of Mayor Stanley Mack follows:]

            Statement of The Honorable Stanley Mack, Mayor, 
                     Aleutians East Borough, Alaska

    Thank you for inviting Aleutians East Borough Mayor Stanley Mack to 
present the perspective of the Aleutians East Borough on the proposed 
North Aleutian Basin oil and gas lease sale. Mayor Mack is in Norway 
this week researching Norway's experience with balancing the needs of 
fishing communities and the offshore oil and gas industry. He has asked 
me to present his testimony before your two Subcommittees.
    The Aleutians East Borough stretches over 300 miles along the 
eastern side of the Aleutian Islands and consists of the communities of 
Sand Point, Nelson Lagoon, King Cove, False Pass, Cold Bay, and Akutan, 
with a total number of residents just over 2,600. These communities are 
dependent on subsistence and commercial fishing, can only be accessed 
by plane or boat, and are situated among the most remote and rugged 
terrain in the United States.
    A recent study by the State of Alaska's Department of Labor and 
Workforce Development labeled the Borough's residents among the most 
diverse in the state, consisting of a mix of Native Aleuts, Asian & 
Pacific Islander, and Caucasians. The 2000 Census recorded unemployment 
rate of 33 percent in the region, with a poverty rate higher than the 
national average. The economic opportunities for the East Aleutian 
people are extremely limited and are almost entirely dependent on 
commercial fishing, with salmon and cod as the most important 
fisheries. The Region doesn't have any tourism to speak of and there is 
no mining, timber or sport fishing industry.
    The East Aleutian fisheries may be healthy from a sustainability 
standpoint, but economically it is a different situation. In the late 
1980s and early 90s, ex-vessel prices for sockeye salmon, the Region's 
most valuable salmon species, were well over $2.00 a pound. They now 
hover at around 60 to 70 cents a pound as result of increased 
competition from subsidized farmed fish from overseas. Fuel prices in 
the region at the same time have gone up by nearly a factor of 5 in 
that same period. The East Aleutian fishermen are barely hanging on.
    As a result, the East Aleutians are losing many of our long-term 
residents. The population of school age children has plummeted. Over 
the last 30 years, the Borough communities of Unga, Belikofsky, Squaw 
Harbor and Sanak have become ghost towns. Community abandonment is a 
very real to the Eastern Aleuts. These changing economic circumstances 
have forced the Borough to examine other economic opportunities and to 
be as creative as possible in seeking them out.
    The plan currently adopted by the Department of the Interior would 
permit oil and gas drilling in the North Aleutian Basin, pending 
completion of an Environmental Impact Statement. As the nearest local 
Alaskan Government to the lease sale area, the Borough has been given 
Cooperating Agency status for purposes of the EIS process. Mayor Mack 
serves on the Department of the Interior's OCS Advisory Committee. The 
Borough has been investigating the impacts of the OCS on fishing 
communities for over twenty-five years. In the 1980s, Borough officials 
traveled to the Shetland Islands to discuss the impacts of OCS 
development on the local people. The Borough also convened a symposium 
which was attended by local governments from the North Slope and other 
OCS-impacted areas. Most recently, the Mayor has visited Norway to 
learn firsthand the experience the Norwegians in developing their 
offshore resources in a manner which protects fishermen and fishing 
communities. The Norwegians appear to have been able to allow the oil 
and gas industry to co-exist with coastal residents dependent on the 
commercial and subsistence fishing industries. In all of these 
situations, the Borough asked local government officials for advice on 
how to best safeguard the region's fisheries and subsistence lifestyle. 
The Borough's proposed mitigation measures have evolved over a twenty-
five year stretch based on the experience diverse coastal communities.
    Mayor Mack would like to submit for the record the mitigation 
measures that the Borough has presented to the Minerals Management 
Service for the North Aleutian Basin sale. The Borough will be 
aggressive during the EIS process to ensure that these mitigation 
measures and environmental protections are built into the final plan 
for the North Aleutian sale. Concurrently, the Borough will be pressing 
prospective bidders on the leases to guarantee the hiring of local 
residents and businesses.
    Opponents of the North Aleutian Basin sale have mislabeled it as 
``stopping drilling in Bristol Bay.'' The Bristol Bay communities are 
roughly 200 miles away. The Aleutians East communities are the closest 
ones to the sale and would be most affected by any accident. Statements 
and comments in the media make it sound like the sale is opposed by 
``Bristol Bay'', as if the region is one singular body that speaks with 
one voice. That is not the case. In fact, the Bristol Bay Borough and 
Lake and Peninsula Borough, the two area governments, have passed 
resolutions supporting inclusion of the North Aleutian Basin into the 5 
year OCS Plan with proper mitigation. The Bristol Bay Native 
Corporation and the Aleut Corporation, representing many area Alaska 
natives, are also in favor of moving the process forward. The right 
approach is to allow MMS to complete the EIS process. The Aleutians 
East Borough will ultimately support the sale if MMS agrees to measures 
to protect fisheries and the environment.
    Thank you for allowing the Aleutians East Borough to testify before 
you today.
                                 ______
                                 

              Proposed Mitigation Measures for OCS Leasing

                    In the North Aleutian Basin \1\
---------------------------------------------------------------------------

    \1\ The proposed mitigation measures are in addition to the lease 
stipulations listed in the OCS DEIS for the Alaska Region, and to 
replace the Fisheries Protection stipulation which AEB has determined 
to be inadequate.
---------------------------------------------------------------------------

                          Fisheries Protection

    Lease related use will be restricted to prevent conflicts with 
local commercial, subsistence, and sport harvest activities. All OCS 
operations, both onshore and offshore, must be designed, sited and 
operated to ensure that:
    (a)  adverse changes to the distribution or abundance of fish 
resources do not occur;
    (b)  fish or shellfish catches are not adversely impacted by OCS 
activities;
    (c)  all exploration, construction and operation activities will be 
coordinated with the fishing community to maximize communication, 
ensure public participation, and avoid conflicts;
    (d)  ballast water treatment is required to remove or eliminate non 
indigenous species.
    (e)  fishermen are not displaced or precluded from access to 
fishing areas, unless they are adequately compensated for the 
displacement;
    (f)  fishermen are not precluded from participating in designated 
fishing seasons, unless they are adequately compensated for the lost 
season(s); and
    (g)  fishermen will be compensated for damage to fishing equipment, 
vessels, gear and decreased harvest value from OCS operations in a 
timely manner.
    NOAA Fisheries must complete a baseline fisheries assessment prior 
to commencement of OCS exploration. NOAA Fisheries must review and 
approve all exploration and development activities under the leases 
issued in collaboration with local, state and federal agencies, and 
implement federal monitoring programs to ensure these fish resource 
standards are met.
Transportation, Utility Corridors and Infrastructure Siting
    Transportation routes, utility corridors and infrastructure must be 
carefully sited and constructed to allow for the free passage and 
movement of fish and wildlife, to avoid construction during critical 
migration periods for fish and wildlife. Pipelines should be buried 
wherever possible. The siting of facilities, other than docks, roads, 
utility or pipeline corridors, or terminal facilities, will be 
prohibited within one-half mile of the coast, barrier islands, reefs 
and lagoons, fish bearing waterbodies and 1500 feet from all surface 
water drinking sources.
Coastal Habitat Protection
    Offshore operations must use the best available oil spill 
prevention and response technologies to prevent oil spills from 
adversely impacting coastal habitat, and to rapidly respond to oil 
spills. Geographic response strategies must be used to protect 
environmentally and culturally sensitive sites.
Local Hire and Training
    OCS Operators will be required to submit a local hire and training 
program prior to any exploration, production or permitting activity, 
which provides a description of the operator's plans for partnering 
with local communities to recruit and hire local residents, local 
contractors, and local businesses and a training program to prepare 
local residents to be qualified for oil and gas jobs for exploration 
and development activities within their region.
Air Pollution
    Best available emission control technology will be required for all 
industrial sources of air pollution, including criteria air pollutants 
and hazardous air pollutants.
Water Pollution
    A zero water pollution discharge will be required for all 
industrial operations.
Marine Mammals and Essential Habitat
    All onshore and offshore facilities and OCS-support vessel and air 
craft routes must be carefully sited to avoid marine mammal and 
essential habitat impacts.
Social Systems
    All onshore and offshore facilities must be carefully sited, 
designed and operated to avoid adverse social system disruptions and 
impacts. OCS Operators must:
    (a)  Minimize impacts on residential areas, privately-owned surface 
lands and native allotments;
    (b)  Provide utilities, support services and expand other community 
infrastructure, and services as needed to support their OCS development 
and associated local population increases; and
    (c)  Communicate with local residents, interested local community 
groups, and especially fishing organizations.
Good Neighbor Policy
    All OCS Operators, operating off the Aleutian East Borough 
coastline, should be required to adopt a Good Neighbor Policy that is 
appropriate for this region. AEB's Good Neighbor Policy requires OCS 
Operators to work with the AEB to provide cost effective fuel, power, 
transportation, medical services, emergency and other services to the 
local communities. AEB's Good Neighbor Policy also required OCS 
Operators to provide a compensation system to minimize disruptions to 
subsistence activities and provides resources to relocate subsistence 
hunters and fishermen to alternate areas or provide temporary supplies 
if a spill affects the taking of subsistence resources.
Cultural and Historic Site Protection
    OCS Operators must protect all existing cultural and historic sites 
and notify the local government as soon as possible about the discovery 
of prehistoric, historic and archaeological sites. The notification 
must describe what was discovered and how the area will be preserved. A 
final project report shall be submitted to the local government.
Seismic Design
    All onshore and offshore facilities must be designed to the Seismic 
Zone IV, Uniform Building Code design standard for the Aleutian Chain.
                                 ______
                                 
    Mr. Costa. All right. We have a five-minute rule. I know it 
is a little disconcerting.
    We have been changing chairmanships up here. I had to go 
speak on the Floor, but we do really appreciate when you stick 
around the five minutes. As a matter of fact, I have been known 
to give points for those who stay under five minutes.
    But we do appreciate your written testimony. And please, 
Mr. Gilman, please give Mayor Mack our regards. We appreciate 
your being here to testify on his behalf.
    Now it gets to the part where I think many Members get an 
opportunity to really ask questions or make comments. It is the 
part that I enjoy most.
    Dr. Springman, Dr. Short, and Mr. Gilman, I understand, but 
correct me if I am wrong, that you support policies that 
require zero discharge from drilling operations. Is that 
correct?
    Mr. Short. That is substantially correct, yes. For my part.
    Ms. Springman. For my part, I do, depending on where they 
are discharged and the characteristics of the discharge site.
    Mr. Costa. Well, and Mr. Gilman, do you want to comment? 
Yes or no. I mean, we don't have to----
    Mr. Gilman. Yes. We have it in our mitigation.
    Mr. Costa. All right. Well, I mean, I don't think any of us 
want to see any discharges. But when we understand what the, 
the primary causes of pollution are, I mean, it is just like 
people want zero risks on certain impacts on food 
contamination, or zero risks from driving one's automobile. I 
mean, there just aren't zero risks in life. And I just think it 
is a standard that, while allowable to try to gain, we can, as 
the EPA, as opposed to chasing parts per million, parts per 
billion, and parts per trillion, at some point becomes de 
minimis, I would think.
    Dr. Clark, I am curious about the automated observation 
network that you have helped implement near Boston for the LNG 
industry to minimize impacts. Are there lessons that we can use 
that for other experiences on the issue of OCS?
    Mr. Clark. Yes, sir, I believe there are. One of the 
lessons learned for me, since I am an academic, was the 
learning the language and the nuances and the motivations of 
industry. I have worked with, at this interface for a long 
time, but in this case it was recognizing that everybody at the 
table wanted to find a solution.
    In most cases, what I brought to the table, they didn't 
understand what my point was, and I didn't understand what 
theirs was. And once we sat down and said we agree that there 
is a problem, let us figure out the problem, and let us come up 
with a solution, it was actually fairly straightforward.
    And so we have the technology in many cases, and it is a 
matter of developing it and applying it responsibly. And in 
this case, through oversight by the Federal government and the 
State of Massachusetts, this is what happened. So we actually 
built the thing.
    Mr. Costa. Yes, when you get the different parties who have 
differences, different interests, sit in the same room, 
oftentimes you can find paths to solutions to the issues that 
you are dealing with. That is the bottom line, right?
    Mr. Clark. Yes. Could I ask another thing?
    Mr. Costa. Sure, quickly.
    Mr. Clark. So we are talking with ExxonMobil, Conoco 
Philips, Shell, all these industries that want to do the right 
thing. And once they think about it from a business plan, and 
they build this mitigation process into the business plan, the 
problem is, that is the major step in the problem.
    Mr. Costa. Yes. And in that sense, you think we can 
decrease the impact of seismic surveys, which I think are 
important?
    Mr. Clark. You think it is important to decrease the 
seismic----
    Mr. Costa. No, no. I said I think seismic surveys are 
important to do the inventory. I think it is a critical tool.
    Mr. Clark. That is correct, right.
    Mr. Costa. But I am asking you, can we decrease the impact 
of the, the adverse impact on the seismic surveys?
    Mr. Clark. Absolutely.
    Mr. Costa. OK, good, good. Before my time has expired, 
Captain Colburn, I am a big fan. I didn't get a chance to 
introduce you. I was looking for it. But I, on the Discovery 
Channel, have seen the incredible challenging work you and your 
crews and your fellow captains do in pursuing the deadliest 
catch, as they say.
    How many years have you been performing your work on the 
coastal areas of Alaska?
    Mr. Colburn. Twenty-four years would be the time I have 
spent in Alaska. I have spent my entire fishing career working 
in the North Aleutian Basin.
    Mr. Costa. And what would you observe are the primary 
differences over that 24-year period?
    Mr. Colburn. Primarily, I would say that the biggest 
differences are the fleets consolidated. We have seen 
efficiency gains in the fleets across the board.
    Mr. Costa. Do you think we are doing a better job managing 
the ocean resources in your neck of the woods?
    Mr. Colburn. I think the science-based management that is 
used in the Alaska fisheries is phenomenal. I believe the 
managers have done a great job learning from the mistakes in 
other areas, and have managed to balance harvest versus----
    Mr. Costa. Your catch measurably over that period of years, 
24 years, has remained about the same, increased, or decreased?
    Mr. Colburn. Crab-specific or fishery-specific?
    Mr. Costa. Fisheries, generally.
    Mr. Colburn. Fisheries? Right now, pollock stocks are a 
little off, but they reached record highs within the last four 
years. The crab stocks right now are similar to levels in the 
close to the late seventies. They are very prolific and healthy 
right now.
    The opilio stocks right now are very healthy. Beardie, 
which was closed for 10 years, is now reopened. Cod is healthy. 
I would say across the board, the fisheries are healthy. But, 
you know, we have obstacles ahead of us.
    Mr. Costa. I understand. I have a couple more questions I 
would like to ask you, but I will try to see if I can get it in 
the second round. I don't want to impinge on other folks' time. 
And if I am not able to, I will submit them to you, as it 
relates to Valdez and the new exploration areas.
    The gentleman from Colorado, Ranking Member of the 
Subcommittee on Energy and Minerals, Mr. Lamborn.
    Mr. Lamborn. Sir, thank you. Mr. Gilman, thank you for your 
testimony today. I am sorry that the Mayor couldn't be here.
    But you mentioned that the borough has been investigating 
the impacts of offshore drilling on coastal communities for 
over 25 years. Many of the communities are currently dependent 
on fishing for their livelihoods.
    Do you think the two activities are compatible? And if so, 
what makes you more confident of this than some of the other 
witnesses?
    Mr. Gilman. We do think, the Mayor does think that there 
are compatible uses. We originally supported the lease sale 92 
in the 1980s, and then when the Exxon Valdez spill occurred we 
withdrew that support.
    We had a number of villages within 20, 25 miles of the 
lease sale area, and they were, they were distraught over the 
impacts of the Exxon Valdez. So the borough pulled back and 
decided rather than to pursue their support of OCS, that they 
would instead begin to educate themselves further. And they 
went to the Shetland Islands; they met with local people.
    They asked them basically, if you had it to do all over 
again, what would you try to accomplish. And the answer was 
that there needs to be more involvement, more local government 
involvement at the very beginning of the planning process, at 
the very beginning of the governmental process, so that the 
people that live in the area have some feeling of empowerment 
as it unfolds.
    And they have spent 15 or 20 years learning oil and gas 
technology, developing their regulatory structures locally so 
that they have some local control over these developments. A 
few people don't understand is that oil and gas in the North 
Aleutian Basin is going to have to cross borough lands. There 
are no deepwater ports on the north side of the Alaska 
Peninsula. It has to be piped to the south side, to the Gulf of 
Alaska side, where, frankly, the risk of spill is greater on 
the south side of the peninsula than it would be on the north 
side. Because----
    Mr. Lamborn. What kind of lands did you call those?
    Mr. Gilman. Sorry?
    Mr. Lamborn. What kind of lands did you call those?
    Mr. Gilman. The lands? Borough lands.
    Mr. Lamborn. Oh, borough lands.
    Mr. Gilman. County lands, our version of county. They are 
going to have to cross our county.
    So we have some local control over the permitting process, 
because the pipeline is going to have to be permitted or the 
development can't occur.
    So we do believe that the Minerals Management Service and 
the industry will respect the proposals that the borough 
developed over the last 15 years, which are in your folder.
    Mr. Lamborn. OK. Thank you for that answer, and please give 
our regards to the Mayor.
    Mr. Gilman. You are welcome.
    Mr. Lamborn. Dr. Short, the development of extended-reach 
slant drilling allows for greater development from shore of our 
OCS resources. Do you support the expansion of onshore drilling 
using that method, which goes out under the OCS for 
development?
    Mr. Short. If it is a question of that versus location of a 
drilling rig offshore, yes. That is a much safer way to access 
coastally accessible oil deposits. And the Liberty field I 
believe is currently the only offshore oil deposit that is in 
the Beaufort currently being exploited, and it is being 
exploited that way. So, yes.
    Mr. Lamborn. OK, thank you. I appreciate that.
    Dr. Clark, what would be the impact of windmills on the 
acoustic atmosphere of the ocean?
    Mr. Clark. A great question. I have actually looked at this 
in reading the EISs relative to Cape Wind, and the Norwegian, 
and the Netherlands situations. And my conclusion is that not 
much of anything.
    One of the things that you have to realize in terms of the 
acoustic impact, the greatest, highest period of chronic or, 
sorry, acute impact is during the actual development. So when 
you are seismic profiling, that is when the highest levels of 
noise, and when you are putting a monopole into the ground to 
build a windmill, that is when the highest impact is. But it is 
quite self-contained. Once it is operational, the noise 
component relative to whales is almost insignificant, in my 
opinion.
    Mr. Lamborn. OK. I want to thank you all for being here. We 
appreciate your testimony today.
    I yield back to Mr. Chairman.
    Mr. Costa. Thank you, the gentleman from Colorado.
    The gentlewoman from Guam, the Chairman of the 
Subcommittee, Mr. Bordallo.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman.
    Dr. Clark, I have a question for you. You testified that we 
really don't know the cumulative effects of noise in the oceans 
on marine animals, particularly when combined with other 
stressors. So you also mentioned that industry wants to do the 
right thing as part of their business plan.
    Well, how can we address this lack of knowledge, while also 
trying to give industry the tools to do the right thing, and 
minimize the impacts that any new energy development would have 
on marine animals?
    Mr. Clark. That is an amazing question. And to answer it--
and I am not being facetious; that is a very important and deep 
question. And I will try my best in the short amount of time.
    First of all, you need to prioritize what it is we don't 
know, and what that ignorance, how that impacts and constrains 
our ability to identify risk.
    So there are a lot of things we don't know. And sometimes 
we can spend our time and resources on stupid things, as 
opposed to going after the smart things. And that is what we 
have to agree on, is what is the rate-limiting piece of 
knowledge that we need to know?
    And I don't think it takes very long for a group of 
scientists and knowledgeable people, as well as getting full 
engagement with the representatives from government, state, and 
industry, to come down to conclusions. And we are doing those 
kinds of workshops right now.
    And it also depends highly on where you are going to do the 
activity. And in most cases, if you say you are going to go off 
Angola, or you are going to go off Gabon, or you are going to 
go off Madagascar or Brazil or one of those places, in most 
cases we don't actually have an inventory, a biological 
inventory, of what is there.
    So our biggest area of ignorance is we don't know what is 
there, why it is there, and when it is there. And I call this 
acoustic or biological prospecting.
    So some of those things can be done ahead of time, and they 
are not all that expensive. And they can be done in a timely 
fashion.
    Thank you.
    Ms. Bordallo. Thank you. It has been very helpful, Dr. 
Clark.
    Dr. Short, several witnesses at our hearings have discussed 
oil seeps and the amount of pollution these natural sources 
contribute to the ocean, relative to manmade sources, such as 
spills or other accidents.
    Would you care to comment on that issue?
    Mr. Short. It is true that natural seeps are the largest 
source of oil going into the ocean worldwide. But it is very 
patchily distributed.
    In North America, perhaps 60 percent of the oil entering 
the marine environment comes from seeps. On the West Coast, 
almost all of that comes from the Santa Barbara seeps off 
California.
    Ms. Bordallo. What is the percentage there?
    Mr. Short. I don't have it off the top of my head, but I 
will get it for you. It is on the order of 80 or more percent.
    In Alaska and the south coast of Alaska, far less, well 
under seven barrels a day seep into the ocean on a coastline 
equivalent from Boston to northern Florida.
    We wish we knew where oil seeps were in the rest of the 
state. And that really underscores a major message I would like 
to convey, that we have, as Dr. Clark also mentioned, we have 
very little knowledge of what is even out there in Alaska.
    The Arctic in particular is one of the places in the world 
where we don't even have a very good inventory of what is 
there, when it is there, when it migrates, et cetera.
    When we first did the first big round of offshore leasing 
in the United States, it was accompanied by the Outer 
Continental Shelf Environmental Assessment Program that was a 
very comprehensive effort in Alaska to determine what 
biological resources were at risk. It didn't get up to the 
Arctic very much, because the Arctic was so inaccessible. We 
really need another program like that explicitly on the Arctic, 
particularly now that it is more accessible and about to be 
developed.
    Ms. Bordallo. I have a followup, either with you or Dr. 
Springman. Would you say that the seeps are as hazardous as 
industrial spills?
    Mr. Short. The seeps are far less hazardous than industrial 
spills. One of the things about seeps is that they are slow, 
they are steady, and biological communities have adapted to 
them. Whereas industrial spills hit the environment all at 
once; it has very little time to adapt, and the communities 
often suffer catastrophic results.
    Ms. Bordallo. Thank you. My time is up, and I yield back.
    Mr. Costa. I thank the gentlewoman.
    The gentleman from Louisiana, Mr. Cassidy.
    Mr. Cassidy. Instead of saying boroughs, you should have 
said parishes. I would have understood that completely. Let us 
talk English here.
    [Laughter.]
    Mr. Cassidy. That said, Ms. Springman, it often seems--Dr. 
Springman, I am sorry--it almost seems as though if you want to 
have everything ruled out for generations, we have an 
existential anxiety.
    We can't prove a negative. We can't prove that there is 
going to be no 30-year effect of having a spill someplace, 
correct? I mean, we could in 30 years, but then what about 40, 
and what about 50?
    Ms. Springman. Well, you can't prove that a spill will or 
won't happen in a particular area. But you can prove that it 
won't happen where no drilling is being performed.
    Mr. Cassidy. Well, no. Well, we could say that we are going 
to have no offshore oil production whatsoever, and then we will 
have to import our oil. But I think what we have learned is, 
from the testimony, that there is more damage from tankers than 
there is from offshore drilling.
    Now, so, and from what Dr. Short just said, it is actually 
the one-time spill of an offshore tanker, I mean of a tanker 
disruption, that seems more difficult to manage than the 
gradual seepage from natural sources, or the rare seepage from 
a rig.
    So are you just saying that we shouldn't have any oil at 
all coming from offshore or being imported on tankers?
    Ms. Springman. Actually, what I am saying is that before 
any type of drilling takes place, the characteristics that can 
impinge and affect the risk of that site should be taken into 
account. All of them. Not just what is there as far as the gas, 
oil resources that are available, but also the depth, the 
diffusion potential, the life forms that are there----
    Mr. Cassidy. I gathered that, and I would agree with that. 
I am sorry, in your testimony it seemed like we should know the 
Nth degree of the toxicological effect.
    Dr. Clark, before Hurricane Katrina we used to have a home 
in the Mississippi Gulf Coast, and now we have a slab. But we 
used to go out in our boat, and we used to see dolphins 
cavorting alongside our boat.
    And so, as I listened to your testimony, which I, you know, 
I am just trying to understand, I am not trying to be 
confrontational; and I also know that rigs in the Gulf of 
Mexico have lots of fisheries around them. That is where the 
sports guys go if they want to, and gals go to pick up the 
fish.
    So I didn't understand how the mammal dolphin or the fish 
would not be bothered by the motorboat or the sounds of the 
rig. I mean, sound like this acoustic noise is of great 
concern, and yet they seem to congregate where there is an 
increased amount of noise. That is what I am asking.
    Mr. Clark. Yes, these are good questions. When I am talking 
about the noise, I am talking more about a chronic issue. And 
the majority of noise issue that I am talking about chronically 
has to do with ocean shipping. So the hundredfold to 
thousandfold rise in noise conditions in the ocean is by and 
large a result of ocean shipping noise, not from some activity 
like a motorboat riding around.
    I agree with you, I have had the thrill of being out in a 
boat, and had bow-riding whales and things like that.
    Mr. Cassidy. So that would not necessarily, so what you are 
arguing for is not so much against offshore drilling; you are 
arguing against bringing in tankers full of oil.
    Mr. Clark. I am actually not arguing against anything. I 
am----
    Mr. Cassidy. OK, I get it.
    Mr. Clark. I am merely pointing out the facts.
    Mr. Cassidy. But the relative risk benefit, the greater 
risk would be with the shipping, and less with the offshore 
drilling.
    Mr. Clark. Correct. We are the, the concern for me relative 
to ocean noise, anthropogenic noise, and marine mammals and 
fishes and invertebrates, is actually with the seismic 
exploration period. Which actually is a very strong, high-
intensity sound being injected into the water repeatedly for 
months at a time.
    Mr. Cassidy. Got you. Dr. Short, your concerns--and folks 
from your organization have been here before, and I respect you 
all's work--your concern has been about the impact of drilling 
on oceans, et cetera.
    But again, I keep on making the point, that if you look at 
the NOAA reports, the Flower Garden Coral Reefs in the 
Mississippi/Texas area are actually fairly healthy. And yet 
there is this incredible intensity of rig activity in the 
Western Gulf.
    And the thought occurred to me, maybe because there is so 
much activity, there is that much more policing. Maybe the 
problem isn't the rig activity, it is the absence or presence 
of policing. And in which case, paradoxically, rigging, putting 
rigs out there may actually benefit preservation of things such 
as flower gardens.
    I say that because Mr. Cousteau came and said the reefs are 
terrible off the coast of France. As far as I know, they don't 
develop oil and gas off the coast of France.
    I would just like your comments on that, please.
    Mr. Short. Well, as I am sure you are aware, oil floats. 
And the coral reefs and the flower gardens are 80 feet deep. So 
it is difficult for oil pollution to affect them, being so far 
down.
    Mr. Cassidy. So isn't the rigs per se, it isn't the 
drilling activity per se, but rather it is the oil on the top 
of the water that affects it?
    Mr. Short. In the case of an accident. And the other impact 
comes from disposal of produced water when it occurs 
accidentally or routinely. And in that case, that water is 
hypersaline, which means it is very dense, and usually loaded 
with contaminants. And it sinks to the bottom of the sea floor.
    Mr. Cassidy. Now, the nice thing I heard from Ms., Dr. 
Springman--I am sorry, Doctor; I am a doctor, too, and no one 
calls me Doctor any more, I apologize--is that you actually in 
Norway apparently have a system in which that is minimized. And 
so that, actually going back to what the Chairman and Dr. Clark 
said, is that you can actually achieve this sort of 
environmental minimal footprint.
    Thank you very much. I yield back. We are out of time.
    Mr. Costa. I will allow you a quick response, but the 
gentleman is out of time.
    Mr. Short. I would just like to point out that in the 
Arctic and Alaska, all of the oil produced by pipeline goes 
into a tanker. And so it is contributing directly to tanker 
traffic.
    Mr. Costa. Where it comes to California, most of it.
    The Chair will entertain a second round if the Members 
promise to be somewhat quick and efficient in their time. And I 
will try to set the example here with a couple quick questions.
    In fact, Captain Colburn, have you noticed 20 years we are 
celebrating--not celebrating--we are recognizing 20 years of 
the tragedy of the Valdez spill. How would you say the area 
there has cleaned up? Your observations?
    Mr. Colburn. The observations----
    Mr. Costa. As a fisherman.
    Mr. Colburn. As a fisherman?
    Mr. Costa. Yes.
    Mr. Colburn. The Prince William Sound herring fishery has 
not recovered at all.
    Mr. Costa. It has not.
    Mr. Colburn. Yes. It is depressed. They attempted to open 
it, a limited opening a few years back, and there was no 
success rate whatsoever. The fish have literally left the area. 
The few that have remained are seriously prone to disease or 
carrying disease. And ultimately, it has affected the marine 
food web there.
    Mr. Costa. I see.
    Mr. Colburn. Herring is a vital source of food in that 
area.
    Mr. Costa. And with the expansion of OCS leases last year 
for Minerals and Management Services, and the discussion up in 
the Bering Sea, what is your take on that, as a person that 
depends upon the resource and the culpability of maintaining 
multiple uses of the oceans?
    Mr. Colburn. I am terrified. I mean, I have seen the crab 
stocks completely disappear without explanation, concurrent 
with seismic testing. I mean, we are talking about sounds that 
are, you know, enough to deafen a man. I mean, literally, depth 
charges of sound being blasted to the bottom, and hundreds of 
thousands of those. That would just be stage one.
    I mean, throughout the entire process you are looking at 
infrastructure----
    Mr. Costa. OK, I promised to be quick. I want one other 
question here.
    Dr. Springman, you had talked about the toxicity of 
drilling fluids from oil and gas operations. Have you done any 
comparative analysis between the toxicity of those petroleum 
products versus other impacts with other kinds of either point-
source or nonpoint-source discharges into the ocean?
    Ms. Springman. I have not done any comparative analysis 
between non point-source pollution. But that would also depend 
on the site where you are assessing non point-source pollution, 
and to see the site where you are assessing drilling mud, 
essentially.
    Mr. Costa. No, I understand. Do you know of any comparative 
analyses that have been done?
    Ms. Springman. Not off the top of my head, but I can get 
that information for you.
    Mr. Costa. All right, appreciate that.
    I am going to defer. I took two minutes and 22 seconds, 
although I have more questions. Oh, our other two gentlemen 
left. OK, all right.
    You are in the hot seat, and we will close the hearing. The 
gentlewoman from Guam.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman, 
Dr. Clark.
    I have a followup on our earlier discussion. The idea of 
doing biological inventories to assess risk, do you think the 
industry representatives you have been working with would 
support doing this kind of planning up front as part of a 
comprehensive energy strategy?
    Mr. Clark. Yes, I do, Madame. We have actually had, and we 
are having, these discussions. And I am encouraged by the 
notion that being, what is the slogan, saving tomorrow today? 
That is, being up front now, getting--and it is much, as you 
know, it is much less expensive to do the right thing now than 
to wait for et cetera, et cetera.
    And I could give you, or maybe you have access to the 
numbers in terms of the amount of time and resources spent on 
litigation, et cetera, et cetera. Whereas we could use those 
resources and time to actually get answers that help address 
the real questions that we are, I think we are all in agreement 
we want to do it right. And we need to do it sooner rather than 
later.
    Ms. Bordallo. Right, very good. Thank you. Captain Colburn, 
at one of our hearings we had a witness who testified about how 
well fisheries and oil and gas coexist in the Gulf of Mexico. 
And that the rigs were actually a boon for fishermen, because 
they acted as artificial reefs.
    So do you think the same kind of benefits might occur in 
areas that you are familiar with?
    Mr. Colburn. Absolutely not. The Bering Sea is a completely 
different habitat. It is literally a windswept plain; it is not 
a reef-based system.
    To introduce artificial reefs I would say would be 
unnatural. To encourage diverse fish I would say would be 
encouraging invasive species. I don't think it would work.
    Ms. Bordallo. Thank you. Thank you for your answer. And 
that concludes my questioning, Mr. Chairman.
    Mr. Costa. Well, thank you. You were under three minutes. I 
will give you points
    No, I want to thank the Chairwoman and her Subcommittee and 
the staff and our staff, for working together on this joint 
hearing. I think we got some productive work done this day.
    And I also want to thank the witnesses, both on panel 1 and 
panel 2, for your due diligence and your testimony, and your 
efforts to answer the questions as best you can.
    We want to acknowledge the Members of both Subcommittees 
today and their staffs. We, I think, put all of you on notice 
under the rules, that Members may have 10 days to submit 
further questioning. And we hope if there are further 
questions, we will get those to you, and that you will get them 
back to the committee in a timely fashion.
    The hearing record will be held open for 10 days for the 
responses. And if there is no further business--yes.
    Ms. Bordallo. Mr. Chairman, just quick. I would like to 
thank the witnesses, particularly panel 2. This hearing lasted 
three hours, and we thank you for your patience and 
understanding.
    Thank you, Mr. Chairman. It has been a delight working with 
you.
    Mr. Costa. Always. Thank you, Madame Chairwoman. We have a 
little bit of a love fest here going. We want to thank 
everybody for being here.
    And if there is no further business, the two Subcommittees 
will now adjourn.
    [Whereupon, at 1:05 p.m., the Subcommittees were 
adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Mrs. Capps follows:]

  Statement of The Honorable Lois Capps, a Representative in Congress 
                      from the State of California

    Thank you, Chairwoman Bordallo and Chairman Costa, for holding this 
important hearing that considers if offshore energy development can 
coexist with healthy oceans. This hearing is particularly timely given 
that today is the 20th anniversary of the Exxon-Valdez oil spill.
    Thank you also to our esteemed witnesses for travelling here to 
talk about these important topics.
    The Exxon-Valdez oil spill devastated the ecosystem of Prince 
William Sound--killing wildlife, destroying habitat, and threatening 
the health and economic wellbeing of Alaska's residents. The damaging 
effects of this spill can still be seen today.
    In my own community, I witnessed firsthand the devastation of the 
Platform A blowout in 1969. This disastrous spill created an 800 
square-mile slick and marred 35 miles of California's coastline.
    And we continue to suffer at the hands of an industry that 
contributes to our local air, water, and noise pollution. Every year, 
thousands of cargo ships, including many oil tankers, some that are 
foreign-flagged, single-hull vessels, move through the Santa Barbara 
channel.
    This issue is critical to me and my constituents. Our coastal 
economy and fragile marine environment cannot tolerate even one more 
accident.
    This committee has already held three important and informative 
hearings on the impacts of offshore oil and gas drilling on the 
environment and coastal communities.
    Everyone knows that I have been a long-time opponent of new 
offshore oil and gas development.
    It is clear that given our country's deep and dangerous dependence 
on foreign oil, we do need to harness energy offshore, but in the form 
of renewable resources.
    However, we need to make sure that this development is done wisely 
and in an environmentally-sound manner.
    I will soon introduce a bill, entitled the Coastal State Renewable 
Energy Promotion Act, which will provide grants to states to survey the 
coastline to identify areas suitable for renewable energy development.
    I believe that these sorts of scientific assessments and marine 
spatial planning are crucial to the successful development of our 
renewable energy resources. By implementing these surveys, we can 
provide certainty for the industry, while ensuring that we are 
protecting the environment and serving the public good.
    Thank you again for calling this hearing and I look forward to the 
testimony from our knowledgeable witnesses. I am eager to learn what 
more Congress can do to promote environmentally-friendly and people-
friendly renewable energy development.

                                 <all>

</pre></body></html>
